<html>
<title> - THE FUTURE OF NPOESS: RESULTS OF THE NUNN-MCCURDY REVIEW OF NOAA'S WEATHER SATELLITE PROGRAM</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                    THE FUTURE OF NPOESS: RESULTS OF
                       THE NUNN-MCCURDY REVIEW OF
                    NOAA'S WEATHER SATELLITE PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 8, 2006

                               __________

                           Serial No. 109-53

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
27-970                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
RALPH M. HALL, Texas                 BART GORDON, Tennessee
LAMAR S. SMITH, Texas                JERRY F. COSTELLO, Illinois
CURT WELDON, Pennsylvania            EDDIE BERNICE JOHNSON, Texas
DANA ROHRABACHER, California         LYNN C. WOOLSEY, California
KEN CALVERT, California              DARLENE HOOLEY, Oregon
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
VERNON J. EHLERS, Michigan           DAVID WU, Oregon
GIL GUTKNECHT, Minnesota             MICHAEL M. HONDA, California
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         DANIEL LIPINSKI, Illinois
W. TODD AKIN, Missouri               SHEILA JACKSON LEE, Texas
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
J. RANDY FORBES, Virginia            BRIAN BAIRD, Washington
JO BONNER, Alabama                   JIM MATHESON, Utah
TOM FEENEY, Florida                  JIM COSTA, California
RANDY NEUGEBAUER, Texas              AL GREEN, Texas
BOB INGLIS, South Carolina           CHARLIE MELANCON, Louisiana
DAVE G. REICHERT, Washington         DENNIS MOORE, Kansas
MICHAEL E. SODREL, Indiana           DORIS MATSUI, California
JOHN J.H. ``JOE'' SCHWARZ, Michigan
MICHAEL T. MCCAUL, Texas
MARIO DIAZ-BALART, Florida


                            C O N T E N T S

                              June 8, 2006

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Sherwood L. Boehlert, Chairman, 
  Committee on Science, U.S. House of Representatives............     7
    Written Statement............................................     8

Statement by Representative Bart Gordon, Minority Ranking Member, 
  Committee on Science, U.S. House of Representatives............     9
    Written Statement............................................    10

Statement by Representative Vernon J. Ehlers, Chairman, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    11
    Written Statement............................................    12

Statement by Representative David Wu, Minority Ranking Member, 
  Subcommittee on Environment, Technology, and Standards, 
  Committee on Science, U.S. House of Representatives............    13
    Written Statement............................................    14

Prepared Statement by Representative Jerry F. Costello, Member, 
  Committee on Science, U.S. House of Representatives............    15

                               Witnesses:

Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, Ret.), 
  Administrator, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce; Under Secretary of Commerce for 
  Oceans and Atmosphere
    Oral Statement...............................................    16
    Written Statement............................................    19
    Biography....................................................    21

Dr. Michael D. Griffin, Administrator, National Aeronautics and 
  Space Administration
    Oral Statement...............................................    22
    Written Statement............................................    24

Dr. Ronald M. Sega, Under Secretary of the Air Force, U.S. 
  Department of Defense
    Oral Statement...............................................    25
    Written Statement............................................    29
    Biography....................................................    31

Discussion
  Confidence Levels of Budget and Schedule Estimates.............    33
  Nunn-McCurdy Decision Package..................................    36
  Decision-making Process and Cost Targets.......................    38
  Cost of Climate-related Sensors................................    40
  Cost Targets...................................................    41
  Information Oversight, Reporting, and Budgets..................    42
  International Bases and U.S. Control of Data...................    43
  Cost-benefit Analysis of NPOESS Costs..........................    44
  Status of VIIRS Sensor.........................................    45
  Cost of Program in Context.....................................    46
  Mandatory Confidence Levels....................................    47
  Employees Qualifications.......................................    48
  Guarantee of Plan..............................................    49
  Mistakes Leading to Current Problems...........................    49
  Joint Agency Effort............................................    50
  Awards and Bonuses.............................................    51
  Cost Confidences and CMIS......................................    51
  Award Fee......................................................    52
  Loss of Climate Data and Sensors...............................    53
  Prioritizing Additional Sensors................................    55

             Appendix 1: Answers to Post-Hearing Questions

Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, Ret.), 
  Administrator, National Oceanic and Atmospheric Administration, 
  U.S. Department of Commerce; Under Secretary of Commerce for 
  Oceans and Atmosphere..........................................    58

  Dr. Michael D. Griffin, Administrator, National Aeronautics and 
    Space Administration                                             67

Dr. Ronald M. Sega, Under Secretary of the Air Force, U.S. 
  Department of Defense..........................................    71

             Appendix 2: Additional Material for the Record

Letter to Chairman Boehlert from Kenneth J. Krieg, Under 
  Secretary of Defense, Department of Defense, dated June 5, 2006    80

Letter to Kenneth J. Krieg from Chairman Boehlert, dated June 6, 
  2006...........................................................    86


  THE FUTURE OF NPOESS: RESULTS OF THE NUNN-MCCURDY REVIEW OF NOAA'S 
                       WEATHER SATELLITE PROGRAM

                              ----------                              


                         THURSDAY, JUNE 8, 2006

                  House of Representatives,
                                      Committee on Science,
                                                    Washington, DC.

    The Committee met, pursuant to call, at 2:35 p.m., in Room 
2318 of the Rayburn House Office Building, Hon. Sherwood L. 
Boehlert [Chairman of the Committee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            HEARING CHARTER

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                    The Future of NPOESS: Results of

                       the Nunn-McCurdy Review of

                    NOAA's Weather Satellite Program

                         thursday, june 8, 2006
                          2:30 p.m.-4:30 p.m.
                   2318 rayburn house office building

Purpose

    The key program to build new weather satellites for both military 
and civilian forecasting has just undergone a statutorily required 
review because the program was more than 25 percent over budget. The 
program, the National Polar-orbiting Operational Environmental 
Satellite System (NPOESS), is jointly run by the Department of Defense 
(DOD), the National Oceanic and Atmospheric Administration (NOAA) and 
the National Aeronautics and Space Administration (NASA), with DOD and 
NOAA evenly splitting the costs, except for the costs of providing one 
preliminary satellite, which are being borne by NASA.
    The program has a troubled history of cost increases and schedule 
delays and it has been the subject of several previous Science 
Committee hearings, most recently a hearing on May 11 on a report by 
the Department of Commerce Inspector General (IG), which raised 
concerns about NOAA's program management and award fees paid to the 
prime contractor, Northrop Grumman.
    The June 8 hearing will focus on the results of the statutorily 
required review, known as a Nunn-McCurdy review. Under the law, any 
DOD-funded program that is more than 25 percent over budget must be 
reviewed to see if it should be continued and if so, in what manner.
    The review, which was carried out under the auspices of DOD by all 
three NPOESS agencies, determined that the program should be continued, 
but the number of satellites and their capabilities will be scaled 
back. The NPOESS agencies argue that the scaled back program will be 
able to capture all weather data collected by current satellites and 
will minimize the chance of having gap periods when a full complement 
of satellites is not flying.
    The revamped program is estimated to have acquisition (as opposed 
to operational) costs of $11.1 billion ($11.5 billion if launch costs 
are included). That is an increase of about 50 percent, or $3.7 billion 
over the most recent official baseline of $7.4 billion issued in 2004. 
The original cost estimate for the program as configured before the 
Nunn-McCurdy review, which was issued in 2000, was $6.5 billion. No 
additional funds beyond those already projected will be needed until 
fiscal year (FY) 2010, according to the three NPOESS agencies. The 
first NPOESS satellite would be launched in 2013. The 2004 estimate 
assumed a first launch in 2010; the 2000 estimate assumed a launch in 
2008. The Committee is seeking background materials to better evaluate 
and understand these estimates.

Witnesses

Dr. Ronald Sega, Under Secretary of the Air Force

Vice Admiral Conrad C. Lautenbacher (ret.), Administrator, National 
Oceanic and Atmospheric Administration

Dr. Michael Griffin, Administrator, National Aeronautics and Space 
Administration

Overarching Questions

    The hearing will address these overarching questions:

        1.  Are the new launch dates and cost estimate for NPOESS 
        realistic?

        2.  What capabilities are lost in the new NPOESS program?

        3.  Are critical weather forecasting capabilities maintained 
        and/or improved in the new NPOESS program?

        4.  What are the underlying assumptions (technical, cost, and 
        schedule) that support the new NPOESS program design?

        5.  Are there better alternatives than the one chosen in the 
        Nunn-McCurdy review, especially for fulfilling civilian needs 
        such as climate science?

Background

    Basic background on NPOESS can be found in the Committee's charters 
from November 16, 2005 and May 11, 2006, available at: http://
www.house.gov/science/hearings/index.htm

Nunn-McCurdy Review

    The NPOESS contract follows DOD acquisition procedures. As a 
result, it is subject to the Nunn-McCurdy provisions of the DOD 
acquisition law (10 U.S.C 2433). Under the Nunn-McCurdy law, if a 
program's costs increase more than 25 percent, the Secretary of Defense 
(or the Secretary of the appropriate branch of the military) must 
certify the program in a period of time specified under the law or no 
additional funds can be obligated for the program. Certification 
requires a written justification that:

        (1)  The program is essential to national security;

        (2)  There is no alternative the can provide equal capability 
        at less cost;

        (3)  New estimates of costs have been developed and are 
        reasonable; and

        (4)  Management structure is adequate to control costs.

    On January 11, 2006, the Secretary of the Air Force notified 
Congress that the NPOESS program would exceed the 25 percent Nunn-
McCurdy notification threshold (meaning that acquisition costs would 
increase by at least $1.85 billion over the program's most recent cost 
estimate of $7.4 billion). This triggered a formal certification 
process that effectively superseded any previous independent reviews as 
well as pending program direction decisions about mitigating cost 
overruns and schedule delays.
    To address each of the four criteria for the NPOESS program, DOD 
established four Independent Program Teams, each assigned to look at 
one of the criteria. These teams consisted of representatives of each 
of the agencies involved in NPOESS (DOD, NOAA, and NASA) and other 
experts on both satellite acquisition and on the technical capabilities 
of satellites. The Nunn-McCurdy certification process for NPOESS 
represents the first time an interagency program has undergone a Nunn-
McCurdy review. For FY 2006, the NPOESS program put an interim plan in 
place to continue building key components of the program pending a 
Nunn-McCurdy decision. Thus far under the new plan, the program is 
mostly on schedule and within cost estimates.
    On June 5, 2006, the Under Secretary of Defense for Acquisition, 
Technology and Logistics notified Congress that he is certifying NPOESS 
with the following major changes:

        <bullet>  New total program acquisition costs are $11.5 billion 
        to have polar satellite coverage by NPOESS through 2026. This 
        is a $3.7 billion increase over the most recent official total 
        acquisition budget of $7.4 billion adopted in 2004. It is a 
        $4.6 billion increase over the original program estimates of 
        $6.5 billion.

        <bullet>  The NPOESS program will consist of four satellites, 
        rather than six. The polar satellites basically are designed to 
        operate in groups of three to cover the earth in three separate 
        orbits. With the reduction to four satellites, we will rely on 
        European satellites (with the acronym METOP) for one orbit. In 
        the past, the U.S. has been concerned about getting all the 
        data we need from European satellites in a form that is useful 
        to U.S. scientists. It's not entirely clear how all of these 
        concerns will be addressed, although the concerns were more at 
        DOD than at NOAA.

        <bullet>  The first NPOESS satellite will launch in 2013. It 
        was most recently supposed to launch in 2010. The preliminary 
        test satellite, known as NPP and being built by NASA, will 
        launch in late 2009 rather than this year.

        <bullet>  The NPOESS program will drop five sensors, three of 
        them related to climate research. (The satellite itself will be 
        designed in such a way that if money is found elsewhere to pay 
        for the sensors they could be placed on the satellite, but 
        finding money elsewhere seems unlikely.)

        <bullet>  Work on one of the key weather sensors that is behind 
        schedule, known as CMIS (pronounced sea-miss), will be 
        discontinued and instead the program will begin development of 
        a new sensor that would have some or all of CMIS's intended 
        capabilities. That will not be ready for the initial NPOESS 
        satellite. Instead, the U.S. will have to rely temporarily on 
        the Europeans for data that was to be collected by CMIS, 
        including ocean wind speeds.

        <bullet>  Management reforms, including those recommended by 
        the Commerce IG, will be implemented. The Executive Committee 
        (EXCOM), which includes the three hearing witnesses, will meet 
        at least quarterly and the Northrop-Grumman contract will be 
        renegotiated.

        <bullet>  The changes will require renegotiating the contract 
        with the prime contractor. This contract renegotiation will 
        provide an opportunity to change the award fee structure of the 
        NPOESS contract to conform to recommendations from both GAO and 
        the Department of Commerce IG. The contract renegotiation could 
        also result in increased costs above the $11.5 billion number 
        certified by DOD.

Witness Questions:

    The witnesses were asked to address the following questions in 
their testimony.
Dr. Ronald Sega, Under Secretary of the Air Force
    Please describe the results of the Nunn-McCurdy review of the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) and its implications for the United States Air Force, 
including information that addresses the following questions:

        1.  In what ways, if any, does the Nunn-McCurdy decision change 
        the capabilities and launch schedule of the NPOESS program?

        2.  To what extent does the Nunn-McCurdy decision prevent a 
        potential gap in the National Oceanic Atmospheric 
        Administration's (NOAA) polar-orbiting weather satellite 
        coverage? If a coverage gap in NOAA satellites were to occur, 
        what are the implications for the Air Force and/or the 
        Department of Defense weather forecasting capabilities? What 
        are the contingency plans for a gap in polar satellite 
        coverage?

        3.  How does the Nunn-McCurdy decision incorporate the 
        recommendations of the Department of Commerce Inspector General 
        regarding NPOESS program oversight and contract award fees?

Vice Admiral Conrad C. Lautenbacher (ret.), Administrator, National 
        Oceanic and Atmospheric Administration
    Please describe the results of the Nunn-McCurdy review of the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) and its implications for the National Oceanic and Atmospheric 
Administration (NOAA), including information that addresses the 
following questions:

        1.  In what ways, if any, does the Nunn-McCurdy decision change 
        the capabilities and launch schedule of the NPOESS program?

        2.  To what extent does the Nunn-McCurdy decision prevent a 
        potential gap in the NOAA's polar-orbiting weather satellite 
        coverage? If a coverage gap in NOAA satellites were to occur, 
        what are the implications for NOAA's weather forecasting 
        capabilities? What are the contingency plans for a gap in polar 
        satellite coverage?

        3.  How does the Nunn-McCurdy decision incorporate the 
        recommendations of the Department of Commerce Inspector General 
        regarding NPOESS program oversight and contract award fees?

Dr. Michael Griffin, Administrator, National Aeronautics and Space 
        Administration
    Please describe the results of the Nunn-McCurdy review of the 
National Polar-orbiting Operational Environmental Satellite System 
(NPOESS) and its implications for the National Aeronautics and Space 
Administration (NASA), including information that addresses the 
following questions:

        1.  In what ways, if any, does the Nunn-McCurdy decision change 
        the capabilities and launch schedule of the NPOESS program?

        2.  To what extent does the Nunn-McCurdy decision prevent a 
        potential gap in the National Oceanic Atmospheric 
        Administration's (NOAA) polar-orbiting weather satellite 
        coverage? If a coverage gap in NOAA polar-orbiting satellites 
        were to occur, what would be the implications for NASA and 
        NASA-funded scientists? Would a gap require NASA to consider 
        launching any additional satellites of its own or to change 
        launch plans for any of its satellites?

        3.  How does the Nunn-McCurdy decision incorporate the 
        recommendations of the Department of Commerce Inspector General 
        regarding NPOESS program oversight and contract award fees?
    Chairman Boehlert. The hearing will come to order.
    I want to welcome everyone to this extraordinarily 
important hearing, at which we will begin to figure out how to 
move ahead with the NPOESS program.
    I underscore ``begin to figure out'' because we have just 
this week received the results of the Nunn-McCurdy review, and 
we necessarily can only begin to raise questions about the 
revised NPOESS proposal today. But I thought it was vital that 
this committee immediately begin asking questions and laying 
out concerns, given the troubled history of the program.
    So far, there is only one thing we know with certainty, and 
that is that the success of NPOESS is critically important for 
both military and civilian weather forecasting; which is to 
say, for both national security and for public health and 
safety. We have to make this work. NPOESS stands for National 
Polar-orbiting Operational Environmental Satellite System, and 
at some point, that word ``operational'' has to mean more than 
adding a vowel to the acronym.
    So, what we do need to know for this program to move ahead? 
I would start by saying that the Nunn-McCurdy review was a 
serious, tri-agency undertaking that has been put forward with 
a plausible plan. But we need more information to move from 
plausible to credible to persuasive, and the burden of proof is 
on the agencies represented before us today. We need to be 
convinced that these costs and schedule estimates are more 
reliable than all of those we have received in the past, and 
that they include adequate reserves and schedule margins.
    We also need to be convinced that the proposed 
configuration of satellites is the best way to meet U.S. 
weather and climate needs, that now we are finally cost-
conscious, we are not recklessly throwing sensors, especially 
climate sensors, overboard to save relatively small amounts of 
money. And we need to be sure that this configuration 
represents the best arrangement for the public, not, and I 
emphasize not, the least common denominator of bureaucratic 
infighting.
    Let me be very clear that this committee is not going to be 
able to be convinced of anything unless we have the documents 
we need and the discussions we need to evaluate for ourselves 
the way costs and schedules were estimated and the way 
decisions were made. So far, the Department of Defense, which 
controls the Nunn-McCurdy documents, has not been exactly a 
model of cooperation.
    We requested some pretty basic documents on Tuesday 
afternoon, and we finally received some of them less than an 
hour ago, and then, only because the Commerce Department and 
NOAA officials kept hammering away on our behalf, which I 
appreciate.
    I don't know how we are supposed to do our jobs on behalf 
of the public if we can't see how decisions were made. We need 
to be able to judge the validity of the $11.5 billion price tag 
for this program, and we need to understand what it would cost 
to do more or less than has been proposed. For an agency whose 
previous cost estimates have been off by more than 66 percent 
to tell us, ``Trust us,'' is on its surface preposterous, and 
we will not stand for it. We will make sure we get what we need 
to oversee this program. That is not just my opinion. That is 
our collective opinion. Mr. Gordon and the Chair just had a 
conversation less than a half-hour ago with Mr. Wu. Everyone we 
talked to on both sides of this center podium is of the same 
mind.
    In the meantime, working on NPOESS instruments and the 
preliminary satellite, NPP, is continuing, and apparently, has 
been going relatively smoothly.
    Management changes are beginning to be instituted, as we 
called for at our last hearing, echoing the Inspector General, 
who we think did a fine job, and the contract with the prime 
contractor, Northrop Grumman, will be renegotiated to, among 
other things, put in place a more defensible award regime. And 
the contractor, for the first time, received no award fees for 
the most recent period. A new program office has been 
established, and seems to well staffed.
    So I am hopeful that NPOESS will be able to move ahead more 
steadily from here on, but for that to happen, Congress and the 
Administration will need to work together to keep each other 
informed about this program. We need to make informed 
decisions. That has to start with determining if this scaled 
back, but more expensive, version of NPOESS is the way to move 
forward. It very may well be, but we can't take that on faith.
    So, I will end where I began. We have to make this work. 
Too much has been expended to start from scratch. We have to 
all work together to ensure that the public has the weather 
information it has come to expect and depend on, at key times 
for their very lives.
    Mr. Gordon.
    [The prepared statement of Chairman Boehlert follows:]
          Prepared Statement of Chairman Sherwood L. Boehlert
    I want to welcome everyone to this extraordinarily important 
hearing at which we will begin to figure out how to move ahead with the 
NPOESS program.
    I underscore ``begin to figure out'' because we've just this week 
received the results of the Nunn-McCurdy review, and we necessarily can 
only begin to raise questions about the revised NPOESS proposal today. 
But I thought it was vital that this committee immediately begin asking 
questions and laying out concerns, given the troubled history of the 
program.
    So far there's only one thing we know with certainty, and that's 
that the success of NPOESS is critically important for both military 
and civilian weather forecasting, which is to say for both national 
security and for public health and safety. We have to make this work. 
NPOESS stands for National Polar-orbiting Operational Environmental 
Satellite System, and at some point that word ``Operational'' has to 
mean more than adding a vowel to the acronym.
    So what do we need to know for this program to move ahead? I'd 
start by saying that the Nunn-McCurdy review was a serious, tri-agency 
undertaking that has put forward a plausible plan. But we need more 
information to move from ``plausible'' to ``credible'' to 
``persuasive.'' And the burden of proof is on the agencies. We need to 
be convinced that these cost and schedule estimates are more reliable 
than all of those we have received in the past, and that they include 
adequate reserves and schedule margins.
    We also need to be convinced that the proposed configuration of 
satellites is the best way to meet U.S. weather and climate needs--that 
now that we're finally cost conscious, we're not recklessly throwing 
sensors, especially climate sensors, overboard to save relatively small 
amounts of money. And we need to be sure that this configuration 
represents the best arrangement for the public, not the least common 
denominator of bureaucratic infighting.
    Let me very clear that this committee is not going to be able to be 
convinced of anything unless we have the documents we need and the 
discussions we need to evaluate for ourselves the way costs and 
schedules were estimated and decisions were made. So far, the 
Department of Defense, which controls the Nunn-McCurdy documents, has 
not exactly been a model of cooperation.
    We requested some pretty basic documents on Tuesday afternoon, and 
we finally received some of them a little while before the hearing, and 
then only because Commerce Department and NOAA officials kept hammering 
away on our behalf, which I appreciate.
    I don't know how we're supposed to do our jobs on behalf of the 
public if we can't see how decisions were made. We need to be able to 
judge the validity of the $11.5 billion price tag for this program and 
understand what it would cost to do more or less than has been 
proposed. For an agency whose previous cost estimates have been off by 
more than 66 percent to tell us ``trust us'' is preposterous, and we 
will not stand for it. We will make sure we get what we need to oversee 
this program.
    In the meantime, work on NPOESS instruments and the preliminary 
satellite, NPP, is continuing, and apparently has been going relatively 
smoothly.
    Management changes are beginning to be instituted, as we called for 
at our last hearing, echoing the Inspector General. And the contract 
with the prime contractor, Northrop Grumman, will be renegotiated to, 
among other things, put in place a more defensible award regime. And 
the contractor, for the first time, received no award fees for the most 
recent period. A new program office has been established and seems to 
be well staffed.
    So I am hopeful that NPOESS will be able to move ahead more 
steadily from here on out. But for that to happen, Congress and the 
Administration will need to work together to keep each other informed 
about this program. That has to start with determining if this scaled 
back, but more expensive version of NPOESS is the way to move forward--
it very well may be, but we can't take that on faith.
    So I'll end where I began. We have to make this work. Too much has 
been expended to start over from scratch. We have to all work together 
to ensure that the public has the weather information it has come to 
expect and depend on, at key times for their very lives.
    Mr. Gordon.

    Mr. Gordon. Thank you, Mr. Chairman--and for Dr. Griffin 
and Dr. Sega and other guests here today who haven't attended 
any of these NPOESS hearings, in response to our Chairman's 
opening statement, I would like to say amen.
    It should be very clear that we are very much in sync about 
this important issue. And as the Chairman said, the Nunn-
McCurdy review is complete, but there is still much to do 
before this plan is solidified and implemented. I expect this 
is the first of a series of hearings the committee will hold on 
the new program.
    I don't want to start off with a confrontational tone this 
afternoon, but I want to make it clear that we need--that to 
have confidence in this plan, we need more information. At this 
point, we have only a bare-bones, heavily censored description 
of the redesigned polar satellite program and that is simply 
not sufficient.
    What we do know, based on what we have been shared, is that 
we know that the best case interpretation of this plan is that 
there are more--it is more than $4 billion above the original 
cost estimate. We are on a path to purchase four satellites 
instead of six, with fewer instruments and reduced capacity.
    Now, that may very well be the best that can be done. 
Perhaps this plan may, in fact, deliver us the best combination 
of capabilities at the lowest cost, on a schedule that limits 
the degradation in weather forecasting ability. However, we 
cannot evaluate that proposed plan without more documentation 
to explain this choice and the annual budget estimates that 
flow from the proposed baseline.
    Additionally, we are--we really need to understand not just 
the annual budget estimates, but also, how reliable these 
estimates are, how much budgetary risk is calculated in this 
plan. Right now, no one in this room can answer that question, 
or at least none of the witnesses knew the answer as recently 
as yesterday.
    This committee has been told for many things--about the 
program over the years. For example, we were told that the 
program would cost $6.8 billion for six satellites with 
thirteen sensors, that the technical problems were manageable, 
that there is no delay in the schedule for the launch of the 
first satellite, that the cost overruns will not trigger the 
Nunn-McCurdy law's review provisions. I could go on, but I 
think you understand my point.
    So, again, let me be clear. I do not believe that any of 
the witnesses have come here today to mislead this committee, 
but I simply cannot endorse this program on the basis of 
assurances alone. Now, I should add that Members and staff have 
had briefings by the officials from DOD, NOAA, and NASA, but 
more often than not, the officials could not answer our 
questions. In those meetings, we have asserted our desire to 
see the underlying documents that led to this Nunn-McCurdy 
decision. No documents have been made available to us. The 
Under Secretary of Defense for Acquisition, Mr. Krieg, is said 
to have those documents, and control them. He has to give his 
blessing before the Committee can have them. He was invited to 
testify, but is supposedly on travel. Apparently, there are no 
phones where he is at the present time, so the Department of 
Defense could not approve, or could not get approval for the 
documents.
    Congress has a Constitutional responsibility to oversee the 
programs that we authorize and fund. We would not be fulfilling 
our responsibility if we blindly accept the program as offered. 
We need to see documentation that confirms the validity of this 
choice. We need to see annual estimates of the budgets that are 
associated with the estimates of the proposed $11.5 billion 
acquisition, and we need to understand what level of risk 
attached both to the plan to maintain weather data continuity 
and to the cost estimated to this program, and I hope that we 
can move forward in a cooperative partnership.
    Five minutes ago, we received some information, but I don't 
think it is going to be adequate. We look forward to absorbing 
that, and again, I welcome you as witnesses, and look forward 
to hearing your testimony.
    [The prepared statement of Mr. Gordon follows:]
            Prepared Statement of Representative Bart Gordon
    We are here this afternoon to take testimony on the plan for moving 
the NPOESS (N-POES) program forward.
    The Nunn-McCurdy review is complete, but there is still much to do 
before this plan is solidified and implemented. I expect this is the 
first in a series of hearings the Committee will hold on the new 
program.
    I don't want to start off with a confrontational tone this 
afternoon, but I want to be clear about what I need to have confidence 
in this plan--I need information.
    At this point, I have only a bare-bones, heavily-censored 
description of the redesigned polar satellite program. That is simply 
not sufficient.
    What do I know based on what has been shared? I know that the best 
case interpretation of this plan is that for more than $4 billion above 
the original cost estimate, we are on a path to purchase four 
satellites instead of six, with fewer instruments and reduced 
capability.
    Now that may be the best that can be done. Perhaps this plan may, 
in fact, deliver us the best combination of capabilities at the lowest 
cost on a schedule that limits the degradation in weather forecasting 
ability.
    However, I cannot evaluate the proposed plan without much more 
documentation to explain this choice and the annual budget estimates 
that flow from the proposed baseline.
    Additionally, we really need to understand not just the annual 
budget estimates, but also how reliable those estimates are. How much 
budgetary risk is attached to this plan? Right now, no one in this room 
can answer that question--or at least none of the witnesses knew the 
answer as recently as yesterday.
    This committee has been told many things about this program over 
the years. For example, we were told:

        <bullet>  That the program will cost $6.8 billion dollars for 
        six satellites with thirteen sensors.

        <bullet>  That the technical problems are manageable.

        <bullet>  That there is no delay in the schedule for the launch 
        of the first satellite.

        <bullet>  That the cost overruns will not trigger the Nunn-
        McCurdy law's review provisions.

    I could go on, but I think I have made my point. I do not believe 
that any of our witnesses have come here today to mislead this 
committee. But I simply cannot endorse this program on the basis of 
your assurances alone.
    I should add that Members and staff have had briefings by officials 
from DOD, NOAA and NASA, but more often than not the officials could 
not answer our questions.
    In those meetings we have asserted our desire to see the underlying 
documents that lead to this Nunn-McCurdy decision. No documents have 
been made available to us. The Under Secretary of Defense for 
Acquisitions, Mr. Kreig, is said to have those documents and control 
them. He has to give his blessing before the Committee can have them. 
He was invited to testify, but is supposed to be on travel.
    Apparently, there are no phones where he is at the moment so the 
Department of Defense could not get approval to provide the Committee 
with the documents we need. I hope the Chairman knows how much support 
he will get from me in the effort to get the Nunn-McCurdy decision 
package for our review.
    Congress has a constitutional responsibility to oversee the 
programs that we authorize and fund. I would not be fulfilling my 
responsibility if I blindly accept the program as offered.
    I want to see documentation that confirms the validity of this 
choice.
    I want to see annual estimates of the budgets that are associated 
with the estimate of the proposed $11.5 billion acquisition.
    I want to understand what level of risk attaches both to the plan 
to maintain weather data continuity and to the cost estimates of this 
program.
    I hope that we can go forward in a cooperative partnership to 
deliver this important satellite system to the Nation. Thank you.

    Chairman Boehlert. Thank you very much, Mr. Gordon. The 
distinguished Subcommittee Chairman, Dr. Ehlers.
    Mr. Ehlers. Thank you, Chairman Boehlert. I am pleased the 
Committee is holding this hearing today to help us all 
understand what the recent Nunn-McCurdy decision means for this 
critical program.
    These satellites provide data that are essential to NOAA's 
ability to provide accurate forecasts of severe weather, 
including hurricanes. Additionally, with the NPOESS program, 
NOAA's needs are now tied to the military's needs. The men and 
women of the armed forces put themselves on the line for us 
every day, and the least we can do is ensure that they have 
accurate weather forecasts, so they can perform their jobs 
effectively, and we can ensure that they return home safely 
when those jobs are done.
    The importance of the NPOESS program cannot be overstated. 
Lives are at stake, both the military lives I mentioned, as 
well as the civilian lives, and letting down our fellow 
citizens is not an option. We must make sure that we have the 
satellites we need when we need them.
    Excuse me. Unfortunately, the NPOESS program has been 
deeply troubled, resulting in billions of dollars in cost 
overruns and years of delays that ultimately triggered the 
Nunn-McCurdy process. The NPOESS program that has emerged from 
this process is significantly different from the program we 
started with. At first glance, the newly certified program 
looks reasonable, but 12 years into the program and three years 
before the first launch, we are at a critical point where there 
is little room left to recover from further missteps. I am 
ready to be convinced that the Nunn-McCurdy process has 
produced the best possible map of the way forward, and frankly, 
I am pleased with what I have seen of the result, and I 
appreciate all the work that has been done with it. But we need 
more specifics. It is basically up to you to convince me.
    I look forward to hearing more details of the alternatives 
that were considered, and how you worked together to arrive at 
the program we have before us. I also expect to hear more about 
what we have given up, and the implications for those choices.
    Finally, this program was also meant to aid important 
atmospheric research. Many of these research capabilities have 
been lost, so we need to be certain that we know exactly what 
we are giving up as we try to create a successful satellite 
system out of NPOESS. And furthermore, how we can, at some time 
in the future, recover those research capabilities and put them 
in space.
    I look forward to a lively, informative discussion today. I 
certainly am not interested in playing a game of gotcha or 
anything else. We are in this together. What we need is 
openness with each other, and a true desire to achieve a good 
result on the part of all persons and all parties.
    I want to thank our witnesses for being here. We are--I 
don't enjoy putting anyone through torture, and that is not my 
intent. I hope it is not the intent of anyone here, but we 
certainly have to work this problem through together.
    I yield back the balance of my time.
    [The prepared statement of Mr. Ehlers follows:]

         Prepared Statement of Representative Vernon J. Ehlers

    Thank you Chairman Boehlert. I am pleased the Committee is holding 
this hearing today to help us all understand what the recent Nunn-
McCurdy decision means for this critical program.
    These satellites provide data that are essential to NOAA's ability 
to provide accurate forecasts of severe weather, including hurricanes. 
Additionally, with the NPOESS program, NOAA's needs are now tied to the 
military's needs. The men and women of the Armed Services put 
themselves on the line for us every day and depend on accurate weather 
forecasts to perform their jobs effectively and ensure that they return 
home safely when those jobs are done. The importance of the NPOESS 
program cannot be overstated--lives ARE at stake, and letting down our 
fellow citizens is not an option. We must make sure that we have the 
satellites we need when we need them.
    Unfortunately, the NPOESS program has been deeply troubled, 
resulting in billions of dollars in cost overruns and years of delays 
that ultimately triggered the Nunn-McCurdy process. The NPOESS program 
that has emerged from this process is significantly different from the 
program we started with. At first glance, the newly certified program 
looks reasonable, but twelve years into the program, and three years 
before the first launch, we are at a critical point where there is 
little room left to recover from further missteps. I am ready to be 
convinced that the Nunn-McCurdy process has produced the best possible 
map of the way forward. But it is up to you to convince me.
    I look forward to hearing more details of the alternatives that 
were considered and how you worked together to arrive at the program we 
have before us. I also expect to hear more about what we've given up 
and the implications of those choices. Finally, this program was also 
meant to aid important atmospheric research. Many of these research 
capabilities have been lost, so we need to be certain that we know 
exactly what we're giving up as we try to create a successful satellite 
system out of NPOESS.
    I look forward to a lively, informative discussion today. I want to 
thank our witnesses for being here, and I yield back the balance of my 
time.

    Chairman Boehlert. Thank you very much. Thanks for that 
assurance.
    Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman, and Mr. Chairman, I always 
thank you for calling these hearings. However, today, I am at 
least a little concerned that this hearing may be premature 
unless this hearing is only one of a continuing series of 
oversight hearings.
    Chairman Boehlert. Let me assure you this is the beginning.
    Mr. Wu. Thank you, Mr. Chairman.
    Because for this hearing, I believe that neither the 
Members nor our staff, have received sufficient substantive 
materials on the Nunn-McCurdy decision that would allow us to 
exercise real oversight, to do our job, to hold both the 
agencies and ourselves accountable for taxpayer dollars. The 
result is that the witnesses before us today can pretty much 
tell us anything they want, and we can't sort out the hard 
facts from the hopeful scenarios.
    Admiral Lautenbacher was very generous with his time 
yesterday in meeting with me. He briefed me at some length in 
an effort to reassure me that stretching the program out was a 
good thing, and that the plan would not have any effects on 
weather forecasting capabilities.
    Perhaps those claims are true if every element of the Nunn-
McCurdy plan unfolds as hoped, but there are enormous risks 
built into the Nunn-McCurdy plan. For example, the plan assumes 
that the N prime satellite works as advertised as a gap filler, 
but given the N prime satellite project's track record, no one 
can be certain how it will perform in orbit. I believe this was 
a satellite that was dropped off a stand during construction.
    The plan also assumes that we will have 13 successful 
launches of thirteen satellites constructed by four different 
agencies, on schedule in each case. Those 13 satellites all 
have to work as advertised for at least as long as planned. If 
any of these vehicles or programs come up short, there will 
either be radical revision required, a loss of capability, or a 
dangerous gap in coverage.
    Not only is risk associated with providing continuous 
weather satellite coverage, but risk also overshadows the cost 
assessment. The Nunn-McCurdy plan says the base program should 
now cost, and I am not sure if the number is $11.1 billion or 
$11.5 billion, and perhaps the witnesses can work out that 
difference for us today. We don't know what level of confidence 
we should put in whatever that number is, $11.1 or $11.5. It 
seems to me that since we are canceling one of the two key 
instruments for weather forecasting, and starting an entirely 
new acquisition, that perhaps the confidence boundaries on that 
number might be low, and that even if the items are moving 
forward have had problems, and therefore, that these problems, 
as they are addressed, will cost more money.
    But that is the point. Until we see more information on 
what the DOD Cost Analysis Improvement Group actually says on 
all these items, we don't know how much confidence to put in 
the new bottom line number. I would not be surprised if the 
costs climb again, though at least I am hopeful that the rate 
of growth might decline.
    But even if costs don't go up, it appears that there are 
other costs or risks associated with this plan not included in 
the base program. For example, the use of European satellite 
data for real time forecasting models, we need ground station 
downlink--we need our own ground station downlink capability. 
That too will cost money, but how much, we don't know. No one 
has thus far been able to tell us.
    There is another example. Six instruments were dropped from 
the NPOESS program. DOD has invited those who might have an 
interest in that data to step up to the plate and pay for the 
instruments themselves. If, for example, Space Command decides 
that it must have the SESS instrument, and then puts up tens or 
even hundreds of millions of dollars, then the instrument might 
fly, but those dollars are not in the baseline $11.5 or $11.1, 
or whatever that number is, and the baseline Nunn-McCurdy 
number.
    My message is twofold. First, I would like to see the 
documentation that led Under Secretary Krieg to certify this 
new version of the NPOESS program under Nunn-McCurdy, and until 
I see that, and consult with staff and outside experts, I don't 
know how to best evaluate what we will hear today. When we are 
dealing with a program that has overrun its budget from $6.8 
billion to at least $11 billion, the time for wishful thinking 
should be behind us.
    Second, we must find a way forward that maintains the 
quality and continuity of our weather forecasting system. 
Billions of dollars of our nation's GDP are tied to those 
forecasts, and not only America's quality of life, but actual 
American lives hang in the balance, and I don't think that we 
can afford to get this wrong.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Wu follows:]

             Prepared Statement of Representative David Wu

    Normally, Mr. Chairman, I would thank you for calling these 
hearings. However, I am concerned that this hearing may be premature.
    Neither the Members nor the Staff has received sufficient, 
substantive materials on the Nunn-McCurdy decision that would allow us 
to exercise real oversight; to do our job and be accountable for tax-
payer dollars. The result is that the witnesses before us today can 
pretty much tell us anything they want and we can't sort out the hard 
facts from the hopeful scenarios.
    Administrator Lautenbacher was very generous with his time in 
meeting with me yesterday. He briefed me at some length in an effort to 
reassure me that stretching the program out was a good thing and that 
this plan would not have any impact on weather forecasting abilities.
    Perhaps those claims are true, if every element in the Nunn-McCurdy 
plan unfolds as hoped. But there are enormous risks built into the 
Nunn-McCurdy plan. For example, the plan assumes that the N prime 
satellite works as advertised. Given this project's track record, no 
one can be certain how it will perform in orbit.
    The plan also assumes that we will have 13 successful launches of 
13 satellites constructed by four different agencies on schedule in 
each case. Those 13 satellites all have to work as advertised for at 
least as long as planned. If any of these variables comes up short, 
there will either be radical revisions required, a loss of capability, 
or a troubling gap in coverage.
    Not only is risk associated with providing continuous weather 
satellite coverage, but risk also overshadows the cost assessment. The 
Nunn-McCurdy plan says the base program should now cost $11.5 billion. 
We do not know what level of confidence we should put in that number. 
It seems to me that since we are canceling one of the two key 
instruments for weather forecasting and starting an entirely new 
acquisition, that perhaps the confidence boundaries on that item should 
be very low. And even those items that are moving forward have had 
problems; problems that will need to be addressed and therefore, will 
cost money.
    But that is the point. Until we see more information on what the 
DOD Cost Analysis Improvement Group (CAIG) actually says on all these 
items, we don't know how much confidence to put in the new bottom line 
number. I would not be surprised if the costs climb again, though I am 
hopeful that the rate of growth will decline.
    But even if costs don't go up, it appears there are costs 
associated with this plan not included in the base program. For 
example, to use European satellite data for real-time forecasting 
models, we need our own ground station down-link capability. That too 
will cost money, but how much, we don't know. No one has been able to 
tell us.
    Another example. Six instruments were dropped from the NPOESS 
program. However, DOD has simply invited those who might have an 
interest in that data to step up to the plate and pay for the 
instruments themselves. If, for example, Space Command, decides they 
must have the SESS instrument and they put up the tens or even hundreds 
of millions that might cost, then it will fly. But those dollars are 
not in the $11.5 billion base program, as reconstituted by the Nunn-
McCurdy review.
    My message is two-fold. First, I want to see the documentation that 
led Under Secretary Krieg to certify this new version of the NPOESS 
program under Nunn-McCurdy. Until I see that, and can consult with 
staff and outside experts, I don't how to evaluate what we will hear 
today. When we are dealing with a program that has overrun its budget 
from $6.8 billion to at least $11 billion, the time for wishful 
thinking should be behind us.
    Second, we must find a way forward that maintains the quality and 
continuity of our weather forecasting system. Billions of dollars of 
our nation's GDP are tied to those forecasts, and not only quality of 
life, but actual American lives can hang in the balance. We can't 
afford to get this wrong.

    Chairman Boehlert. Thank you very much, Mr. Wu. I thank all 
my colleagues for their constructive and illuminating opening 
statements.
    [The prepared statement of Mr. Costello follows:]

         Prepared Statement of Representative Jerry F. Costello

    Good morning. I want to thank the witnesses for appearing before 
the Committee to discuss the Nunn-McCurdy decision on the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
satellites program.
    The agencies in charge of NPOESS are the National Oceanic and 
Atmospheric Administration (NOAA), the Department of Defense (DOD), and 
the National Aeronautics and Space Administration (NASA). The DOD is 
required by law to report to Congress any program they expect to have a 
15 percent cost overrun. The NPOESS program breached this limit several 
months ago, with DOD providing notice to Congress on September 28, 
2005. While I knew the NPOESS program would be at least 15 percent 
above the estimate of $6.8 billion, I was shocked to learn after a Full 
Science Committee hearing on November 16, 2005, that the NPOESS program 
was projecting cost overruns exceeding 25 percent. A program with a 
numerical value higher than 15 percent triggers an additional 
requirement under the Nunn-McCurdy law. Specifically, the DOD Under 
Secretary must review the program and certify that it satisfies four 
criteria before the project can proceed.
    Science Committee staff was briefed by the Department of Defense 
that the NPOESS program had been restructured from six satellites to 
four satellites. However, the Department said that they may terminate 
this acquisition after two satellites are completed. Further, the total 
program acquisition cost is estimated to be $11.1 billion, which is an 
increase of $4.3 billion. I would like to hear from the witnesses why 
we are buying fewer satellites at a higher price.
    I welcome the panel of witnesses and look forward to their 
testimony.

    Chairman Boehlert. Now, what specifically was done to make 
sure these numbers in Nunn-McCurdy. I am so anxious to ask you 
questions, that I was going to forget about your testimony.
    But I have been experienced in this business, and I know 
that the testimony usually is not particularly illuminating. It 
is the exchange. But we will go to the testimony. Thank you, 
Mr. Goldston, for reminding me of the importance of having 
these witnesses here, and giving them an opportunity to 
testify.
    First, our panel consists of Vice Admiral Conrad C. 
Lautenbacher, Jr., Administrator, National Oceanographic and 
Atmospheric Administration; Dr. Michael Griffin, Administrator, 
National Aeronautics and Space Administration; and Dr. Ronald 
M. Sega, Under Secretary of the Air Force, U.S. Department of 
Defense.
    Chairman Boehlert. Admiral, you are first up.

  STATEMENT OF VICE ADMIRAL CONRAD C. LAUTENBACHER, JR. (U.S. 
 NAVY, RET.), ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE; UNDER SECRETARY OF 
               COMMERCE FOR OCEANS AND ATMOSPHERE

    Admiral Lautenbacher. Thank you, Mr. Chairman, Ranking 
Member Gordon, and distinguished Chairmen of the Subcommittees, 
and distinguished Members of the Committee, thank you very much 
for the opportunity to be here today to discuss the recent 
Nunn-McCurdy certification of the National Polar-orbiting and 
Operational Environmental Satellite System, known as NPOESS. I 
hope that I can answer some of your questions before you have 
to ask them. I will try to do as much as I can in my testimony, 
and make it meaningful to all of you.
    Although the Nunn-McCurdy process is a DOD endeavor, both 
NOAA and NASA have been fully engaged in the process. Our 
personnel were members of all working groups, and the EXCOM met 
with DOD's Under Secretary Krieg, and participated in the 
decision-making process. I support the certification decision, 
and I want to thank Under Secretary Krieg for the inclusive 
manner in which the process was conducted.
    Let me first start by laying out the results of the 
certification from NOAA's point of view. First of all, data 
continuity and improvements for weather forecasting are 
maintained, but we will rely on European satellites for one of 
the three orbits.
    Second, we have minimized the potential for any gap in the 
coverage. Three, all major sensors are maintained, except for 
the CMIS sensor, which will be replaced by a smaller and less 
complex version that still meets our weather forecasting 
requirements. Number four, we were not able to keep some of the 
climate sensors in the final decision, and we could potentially 
lose some climate data, especially on solar irradiance, but we 
are working on specific mitigation plans with NASA and DOD, and 
will come up with a plan in the near future to provide for 
continuity.
    Number five, significant management changes are happening 
at all levels, including the EXCOM, which at my request will 
meet at least quarterly, and include the senior management of 
the prime contractor. In addition, all Department of Commerce 
Inspector General's recommendations will be implemented.
    Most specifically, now, the revised program consists of 
four NPOESS satellites operating in two orbits, and utilizes 
data from European weather satellites for the third orbit. We 
have put into place a key decision point before procuring the 
final two satellites. We have concerns with past performance of 
the prime contractor, and are exploring options to procure 
these two production satellites using an alternative 
integrator, which could be the government.
    This decision does not have to be made until fiscal year 
2010, which gives us time to assess realistically the 
performance of the NPP satellite, and the prime contractor. The 
first NPOESS satellite is expected to be launched at this point 
in early 2013, and the program is expected to last until 2026. 
The estimated total acquisition cost of the revised program is 
$11.5 billion, and the difference between $11.1 are the launch 
costs, $11.1 without launch, $11.5 with launch costs. We will 
provide more information.
    There has been skepticism over any NPOESS cost and schedule 
information, given the history of the program. We have much 
more confidence in these new estimates for several reasons. 
First of all, the DOD Cost Estimating Group has significantly 
changed the way they run their cost models, correcting 
inadequate assumptions from earlier versions, and updating 
their database to the experience that we have had in the 
beginning of this program. The $11.5 billion also includes much 
more realistic schedule margins and management reserves for the 
overall program and each critical sensor.
    To minimize any potential gaps in coverage, we are actively 
managing the remaining NOAA and DOD satellites, as well as the 
NPOESS Preparatory Program or NPP satellite, which will carry 
many of the core NPOESS sensors on a NASA platform. We do not 
believe there will be gaps in satellite coverage under this 
plan. However, should the remaining NOAA POES satellite fail on 
launch or in orbit, the N Prime satellite, we would have to 
rely on DOD, European, and the NASA satellites, and there would 
be some degradation to NOAA's forecasting ability until NPP or 
a NPOESS satellite could be launched.
    As part of the Nunn-McCurdy process, we have reevaluated 
all the key performance parameters, and we worked with the user 
community to prioritize the 13 NPOESS sensors. The certified 
program will procure and integrate the key sensors which will 
provide all of the capabilities NOAA requires to improve our 
weather forecasting mission.
    The only exception, as stated earlier, is CMIS. This 
project has too many technical challenges and risks, and will 
be terminated. However, a smaller, less complex replacement 
sensor will be competitively procured and integrated into the 
second satellite of the series. We believe that the new sensor, 
along with the use of European satellites, will meet all NOAA 
requirements, including ocean wind speed and all weather 
imagery, with less risk and at a lower cost. To further reduce 
risk to the program, we are also developing an alternative 
imaging sensor, which could be available for launch for the 
first satellite, in case VIIRS cannot finish its technical--
overcoming its technical challenges and finish final tests.
    Although the primary mission for NPOESS is to provide data 
for weather forecasting, many of the core sensors and some of 
the secondary sensors also provide climate and space weather 
observations. Unfortunately, difficult choices and tradeoffs 
had to be made, and funding to purchase five of the secondary 
sensors originally planned to be on NPOESS are not included in 
the certified program.
    To meet the requirements to measure the Earth's radiation 
budget, we are taking a research sensor already built, and 
backup operational space weather instrument from the POES 
series, and placing them directly on the NPOESS spacecraft to 
continue continuity in those areas. There will be no loss in 
continuity in those two areas, and we are using proven sensor 
technology.
    For measuring aerosols, NASA is planning an upcoming 
mission using the same sensor plan for NPOESS. However, the 
NASA research satellite is likely to last only five to ten 
years, so we are still identifying the long-term solution for 
the instrument.
    Finally, NOAA, NASA, and DOD are still formulating a plan 
for solar irradiance, which is used to determine how much heat 
content of the Earth is due to solar forcings, and an important 
continuity for us to maintain.
    We specifically decided that the NPOESS spacecraft will be 
built with the capacity to house all of the sensors, and 
includes funding to integrate them on the spacecraft. This 
decision was made because the EXCOM agreed that any additional 
funding gain through contract renegotiation or in unutilized 
management reserve would be considered to procure these 
secondary sensors, in addition to other organizations bringing 
money for these sensors to the table.
    Regarding management changes, NOAA insisted that management 
processes must be made more transparent, auditable, and 
strengthened at all levels. We cannot accept what occurred in 
the past, or fall guilty to the mistaken belief that cost and 
schedule overruns are the norm for satellite programs. We are 
putting into place additional checks and balances at all 
levels, and actions are underway to implement each of the 
Department of Commerce Inspector General's recommendations.
    At my request, as mentioned, the EXCOM will meet quarterly, 
and we will include the senior leadership from the prime 
contractor. We are implementing a new oversight level with the 
establishment of a program executive office, which reports to 
the EXCOM. This office will be led by an experienced senior 
acquisition executive, who will provide oversight of the 
government and prime and subcontractor performance. We have 
directed the PEO to obtain regular independent reviews of the 
program by outside experts, and the PEO will be the fee 
determining official, instead of the program director. The 
NPOESS contract will be renegotiated, and the top priority will 
be to lower the award fee percentage, while also implementing 
the recommendations of the DOC IG and the changes outlined in 
the DOD acquisition policy on award fee distribution.
    We have directed the NPOESS program office to change the 
way it monitors earned value data, key milestones, dollars 
spent, and contract personnel. They will now track these 
metrics on a more regular basis, which will provide real time 
insight into the health and status of the problem. These 
changes should provide the PEO and the EXCOM with more 
meaningful data to understand the actual progress of the 
program, as well as the potential problems, so corrective 
actions can be taken much sooner.
    In addition, the program office has been reorganized, and 
new personnel are being added to increase expertise in budget 
analysis, cost estimating, systems engineering, and program 
control.
    I would also point out the EXCOM will meet in August with 
the prime contractor to evaluate the restructured program. The 
meeting will examine how well the program office, PEO, and 
contractor are measuring early warnings to contain costs and 
schedule growth. I fully understand and share the concerns by 
this committee and the DOC IG about the cost overruns and 
schedule delays that have occurred, and I am committed to 
correcting the management flaws in this program.
    The good news is that we have been keeping to the schedule 
and costs of the interim plan we put into effect for 2006. We 
have also significantly reduced the overall risk in the 
program, and increased our confidence of success, one, by 
providing appropriate management reserves and schedule margins 
into the cost estimate, two, by providing more rigorous 
management oversight at all levels, and three, by assuring we 
can meet our performance requirements by substituting a smaller 
sensor for CMIS, and having a backup plan for the VIIRS 
instrument.
    We now have a path forward for NPOESS that, while not the 
NPOESS we envisioned originally, will ensure the Nation 
receives the vital weather information we require. I have more 
confidence this program can be successfully completed, and we 
have ensured we can add additional sensors in the future, which 
would fulfill all of the original NPOESS capabilities. Again, 
as in the past, I want to work directly with this committee to 
ensure that the rest of the NPOESS story is a positive one.
    Thank you for the opportunity to make the testimony.
    [The prepared statement of Vice Admiral Lautenbacher 
follows:]
     Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr.

Introduction

    Chairman Boehlert, Ranking Member Gordon and Members of the 
Committee, I am Conrad C. Lautenbacher, Under Secretary for Oceans and 
Atmosphere at the Department of Commerce (DOC) and head of the National 
Oceanic and Atmospheric Administration (NOAA). I am here to discuss the 
recent decisions made by the Administration regarding the National 
Polar-orbiting Operational Environmental Satellite System (NPOESS) 
program.

What is NPOESS?

    The U.S. has historically operated two operational polar satellite 
systems, one for military and one for civilian use. In 1994, it was 
decided to merge the two programs together. This new program, NPOESS, 
was originally designed to be a series of six satellites with a total 
13 different sensors. The new sensors would provide higher quality data 
that would support more sophisticated environmental models for improved 
weather forecasting.
    NPOESS is a unique program in the Federal Government. It is jointly 
managed by DOC, the Department of Defense (DOD) and NASA with direct 
funding provided by DOC and DOD. At the senior level, the program is 
overseen by an Executive Committee (EXCOM) and managed by an integrated 
program office (IPO).
    NPOESS is the most complex environmental satellite system ever 
developed. The program has presented numerous technical, developmental, 
integration and management challenges. As the Committee is well aware, 
in March 2005, the contractor informed the government NPOESS would not 
meet cost and schedule, mostly because of technical challenges with one 
sensor known as the Visible/Infrared Imager Radiometer Suite (VIIRS). 
In November, after several independent reviews, the EXCOM decided on 
management structure changes and narrowed a list of options on how to 
change the program. However, in December, the IPO notified the Air 
Force projected cost overruns would exceed the 25 percent threshold 
triggering a breach of the Nunn-McCurdy statute.

Nunn-McCurdy Process

    Although the Nunn-McCurdy process is a DOD endeavor, both NOAA and 
NASA have been fully engaged in the process. Our personnel were members 
of all working groups and the EXCOM met with DOD's Under Secretary 
Krieg and participated in the decision-making processes leading to the 
certification. I support the recertification decisions and the actions 
outlined in the June 5, 2006 NPOESS Acquisition Decision Memo (ADM), 
and I want to thank Under Secretary Krieg for the inclusive manner in 
which the process was conducted.
    Fixing NPOESS has been and continues to be my number one priority. 
Since the start of the certification process in January 2006, I have 
personally participated in many Nunn-McCurdy meetings, developed NOAA's 
position on the issues that arose in the various working groups and 
received frequent progress updates. Additionally, I continually 
monitored and assessed the status of the ongoing NPOESS program. 
Brigadier General (Select) Sue Mashiko, acting Program Executive 
Officer (PEO), provided weekly program status updates and met with me 
on a regular basis. The program has met each milestone for this year's 
interim plan and is within cost and schedule for the Fiscal Year 2006 
plan.
    Throughout the Nunn-McCurdy process I have had three priorities: 1) 
ensure continuity of polar satellite data; 2) implement management 
changes at all levels to improve oversight of the program and prevent 
recurrence of past problems; and 3) ensure the certified program meets 
NOAA requirements for improved weather forecasting and provides for 
growth potential in the areas of climate and space weather 
observations.
    I believe the certified program achieves these priorities. The 
revised program consists of four NPOESS satellites operating in two 
orbits and utilizes data from European weather satellites for the third 
orbit. The original NPOESS concept covered the same number of orbits. 
We have put into place a key decision point before procuring the final 
two satellites. We have concerns with the past performance of the prime 
contractor and are exploring options to procure these two production 
satellites using the government as the integrator. This decision does 
not have to be made until FY 2010, which gives us time to realistically 
assess the performance of the NPOESS Preparatory Program (NPP) 
satellite and the prime contractor. While the NPP mission is expected 
to be launched in 2009, the first NPOESS satellite is expected to be 
launched in early 2013 and the program is expected to last until 2026. 
The estimated total acquisition cost of the revised program is $11.5 
billion. The DOD cost estimators working closely with the program 
office have determined the FY 2006 and FY 2007 budgets are adequate to 
support the revised program.
    To minimize any potential gaps in coverage, we are rescheduling 
launches of the remaining NOAA and DOD satellites as well as the NPP 
satellite, which will carry four of the core NPOESS sensors on a NASA 
platform. We do not believe there will be a gap in data used for 
weather forecasting under this plan. However, should the remaining NOAA 
POES satellite fail on launch or in orbit, we would have to rely solely 
on DOD, European and NASA satellites and there would be some 
degradation to NOAA's weather forecasting ability until NPP or an 
NPOESS satellite could be launched.
    I insisted that management processes must be made more transparent 
and auditable and strengthened at all levels. We cannot accept what 
occurred in the past or fall guilty to the mistaken belief that cost 
and schedule overruns are the norm for satellite programs. We are 
putting into place additional checks and balances at all levels and 
actions are underway to implement each of the Department of Commerce 
Inspector General's (DOC IG) recommendations. At my request, the EXCOM 
will meet quarterly and we will invite senior leadership from the prime 
contractor. We are implementing a new oversight level with the 
establishment of a Program Executive Office, which reports to the 
EXCOM. This office will be led by a senior experienced acquisition 
executive who will provide oversight of the government and prime and 
subcontractor performance. We have directed the PEO to obtain regular 
independent reviews of the program by outside experts and the PEO will 
be the fee determining official instead of the program director. The 
NPOESS contract will be renegotiated and a top priority will be to 
lower the award fee percentage, while also implementing the 
recommendations of the DOC IG and the changes outlined in the recent 
DOD acquisition memo on award fee distribution.
    We have directed the NPOESS program office to change the way it 
monitors earned value data, key milestones, dollars spent and 
contractor personnel. They will now track these metrics on a more 
regular basis, which will provide real-time insight into the health and 
status of the program. These changes should provide the PEO and the 
EXCOM with more meaningful data to understand the actual progress of 
the program as well as the potential problems so corrective actions can 
be taken sooner. In addition, the program office has been reorganized 
and new personnel are being added to increase expertise in budget 
analysis, systems engineering, and program control.
    As part of the Nunn-McCurdy process, we reevaluated all the key 
performance parameters and worked with the user community to prioritize 
the 13 NPOESS sensors. The certified program will procure and integrate 
the key sensors which will provide all of the capabilities NOAA 
requires to improve our weather forecasting mission. These sensors 
include VIIRS, the Cross-track Infrared Sounder, the Advanced 
Technology Microwave Sounder, and the majority of the Ozone Mapping and 
Profiler Suite capabilities. The only exception is the Conical 
Microwave Imager Sounder (CMIS). This project has too many technical 
challenges and risks and will be terminated. However, a smaller and 
less complex replacement sensor will be competitively procured and 
integrated onto the satellite. We believe the new sensor, along with 
the use of European satellites, will meet all NOAA requirements, 
including ocean wind speed and all-weather imagery with less risk and 
at a lower cost. To further reduce risk to the program, we are also 
developing an alternative imaging sensor which could be available for 
launch of the first satellite in case VIIRS cannot overcome its 
technical challenges.
    Although the primary mission for NPOESS is to provide data for 
weather forecasting, many of the core sensors mentioned above and some 
of the secondary sensors would provide some additional climate and 
space weather observations. Unfortunately, difficult choices and trade-
offs had to be made and the cost to procure these sensors is not 
included in the certified program, however the program will plan for 
and fund the integration of these sensors on the spacecraft. Some of 
these sensors provide continuity to certain long-term climate records 
while other sensors would provide new data. NOAA, NASA and DOD will be 
assessing the impacts of these trade-offs, and will work in conjunction 
with our international partners to identify what mitigation strategies 
may be available. We specifically decided that the NPOESS spacecraft 
will be built with the capability to house all of the sensors and the 
program budget will include the dollars to integrate them on the 
spacecraft. This decision was made because the EXCOM agreed any 
additional funding gained through contract renegotiation or in 
unutilized management reserve would be used to procure these secondary 
sensors.
    To summarize, the certified NPOESS program will have fewer 
satellites, less sensors, while costing more money. But we will provide 
continuity of all current polar satellite data critical for our weather 
forecasting models while satisfying our requirements for future 
forecasting improvements. We have also significantly reduced the 
overall risk in the program (and increased our confidence of success) 
by providing appropriate management reserves and schedule margins into 
the cost estimates; through management changes at all levels; and by 
ensuring we can meet our performance requirements by substituting a 
smaller sensor for CMIS and having a backup plan for VIIRS.
    I believe this is a well-constructed, achievable plan and will 
address all known deficiencies with the program. I am fully committed 
to making this program a success. I appreciate the Committee's ongoing 
oversight of this critical weather satellite program, and I am ready to 
respond to your questions.

         Biography for Vice Admiral Conrad C. Lautenbacher, Jr.

    A native of Philadelphia, Pa., retired Navy Vice Admiral Conrad C. 
Lautenbacher, Ph.D., is serving as the Under Secretary of Commerce for 
Oceans and Atmosphere. He was appointed Dec. 19, 2001. Along with this 
title comes the added distinction of serving as the eighth 
Administrator of the National Oceanic and Atmospheric Administration. 
He holds an M.S. and Ph.D. from Harvard University in applied 
mathematics.
    Lautenbacher oversees the day-to-day functions of NOAA, as well as 
laying out its strategic and operational future. The agency manages an 
annual budget of $4 billion. The agency includes, and is comprised of, 
the National Environmental Satellite, Data and Information Services; 
National Marine Fisheries Service; National Ocean Service; National 
Weather Service; Oceanic and Atmospheric Research; Marine and Aviation 
Operations; and the NOAA Corps, the Nation's seventh uniformed service. 
He directed an extensive review and reorganization of the NOAA 
corporate structure to meet the environmental challenges of the 21st 
century.
    As the NOAA administrator, Lautenbacher spearheaded the first-ever 
Earth Observation Summit, which hosted ministerial-level representation 
from several dozen of the world's nations in Washington July 2003. 
Through subsequent international summits and working groups, he worked 
to encourage world scientific and policy leaders to work toward a 
common goal of building a sustained Global Earth Observation System of 
Systems (GEOSS) that would collect and disseminate data, information 
and models to stakeholders and decision makers for the benefit of all 
nations individually and the world community collectively. The effort 
culminated in an agreement for a 10-year implementation plan for GEOSS 
reached by the 55 member countries of the Group on Earth Observations 
at the Third Observation Summit held in Brussels February 2005.
    He also has headed numerous delegations at international 
governmental summits and conferences around the world, including the 
U.S. delegation to 2002 Asia-Pacific Economic Cooperation Ocean 
Ministerial Meeting in Korea, and 2002 and 2003 meetings of the World 
Meteorological Organization and Intergovernmental Oceanographic 
Commission in Switzerland and France, as well as leading the Commerce 
delegation to the 2002 World Summit on Sustainable Development in South 
Africa.
    Before joining NOAA, Lautenbacher formed his own management 
consultant business, and worked principally for Technology, Strategies 
& Alliances Inc. He was President and CEO of the Consortium for 
Oceanographic Research and Education (CORE). This not-for-profit 
organization has a membership of 76 institutions of higher learning and 
a mission to increase basic knowledge and public support across the 
spectrum of ocean sciences.
    Lautenbacher is a graduate of the U.S. Naval Academy (Class of 
1964), and has won accolades for his performance in a broad range of 
operational, command and staff positions both ashore and afloat. He 
retired after 40 years of service in the Navy. His military career was 
marked by skilled fiscal management and significant improvements in 
operations through performance-based evaluations of processes.
    During his time in the Navy, he was selected as a Federal Executive 
Fellow and served at the Brookings Institution. He served as a guest 
lecturer on numerous occasions at the Naval War College, the Army War 
College, the Air War College, The Fletcher School of Diplomacy, and the 
components of the National Defense University.
    His Navy experience includes tours as Commanding Officer of USS 
HEWITT (DD-966), Commander Naval Station Norfolk; Commander of Cruiser-
Destroyer Group Five with additional duties as Commander U.S. Naval 
Forces Central Command Riyadh during Operations Desert Shield and 
Desert Storm, where he was in charge of Navy planning and participation 
in the air campaign. As Commander U.S. Third Fleet, he introduced joint 
training to the Pacific with the initiation of the first West Coast 
Joint Task Force Training Exercises (JTFEXs).
    A leader in the introduction of cutting-edge information 
technology, he pioneered the use of information technology to mount 
large-scale operations using sea-based command and control. As 
Assistant for Strategy with the Chief of Naval Operations Executive 
Panel, and Program Planning Branch Head in the Navy Program Planning 
Directorate, he continued to hone his analytic skills resulting in 
designation as a specialist both in Operations Analysis and Financial 
Management. During his final tour of duty, he served as Deputy Chief of 
Naval Operations (Resources, Warfare Requirements and Assessments) in 
charge of Navy programs and budget.
    Lautenbacher lives in Northern Virginia with his wife Susan who is 
a life-long high school and middle school science teacher.

    Chairman Boehlert. Thank you very much, Admiral. You can 
see why I was anxious to get started with the questions, 
because they usually have five minutes for opening statement, 
and you were double that, but that is all right. We allowed 
that, and we are going to be generous with the time. It is too 
darn important to constrain what you want to tell us. But--
well, that is enough said about that.
    Dr. Griffin.

 STATEMENT OF DR. MICHAEL D. GRIFFIN, ADMINISTRATOR, NATIONAL 
              AERONAUTICS AND SPACE ADMINISTRATION

    Dr. Griffin. Good afternoon, Chairman Boehlert, Ranking 
Member Gordon, Members of the Committee.
    I normally enjoy hearings and meetings with you and your 
staff, but I wish today's hearing was under better 
circumstances. But we are where we are, and you have NASA's 
commitment to keep you informed about our role and 
responsibilities as a junior partner in the NPOESS program.
    One axiom applicable to today's hearing is when you are in 
a hole, stop digging. The Congress codified this axiom into law 
for DOD program managers, with the Nunn-McCurdy provision in 
the Defense Authorization Act of 1983. In fact, I have 
scheduled an upcoming meeting with former Congressman Dave 
McCurdy to discuss his perspective on this legislation, and 
lessons learned from this NPOESS recertification process. 
Because, as you know, we now have analogous reporting 
requirements to Congress in the NASA Authorization Act of 2005.
    The Nunn-McCurdy recertification process for programs like 
NPOESS is a necessary step in restoring credibility for major 
programs to our stakeholders in the Congress when those 
programs stray from cost, schedule, and performance plans. NASA 
has been active in this process this past year, and we remain 
committed to our role in the overall program.
    As I have testified to this committee on other NASA issues, 
space missions, even weather satellites, which many Americans 
appreciate but often take for granted, are quite simply the 
most technically challenging tasks our nation undertakes. 
Weather and climate research satellites are no exception. They 
are just as difficult.
    We at NASA are committed to doing our part to meet this 
challenge with the NPOESS program. NASA's role was to develop 
and demonstrate one of a kind technologies, leading to 
operational capabilities. NASA is developing the NPOESS 
Preparatory Project, or NPP, and we provide long-term climate 
measurements for the science community. The NASA-managed NPP 
satellite is a joint project between us and the NPOESS program 
office. We are providing the NPP spacecraft bus. We have 
developed an advanced microwave sounder instrument to measure 
atmospheric temperature, pressures, and moisture, and we will 
provide launch service, currently planned for the fall of '99--
I am sorry, of '09, pardon me.
    While NPP is not designed as an operational weather 
satellite like NPOESS, it could provide partial coverage while 
on orbit, as the NPOESS satellites come online in 2013. The NPP 
satellite is currently awaiting delivery from NPOESS program 
office of the Visible/Infrared Imaging Radiometer Suite, or the 
VIIRS instrument, for integration on the spacecraft. This 
instrument is on the critical path of the NPP mission, and is 
essential to the risk mitigation of the operational NPOESS 
program.
    Further, the Nunn-McCurdy recertified NPOESS program 
includes other key instruments for climate measurements. 
However, in the process of re-baselining NPOESS, we chose to 
place the highest priority on continuing existing operational 
environmental monitoring sensors, and we will defer or delete 
those censors that do not provide continuity with existing 
operational measurements. This has been a careful balance of 
tradeoffs for cost and schedule, but as government managers, we 
needed to set priorities within the resources provided and the 
schedule permitted.
    You have my commitment to work with the Science Committee, 
international partners, as well as NOAA and the DOD, to define 
those climate measurements which are of the highest priority, 
and which might be hosted on other satellite platforms.
    Mr. Chairman and Members of the Committee, when you are in 
a hole, stop digging. We have recertified to the Congress, 
through the Nunn-McCurdy process, what we are willing and able 
to do to ensure our nation's weather and climate monitoring 
program begins to climb out of the hole. I realize that we at 
NASA have had a credibility problem with Congress, and 
promising to do more with the resources provided than is 
reasonable to propose. NASA cannot afford everything that our 
many constituencies would like us to do, and working with the 
science community and Congress, we have had to make some 
difficult decisions on other programs. NPOESS is no exception. 
We are trying to be as realistic and forthcoming with you as we 
can be on our programs.
    We are a junior partner in the tri-agency NPOESS effort, 
and we are committed to the NPOESS team. We have got a 
challenge ahead of us, and we will need your help now more than 
ever.
    Thank you.
    [The prepared statement of Dr. Griffin follows:]

                Prepared Statement of Michael D. Griffin

    Mr. Chairman and Members of the Committee, thank you for this 
opportunity to appear today to share with the Committee information 
regarding NASA's stake in and commitment to the National Polar-orbiting 
Operational Environmental Satellite System (NPOESS) Nunn-McCurdy 
certification.
    The NASA role in the NPOESS program, in accordance with 
Presidential Decision Directive/NSTC-2, is to facilitate the 
development and insertion of new cost-effective technologies that will 
enhance the ability of the converged system to meet its operational 
requirements. NASA's primary stake in the NPOESS program is a 
scientific one; we look to NPOESS to provide long-term continuity of 
measurement of key climate parameters, many of which were initiated or 
enhanced by NASA's Earth Observing System. Toward this end, NASA has 
also entered into a partnership with the NPOESS Integrated Program 
Office (IPO) for the NPOESS Preparatory Project (NPP).
    NASA is committed to doing its part as a technology provider to 
make the NPOESS program, as restructured in the Nunn-McCurdy 
certification, succeed in collaboration with NOAA and the DOD. Below, I 
will address the two primary features of the Nunn-McCurdy certified 
program of critical importance to NASA: the NPP mission and the 
continuity of long-term climate measurements.

NPOESS Preparatory Project

    The mission of the NPP is twofold; first to provide continuity for 
a selected set of calibrated observations with the existing Earth 
Observing System measurements for Earth Science research, and secondly 
to provide risk reduction for four of the key sensors flying on NPOESS 
as well as the command and data handling system. The NASA-managed NPP 
project is a joint project between the NPOESS IPO and NASA.
    For NPP, NASA is providing the Spacecraft bus, the Advanced 
Technology Microwave Sounder (ATMS) sensor, and the launch services for 
NPP. The spacecraft bus is complete and the ATMS flight unit was 
delivered to the spacecraft integrator in October of 2005 for 
integration. The project is awaiting delivery of the IPO provided 
sensors so that final integration and testing can be completed.
    The IPO's delivery of the Visible/Infrared Imaging Radiometer Suite 
(VIIRS) instrument is on the critical path for the NPP launch. The 
development of this instrument for both NPP and NPOESS is continuing, 
with delivery of the sensor anticipated at the earliest, technically 
feasible date, for a September 2009 NPP launch. This represents nearly 
a three year slip from the originally planned launch in October 2006. 
The launch of the first operational NPOESS spacecraft is delayed until 
2013. NPP's planned launch in advance of NPOESS will ensure that NPOESS 
data products can be fully evaluated as to their effectiveness in 
providing the continuity of climate-quality data records.
    It is NASA's understanding that the IPO provided elements of the 
NPP mission will be adequately supported within the certified NPOESS 
program to ensure the launch of the NPP in September 2009. To support 
continuation of the 30-year record of NASA and NOAA ozone profile 
measurements, it is essential that the already completed OMPS (limb) 
sensor complete testing and integration onto the NPP spacecraft as 
previously planned.

Continuity of Long-term Climate Measurements

    The NPOESS program in the Nunn-McCurdy certification configuration 
includes advances in the measurement of key climate parameters through 
the inclusion of the VIIRS, CrIS, ATMS and OMPS (Nadir) instruments. 
Nevertheless, the decision during the Nunn-McCurdy process to place the 
highest priority on continuity of legacy operational measurement 
capabilities resulted in a lower priority for a number of environmental 
and climate measurement capabilities. Many of these measurements have 
been demonstrated in recent years on NASA's Earth Observing System 
platforms and are being widely used by researchers. Difficult choices 
and trade-offs had to be made and the cost to procure several of the 
secondary sensors that provide climate and space weather observations 
is not included in the certified program. However, the program will 
plan for and fund the integration of these sensors on the spacecraft. 
For example, some of these sensors provide climate measurements such as 
the Earth's energy balance, atmospheric ozone profiles, and solar 
energy input to the Earth, some of which have 30-year data records. 
These climate measurements are important to the public by providing a 
better understanding of atmospheric greenhouse effects, Earth ozone 
levels, and subtle changes in solar energy input that can have dramatic 
impacts on the overall climate.
    The certified NPOESS program also relies on the European MetOp 
satellites to cover the mid-morning NOAA orbit. MetOp will carry an 
older, less capable imaging instrument than NPOESS. The first of these 
European satellites, MetOp A is planned for launch in 2006 and will 
provide that coverage. NOAA is relying on its one remaining POES 
satellite (NOAA N') to provide operational coverage of the NOAA 
afternoon orbit until the launch of the first NPOESS spacecraft, C1, in 
2013. Depending on the lifetime of NOAA-N' there is a possibility of a 
short gap in operational coverage. However, NASA has agreed to fly NPP 
in the same afternoon orbit, and although it is not designed as an 
operational system, it could provide partial coverage until the launch 
of C1.
    NOAA, NASA and DOD will be working together on a mitigation 
strategy to lessen any impacts, including working with our 
international partners. The NPOESS spacecraft will be built with the 
capability to house all of the sensors and the program budget will 
include the dollars to integrate them on the spacecraft. This decision 
was made because the EXCOM agreed any additional funding gained through 
contract renegotiation or in unutilized management reserve would be 
used to procure these secondary sensors. NASA's plans in this regard 
will be guided by the forthcoming Earth science decadal survey now 
underway by the National Academy of Sciences. The science community, 
through this NRC decadal survey activity, has already registered its 
concerns with unmet expectations for key climate measurements in their 
interim report, and changes in climate capabilities in the revised 
NPOESS configuration will factor into their final report.
    Given the new priorities that resulted from the Nunn-McCurdy 
process, NASA looks forward to continuing to work with our NPOESS 
partners to successfully implement changes in response to the recent 
reviews of the program. The recommendations of the Department of 
Commerce Inspector General's (DOCIG) report are being addressed by a 
number of recommendations by the Nunn-McCurdy review team. First, the 
implementation of a Program Executive Officer (PEO) structure assists 
in providing better leadership, oversight, and communication with the 
EXCOM. Second, the program reviews should provide consistent feedback 
and increased visibility to the EXCOM on the status of the program. 
Third, the management challenge provided to the IPO to consider an 
award fee restructure and increase scrutiny of the award fee decisions 
are necessary steps towards addressing the Commerce Inspector General's 
report.
    The NPOESS Nunn-McCurdy process has been inclusive and NASA has 
been an active participant. NASA remains committed to the tri-agency 
partnership and will endeavor to meet our obligations in support of 
both NPP and NPOESS.
    Once again, thank you for the opportunity to testify today. I 
appreciate the support of Congress and this committee and would be 
pleased to answer any questions.

    Chairman Boehlert. Thank you very much, Dr. Griffin. Dr. 
Sega.

  STATEMENT OF DR. RONALD M. SEGA, UNDER SECRETARY OF THE AIR 
               FORCE, U.S. DEPARTMENT OF DEFENSE

    Dr. Sega. Mr. Chairman, Congressman Gordon, and 
distinguished Members of the Committee, I am honored to appear 
before you today to update you on the status of the NPOESS 
program. I request that my written statement be placed as part 
of the record.
    Chairman Boehlert. Without objection, so ordered. The 
entire written statements submitted will be part of the 
official record, as will the anticipated response we get from 
DOD to our information request.
    Dr. Sega. As I mentioned in the hearing last fall, we are 
committed to preserving the space capabilities that our 
commanders and forces depend on to conduct their missions.
    NPOESS will be a very important addition to the space 
systems that make swift, effective military actions possible. 
The program has encountered problems, but in concert with our 
NOAA and NASA partners, we have worked hard to fix them and get 
NPOESS back on track to deliver the capabilities we need.
    Whether it is ground troops relying on information via 
SATCOM or air crews planning strike, rescue or relief missions 
with weather satellite data, or analysts making up target sets, 
our space systems have done and are doing great things for U.S. 
security.
    I would like to relate a story that would help illustrate 
how important the space sensing systems are for weather. This 
involves Captain, now Major (select) John Roberts, part of 
Operation Iraqi Freedom. And this mission occurred on March 26, 
2003. It is a night time parachute drop by the Army's 173rd 
Airborne Brigade. The weather was rough, and it was a 
mountainous region in northern Iraq is where the mission was to 
take place. Captain Roberts is a U.S. Air Force combat 
weatherman--turns out that he had served nine of his ten years 
directly in Army units. In March 2003, while assigned to the 
173rd Airborne Brigade in Italy, he was planning the weather 
part of a jump that was to occur in northern Iraq to secure 
that area. A week prior, all the predictions were that the 
weather would be horrible on the planned jump night. The 
brigade commander said this is the night, make it work. John 
spent the week studying models, satellite photos, talking to 
CENTCOM and USAFE weather forecasters--all the weather looked 
bad.
    I got verification, not only from talking from John, but 
also from Major Shannon Klugg--it is in the back--if you would 
kind of raise your hand there. So on the 26th, jump day, John 
used the satellite imagery to review his predicted weather 
window--it was one hour long. He told me he was betting his 
bars on this decision. The predicted short window of 
opportunity was the only place where the weather would be 
lifting. They changed the takeoff time to match the open 
weather time. The brigade in flight was in 16 C-17s. In the 
first ten, there was over 1,000 troops, in the last six was the 
equipment--in the C-17s. An hour out, the ground team said the 
weather was still no go--800 foot ceiling and blowing snow. 
John came on the satellite phone to convince the brigade 
commander in one of the C-17s to proceed--keeping his eye on 
the satellite data. Thirty minutes out, the weather was still 
bad. Fifteen minutes out, the sky begins to clear, and the jump 
happens, and an hour after the jump, the weather closed back 
in.
    John landed the next day in a C-17 and for the Army folks, 
John Roberts could do no wrong. He is headed to Alabama to 
teach at Maxwell Air Force Base. It is important that the 
Captain John Robert's of the future have at least today's 
capability. Continuity is critical for this NPOESS program. 
Chart, please.
    In the DOD space part of acquisitions, we are getting back 
to basics, to maximize the probability of success. This 
approach is reapportioning the risk, to reduce the risk in that 
top systems productions phase, while accepting greater risk in 
science and technology and technology development. This 
approach lowers the risk and assists in production by 
incorporating only proven technologies and taking smaller, more 
manageable steps.
    The cost estimation allows more reserve. The system 
engineering is more rigorous. Some of these basic, fundamental 
principles, we are applying to the NPOESS program. On the 22nd 
of November 2005, just after our last appearance before your 
committee, I met with the NPOESS executive committee for the 
third time in my tenure, which started in August. During that 
meeting, the EXCOM received a report from the OSD Program 
Assessment and Evaluation, PA&E, Cost Analysis Improvement 
Group, the CAIG, that independently assessed the NPOESS program 
costs.
    After receiving the CAIG assessment, the acting program 
director determined that reasonable cause existed to believe 
that the program had grown beyond the 25 percent Nunn-McCurdy 
threshold, and sent a letter to that effect to the EXCOM on 
November 30, 2005. As you recall in the past hearing, we were 
looking at various options that the EXCOM was considering in 
the present situation.
    Once the Nunn-McCurdy breach has been certified--in this 
case, the Secretary of the Air Force notifying the members of 
the Defense and Commerce Oversight Committees--the 
certification process by statute reverts, to the Office of the 
Secretary of Defense and through the Secretary of Defense, 
delegated to the Under Secretary of Defense for Acquisition, 
Technology, and Logistics. He then owns the process.
    In the meantime, day-to-day operations and execution of the 
NPOESS program continued while this analysis took place. And by 
statute, this process has run outside of the military services 
by the Defense Acquisition Executive, Secretary Ken Krieg, on 
behalf of the Secretary of Defense. He was supported by 
integrated product teams chaired by OSD members, who examined 
the Nunn-McCurdy criteria. And ultimately the Nunn-McCurdy 
certification is made by the office of the Secretary of 
Defense.
    Secretary Krieg launched an extensive program analysis of 
NPOESS to meet the requirements of the Nunn-McCurdy process. 
This was a collaborative process, led by OSD and conducted with 
our agency partners, NOAA and NASA. It involved a rigorous 
examination of the program consistent with the Nunn-McCurdy 
process. Secretary Krieg's Nunn-McCurdy certification letters 
to Congress on the 5th of June provided the details of the 
certified program.
    Now OSD, through Secretary Krieg who owns this process, is 
the authority to release the data, that was part of the 
analysis and deliberations in the Nunn-McCurdy process. I 
assure you when I return to the Department, I will clearly 
articulate your requests and concerns with respect to the 
desired information to Secretary Krieg.
    Next chart, please. The certified NPOESS program reduces 
technology integration and risk. It increases our confidence 
level in timely delivery of core capabilities to the war-
fighter, which we believe is the number one priority. These 
core capabilities were identified by a Senior User Advisory 
Group, composed of members of NOAA, NASA, and DOD, and 
subsequently approved by the DOD Joint Requirements Oversight 
Council, the JROC, augmented by senior members from NOAA and 
NASA.
    The restructured NPOESS program implements many of these 
``back-to-basics'' principles and the philosophy I discussed 
earlier. The core capabilities would be provided in the first 
block of satellites, with additional payloads that could be 
integrated in later satellite blocks, as this NPOESS spacecraft 
bus will have room for payload and growth.
    Now what you see is three orbits, and the continuity is 
paramount. The AM orbit is important to us for forecasting. The 
PM ``model'' orbit is the secondary, our second priority, and 
is crucial for doing our models. And the data that will be 
received from the mid AM orbit is also augmenting the previous 
two.
    To ensure that we have success in the NPOESS program, the 
coordination with our partners is clearly important, and we 
have also reinvigorated the oversight of this program. Also at 
the November 22, 2005 meeting, the EXCOM decided to establish 
the program executive officer, PEO, for NPOESS, reporting to 
the EXCOM on acquisition matters. We assigned one of our best, 
brightest and most experienced officers, Brigadier General 
(select) Sue Mashiko--Sue--your hand there--as the PEO, and 
provided her with a very experienced acquisition professional, 
Colonel Dan Stockton, as the system program director.
    The NPOESS IPO has increased the management discipline of 
the NPOESS program. In conjunction with the prime contractor, 
the IPO put together an execution plan for FY '06. The NPOESS 
program has been meeting the milestones and technical 
objectives laid out in this plan, within the budget provided. 
Significant progress has been made on the sensors and ground 
systems that support both NPOESS and the NPOESS Preparatory 
Project. We are encouraged by the recent progress. We have a 
lot of work to do, and I believe this is due in part to this 
reorganized effort.
    The IPO has also reorganized the divisions more directly 
tied to key program areas, increased systems engineering 
capabilities and responsibilities to include integrated tests, 
established an algorithm division to manage critical data, 
established a mission assurance division to track system 
integrated performance assurance and, particularly important, 
established the chief engineer position. NPOESS should benefit 
from an emphasis on applying proven system engineering 
practices, such as developing sound, stable system requirements 
and better cost and schedule estimates.
    In closing, Mr. Chairman, the Department of Defense, in 
close cooperation with our partners from NOAA and NASA, remains 
committed to successfully delivering the NPOESS system, as 
restructured, on cost and on schedule. We have implemented 
significant rigor back into the program management. I believe 
the restructured program correctly balances requirements, 
costs, and schedule, while enabling expanded capabilities.
    I appreciate the continued support of the Congress and this 
committee to deliver vital capabilities to our war fighters, 
and ensure we have the space capabilities we need.
    Thank you for the opportunity to appear before you today.
    [The prepared statement of Dr. Sega follows:]

                  Prepared Statement of Ronald M. Sega

INTRODUCTION

    Mr. Chairman and Members of the Committee, I am honored to appear 
before you today to update you on the status of the National Polar-
Orbiting Operational Environmental Satellite System (NPOESS). As I 
mentioned in the hearing last fall, in my role of overseeing Department 
of Defense (DOD) space activities as DOD Executive Agent for Space, I 
am committed to preserving the space capabilities that our commanders 
and forces depend on to conduct their missions.
    NPOESS will be an important addition to the space systems that make 
swift, effective military actions possible. The program has encountered 
problems, but we have worked hard to fix them and get NPOESS back on 
track to deliver the capabilities we need. I am confident that, with 
the support and guidance of this committee, the NPOESS program will 
enhance the space-based weather sensing capabilities needed to meet our 
national security requirements in the coming years.

NPOESS STATUS

    Presidential Decision Directive NSTC-2, ``Convergence of U.S. 
Polar-Orbiting Operational Environmental Satellite Systems,'' written 
under the auspices of the National Science and Technology Council and 
dated May 10, 1994, established the NPOESS program and the NPOESS 
Integrated Program Office (IPO), made up of DOD, Department of Commerce 
(DOC), and National Aeronautics and Space Administration (NASA) 
personnel. The IPO formed in December 1994 to converge the DOD and DOC 
polar weather satellite requirements--based on the Defense 
Meteorological Satellite Program (DMSP) and the Polar Orbiting 
Environmental Satellite (POES), respectively--into a single system. On 
May 26, 1995, a Memorandum of Agreement signed by the Secretaries of 
Defense and Commerce and the NASA Administrator established further 
guidelines for the NPOESS program.
    Shortly after I became Under Secretary of the Air Force, the NPOESS 
Executive Committee (EXCOM) met on August 19, 2005. The NPOESS System 
Program Director (SPD) briefed the EXCOM on program status and options. 
The EXCOM was also briefed on the results of an Independent Review Team 
study of the program. The SPD analysis showed that the program was 
experiencing development challenges, including at least 15 percent cost 
growth. The EXCOM agreed with the SPD analysis that a Nunn-McCurdy 
notification to Congress should be initiated. On September 28, 2005, a 
letter from the Acting Secretary of the Air Force was transmitted to 
Congress.
    Also in August 2005, the EXCOM commissioned an Independent Program 
Assessment (IPA) to review the NPOESS program. The IPA leader, 
Brigadier General (retired) Jack Wormington, and his team of experts 
from the Air Force, the National Oceanic and Atmospheric Administration 
(NOAA), and NASA conducted a thorough and comprehensive review of the 
NPOESS program. On October 19, 2005, the EXCOM received the interim 
status briefing from the IPA, which formed the basis of some of the 
discussion during your committee's hearing on November 16, 2005.
    On November 22, 2005, I met with the EXCOM for the third time. 
During that meeting, the EXCOM received the report from the OSD Program 
Analysis & Evaluation (PA&E) Cost Analysis Improvement Group (CAIG) 
that independently assessed the NPOESS program cost. The EXCOM also 
took the final outbrief from the IPA, which had looked at several 
different options, including reducing the number of required sensors on 
the vehicle, using less-capable sensors, developing a smaller 
spacecraft bus, as well as evaluating the overall NPOESS management 
structure. As a result of this assessment, the EXCOM decided to 
establish a Program Executive Officer (PEO) for NPOESS, reporting to 
the EXCOM on acquisition matters. The NPOESS SPD would report to the 
PEO and focus on the day-to-day execution of the NPOESS program, while 
the PEO focuses on external factors and oversight. Air Force Brigadier 
General-select (BGen(S) ) Sue Mashiko was selected by the EXCOM to be 
the NPOESS PEO.
    After receiving the CAIG cost assessment, the Acting Program 
Director determined that reasonable cause existed to believe that the 
program had grown beyond the 25 percent Nunn-McCurdy threshold, and 
sent a letter to that effect to the EXCOM on November 30, 2005. 
Subsequently, the Secretary of the Air Force notified members of both 
Defense and Commerce oversight committees. The NPOESS Nunn-McCurdy 
certification process formally began in January 2006, and ran 
concurrently with the day-to-day execution of the NPOESS program. As 
prescribed by statute, the Defense Acquisition Executive, Mr. Ken 
Krieg, launched an extensive program analysis. This collaborative 
process, conducted with our agency partners NOAA and NASA, involved a 
rigorous examination of the program consistent with the Nunn-McCurdy 
process. Mr. Krieg's Nunn-McCurdy certification letters to Congress on 
June 5, 2006, provide details of the certified NPOESS program. (See 
Appendix 2: Additional Material for the Record.)
    Since October 2005, the NPOESS IPO has increased the rigor in the 
oversight and management of the NPOESS program. In conjunction with the 
prime contractor, the IPO put together an execution plan for FY06. The 
NPOESS program has been meeting the milestones and technical objectives 
laid out in the plan, within the budget provided. Significant progress 
has been made on the sensors and ground system that support both NPOESS 
and the NPOESS Preparatory Project (NPP). The engineering development 
unit of the Visible/Infrared Imaging Radiometer Suite (VIIRS) sensor 
successfully completed vibration testing and is currently in thermal 
vacuum testing. A successful completion of thermal vacuum testing will 
be a significant milestone in the acquisition of VIIRS, and will 
demonstrate the feasibility of the VIIRS design. The other NPOESS 
sensors that will support the NPP mission are making significant 
progress as well, with the Cross-track Infrared Sounder and Ozone 
Mapping and Profiling Suite flight units built and in acceptance 
testing today. NPOESS ground system risk reduction efforts and software 
development have also shown solid progress. We are encouraged by the 
progress in the NPOESS program during the last six months while the 
Nunn-McCurdy certification process took place, due in part to the 
EXCOM-directed reorganization,. We will keep the committee apprised of 
the status of this program.

AVOIDING COVERAGE GAPS

    As the Nunn-McCurdy team evaluated the NPOESS program, a guiding 
principle was to minimize the risk of a continuity gap between NPOESS 
and DMSP, POES, and the Earth Observing Satellite (EOS) Aqua mission. 
Maintaining polar coverage with the right sensor capabilities is vital 
to the future of our weather forecasting. The DOD Joint Requirements 
Oversight Council (JROC), augmented by senior representatives from NOAA 
and NASA, reviewed the requirements for the NPOESS program. 
Additionally, the Senior User Advisory Group (SUAG), composed of 
members from NOAA, NASA and DOD, also reviewed the capabilities that 
each NPOESS satellite should possess, given the required orbits.
    The Air Force is responsible for weather forecasting for global 
military operations, including coverage of areas from which data are 
usually unavailable or denied. DMSP is a key source of data to 
accomplish the military forecasting mission. It provides data on cloud 
cover, temperature and water vapor profiles, soil conditions, sea 
conditions, sea ice coverage, and auroral extent. DMSP also provides 
the necessary spatial resolution to support critical military 
operations. NPOESS will improve the quality of the data available for 
forecasting. Polar-orbiting satellites such as DMSP and NPOESS are 
critical because geostationary data is of lower spatial resolution and 
cannot effectively cover latitudes higher than 50 degrees--yet 
conditions at high latitudes are major drivers of worldwide weather. 
NPOESS, as the replacement for DMSP, is necessary to support national 
security objectives.

GETTING NPOESS ACQUISITION ``BACK TO BASICS''

    DOD space acquisitions programs are getting ``back to basics'' to 
maximize our probability for success. We believe focusing on 
acquisition and engineering basics should benefit the NPOESS program as 
it moves forward.
    Acquisition links technology with operations--it turns ideas into 
real, tangible items and delivers those items to the field. The ``back 
to basics'' approach views acquisitions as a continuous process with 
four distinct but interrelated stages. The first stage is Science and 
Technology (S&T), where we conduct basic research and explore the 
possibilities of new technologies. In the second, Technology 
Development, we evaluate the utility of discoveries made in the S&T 
stage. The third stage is Systems Development. Here, we take the most 
promising technologies and mature them to higher readiness levels so 
they can be integrated into operational platforms in the fourth stage, 
System Production.
    In this acquisition construct, technology is matured through the 
four stages to move from the lab bench to the test range and then to 
operations. We are emphasizing early technology development to ensure 
mature technology is available for our production systems.
    Basic research in science and technology generates knowledge and 
helps develop our scientists and engineers in our laboratories, 
universities, and research centers. This kind of cutting-edge work is 
inherently high risk, but we want to take risk in the earlier stages, 
not in the later stages. The DOD has been moving in the direction of 
increased emphasis on S&T for some time now; for example, our 
investment in space-related S&T has doubled over the last four years.
    Once we find a promising technology, we investigate its utility in 
the Technology Development stage. Thus, in the two supporting stages of 
Technology Development and Science and Technology, the approach is to 
take more risk and push the frontier harder.
    After we prove a concept or demonstrate the technology, ``back to 
basics'' demands that we mature it until we are confident it will work 
reliably in space. We build that confidence and performance during the 
Systems Development stage, where we get new technologies ready to 
incorporate into operational systems.
    Finally, once we have mature technology, we move into the fourth 
stage, System Production. In this final stage, we want to integrate 
mature technologies while employing a disciplined systems engineering 
process. We must also incorporate testability and modularity in the 
design, so we have a path to include newly matured technologies into 
operational systems in future versions. We will reduce the risk 
involved in this stage by starting with more matured technologies, more 
stable requirements, and more discipline in the systems design.
    This approach manages, or apportions, risk by accepting higher risk 
in those beginning stages; it lowers the risk in System Production by 
incorporating only proven technologies and taking smaller, more 
manageable steps. By doing so, we allow a constant, on-going rhythm of 
design, build, launch, and operate that should reduce the cycle time 
for space product acquisition, insert stability into our production 
lines and workforce, and enable us to field better systems over time. 
This approach will deliver timely, affordable capability to the 
warfighter while increasing confidence in our production schedule and 
cost.
    The NPOESS program has the potential to benefit from this approach, 
and could implement it through major discrete increments or ``blocks.'' 
The block approach is enabled by the inherent flexibility designed into 
the NPOESS spacecraft bus in weight, power, and the nadir deck; thus, 
the bus has room for growth of payload. Under a block approach, core 
capabilities would be provided in the first block of satellites; 
additional payloads could be integrated into later satellite blocks, 
and higher performance technical capabilities may be incorporated after 
the technologies have matured. The certified NPOESS program reduces 
technology and integration risk and increases our confidence levels in 
timely delivery of core capabilities to the warfighter. These core 
capabilities were identified by the Senior User Advisory Group (SUAG), 
composed of members from NOAA, NASA and DOD, and subsequently approved 
by the DOD Joint Requirements Oversight Council (JROC), augmented by 
senior representatives from NOAA and NASA. We are applying the back-to-
basics acquisition approach to the restructured NPOESS program by 
including a complement of sensors in the program to provide these core 
capabilities. These sensors include: Visible/Infrared Imager Radiometer 
Suite (VIIRS); Microwave Imager/Sounder; Search and Rescue Satellite 
Aided Tracking (SARSAT); Cross-track Infrared Sounder (CrIS); Advanced 
Technology Microwave Sounder (ATMS); Advanced Data Collection System 
(ADCS); Cloud's and Earth's Radiant Energy System (CERES); Ozone 
Mapping and Profile Suite (OMPS) Nadir; and Space Environment Monitor 
(SEM).
    This back-to-basics approach also hinges on strengthening 
collaborations between the players involved in the acquisition and 
requirements process, implementing more rigorous systems engineering 
processes, and improving the way we recruit and train our acquisition 
workforce. The NPOESS program should benefit from our efforts to 
strengthen collaboration across the space community between technical 
experts, acquisition personnel, weather forecasters, scientists, 
maintainers, and operators. NPOESS also should benefit from this 
emphasis on applying proven systems engineering practices such as 
developing sound, stable, system requirements, and better cost and 
schedule estimation. Finally, NPOESS should benefit from our efforts to 
raise the expertise of our systems engineers-and especially from the 
installation of experienced program managers like BGen(S) Mashiko.

CONCLUSION

    I appreciate the continued support and dedication of the Congress 
and this committee to deliver vital capabilities for national security. 
I look forward to working with you as we complete the NPOESS system and 
ensure that we have the forecasting and remote sensing capabilities 
that our nation needs.

                      Biography for Ronald M. Sega

    Dr. Ronald M. Sega is Under Secretary of the Air Force, Washington, 
D.C. Dr. Sega is responsible for all actions of the Air Force on behalf 
of the Secretary of the Air Force and is Acting Secretary in the 
Secretary's absence. In that capacity, he oversees the recruiting, 
training and equipping of more than 710,000 people, and a budget of 
approximately $110 billion. Designated the Department of Defense 
Executive Agent for Space, Dr. Sega develops, coordinates, and 
integrates plans and programs for space systems and the acquisition of 
all DOD space major defense acquisition programs.
    Dr. Sega has had an extensive career in government service, 
academia and research. He graduated from the U.S. Air Force Academy in 
1974 as a distinguished graduate. His active-duty assignments included 
instructor pilot and Department of Physics faculty member at the U.S. 
Air Force Academy. He entered the Air Force Reserve in 1982 with the 
901st Tactical Airlift Group at Peterson Air Force Base, Colo., serving 
in a variety of operations positions. From 1987 to 2001 he served at 
Air Force Space Command in several assignments, including Mission Ready 
Crew Commander for satellite operations for the Global Positioning 
System, Defense Support Program and Midcourse Space Experiment. A 
command pilot with more than 4,000 flying hours, he retired from the 
Air Force Reserve in 2005 as a major general, last serving as the 
reserve assistant to the Chairman of the Joint Chiefs of Staff.
    Dr. Sega joined NASA as an astronaut in 1990, making his first 
Shuttle flight in 1994 aboard the Space Shuttle Discovery. From 
November 1994 to March 1995, he was NASA's Director of Operations, 
Russia, responsible for managing NASA activities supporting astronaut 
and cosmonaut training for flight on the Russian Mir space station. He 
completed his second Shuttle flight in 1996 as payload commander for 
the third Shuttle/Mir docking mission aboard Atlantis, completing his 
astronaut tenure with 420 hours in space.
    Since 1982, Dr. Sega has been a faculty member in the Department of 
Electrical and Computer Engineering at the University of Colorado at 
Colorado Springs with a rank of Professor since 1990. In addition to 
teaching and research activities, he was Technical Director of the 
Laser and Aerospace Mechanics Directorate at the U.S. Air Force 
Academy's F.J. Seiler Research Laboratory, and Assistant Director of 
the Space Vacuum Epitaxy Center, including management of the Wake 
Shield Facility Flight Programs at the University of Houston. Dr. Sega 
was the Dean of the College of Engineering and Applied Science at the 
University of Colorado from 1996 to 2001. In August 2001, he was 
appointed as the Director of Defense Research and Engineering, Office 
of the Secretary of Defense, serving as chief technical officer for the 
Department and the chief adviser to the Secretary of Defense and Under 
Secretary of Defense for Acquisition, Technology and Logistics for 
scientific and technical matters. Dr. Sega has authored or co-authored 
more than 100 technical publications, has served on numerous local, 
regional and national advisory and governance boards, and he is a 
Fellow of the American Institute of Aeronautics and Astronautics and 
the Institute of Electrical and Electronics Engineers.

EDUCATION

1974  Distinguished graduate, Bachelor of Science degree in math and 
        physics, U.S. Air Force Academy, Colorado Springs, Colo.

1975  Master of Science degree in physics, Ohio State University, 
        Columbus

1982  Doctor of Philosophy in electrical engineering, University of 
        Colorado

CAREER CHRONOLOGY

1974-1982, U.S. Air Force pilot, instructor pilot, and Physics 
        Department faculty member (U.S. Air Force Academy, Colorado 
        Springs, Colo.)

1982-1985, Assistant Professor, Department of Electrical and Computer 
        Engineering, University of Colorado at Colorado Springs

1985-1990, Associate Professor, Department of Electrical and Computer 
        Engineering, University of Colorado at Colorado Springs (1987-
        1988, Technical Director, Lasers and Aerospace Mechanics 
        Directorate, Frank J. Seiler Research Laboratory, U.S. Air 
        Force Academy, Colorado Springs, Colo.; 1989-1990, Assistant 
        Director for Flight Programs, Space Vacuum Epitaxy Center, 
        Associate Research Professor in Physics, University of Houston, 
        Texas)

1990-1991, Astronaut candidate, NASA, Lyndon B. Johnson Space Center, 
        Houston, Texas

1991-1996, Astronaut, NASA, Lyndon B. Johnson Space Center, Houston, 
        Texas (1990-1996, Adjunct Professor of Physics, University of 
        Houston, Texas)

1996-2001, Dean, College of Engineering and Applied Science, University 
        of Colorado at Colorado Springs

2001, acting Assistant to the Secretary of Defense for Nuclear, 
        Chemical and Biological Programs, Office of the Secretary of 
        Defense, the Pentagon, Washington, D.C.

2001-2005, Director of Defense Research and Engineering, Office of the 
        Secretary of Defense, the Pentagon, Washington, D.C.

1982-2005, U.S. Air Force Reserve officer, pilot (302nd Tactical 
        Airlift Wing), space operator (Air Force Space Command), and 
        reserve assistant to the Chairman of the Joint Chiefs of Staff

2005-present, Under Secretary of the Air Force, Washington, D.C.

                               Discussion

    Chairman Boehlert. Thank you, Dr. Sega.

           Confidence Levels of Budget and Schedule Estimates

    Gentlemen, I am going to ask this of the panel: to what 
extent was cost a factor when deciding how to reconfigure 
NPOESS? Did you have a dollar level target, and how closely did 
you scrutinize cost estimates for different options? Who wants 
to go first? Admiral?
    Admiral Lautenbacher. I will start with that. Affordability 
is always an issue. We looked at affordability, but as I 
mentioned to this committee before, we looked at all possible 
alternatives, those that were above the costs, those that were 
close to the costs, and those that approximated the original 
program.
    So, we looked at a range of alternatives outside of the 
affordability issues.
    Chairman Boehlert. Did you have any target?
    Admiral Lautenbacher. I didn't have any target. I had a 
target to figure out how to make this program work, and provide 
the capabilities the country needs. I think that that is----
    Chairman Boehlert. But no dollar figure.
    Admiral Lautenbacher. I did not put a dollar figure on it--
--
    Chairman Boehlert. And you costed out various options?
    Admiral Lautenbacher.--and I didn't see any dollar figure. 
And we costed out various options, as honestly as we could, as 
I said, updating the cost models to take into account the 
performance on these new sensors, or the acquisition 
performance on these acquisition sensors, and those are the 
estimates that we have been using now.
    Chairman Boehlert. Well, that is one of the reasons why we 
think it is important that we have access to the CAIG people.
    Admiral Lautenbacher. Yes, sir.
    Chairman Boehlert. What is the confidence level in the new 
numbers, and how does that compare to that level for other 
programs? What does that confidence level mean, in terms of the 
size of the reserves built into your estimates?
    Dr. Sega. I have discussed the approach the CAIG has used 
in this cost estimation process. They are clearly the experts. 
But this program has been ongoing for a while, and so, there is 
additional data that is available from performance, whether it 
be building the sensors and buses, than you would have in a 
program that is starting from scratch. We also place continuity 
of service, of the data as a premium.
    So the CAIG looked at that first, to assure with high 
confidence--and their estimate is 90 percent confidence--that 
continuity of needed data was available. Then, within that, the 
cost confidence was at the 50 percent level.
    Chairman Boehlert. Fifty percent?
    Dr. Sega. Fifty percent level from the remaining part. Now, 
as we go forward in many of the programs that we are beginning 
now, such as the one we submitted to the Congress in fiscal 
year 2007 called TSAT, the confidence level is at 80 percent. 
But in this case, we have a portion of their estimate is pegged 
to 90 percent, so they have included additional schedule--which 
costs money--and then the pieces in terms of development--their 
cost confidence was at the 50 percent level.
    So, it is a little bit of apples and oranges, comparing a 
program cost estimation from a program that is beginning to one 
that they are assessing in mid-stream.
    Chairman Boehlert. Well, just for example, at DOD in 
general, what is the confidence level in costs, usually. What 
percentage are we talking about when we are dealing with big, 
expensive projects like this?
    Dr. Sega. Traditionally, the cost estimation has been at 50 
percent. We have taken many of the recommendations from outside 
advisory groups, such as the Young panel that did the work also 
for us in the Defense Science Board, and as we go to the 
prediction system production phase, if I could have that one 
first chart, please, when we get to a point where we are 
looking at system production, the definition, in terms of 
requirements, the maturity of the technology should be such 
that we know what we are going to build, and we will be able to 
reduce the acquisition cycle time, and our level of confidence 
in that program should increase, but it also will be done with 
the cost estimators, using an 80 percent figure. That is 
relatively new.
    Chairman Boehlert. Dr. Griffin, you know, with the CEV, you 
have got a cost confidence level of like 66 percent, haven't 
you?
    Dr. Griffin. Pardon me. I was going to round and say 65 
percent, but yes, that is what we are aiming for.
    Chairman Boehlert. Isn't 50 percent a lot lower than we 
have any right to expect in the confidence level of cost of a 
project of this magnitude? Admiral?
    Admiral Lautenbacher. Can I try it for a minute?
    Chairman Boehlert. Sure.
    Admiral Lautenbacher. The--and I first of all realize that 
we need to provide you more information, so I----
    Chairman Boehlert. You are right.
    Admiral Lautenbacher. I am not--I am just trying to explain 
where we are----
    Chairman Boehlert. And a lot of that information, you don't 
have in your possession.
    Admiral Lautenbacher. I do not have it to release it, that 
is correct. But the issue is on the cost estimates, that it is 
at a 90 percent confidence level that we are going to maintain 
the continuity of this program, in other words, we are not 
going to miss our launch dates, we are going to get the data. 
We are not going to have gaps.
    Chairman Boehlert. That is very comforting.
    Admiral Lautenbacher. So, that was built in from the front 
end of this, and that, then, translates back into the 
instruments and the satellites that go with it, so in each 
instrument and the satellites that go with it, there has been a 
schedule increment, and it varies on the instrument that they 
were estimating from, 20 to 25 percent, 15 percent, so there is 
a margin, schedule margin, a relatively large schedule margin, 
when you look at the kinds of schedules that you expect 
assembly lines to work on, into the schedule. Then, that 
additional margin, then, was costed, with all of the money that 
goes along with a schedule slip incorporated in it. And so, 
when you are talking about a 50 percent cost point, it is 
talking about one that has a very large schedule margin into it 
with the money against it. And I cannot, for the life of me, at 
this point, think of how to come up with a number to tell you, 
that means it is X percent.
    Chairman Boehlert. How do the margins factor in?
    Admiral Lautenbacher. When you add them up, there is a 
significant margin. I mean, maybe a year. Now, and again, we 
need to have the data in front of us to debate that.
    Chairman Boehlert. That is what this committee is saying--
--
    Admiral Lautenbacher. I understand that.
    Chairman Boehlert.--in one voice.
    Admiral Lautenbacher. And that is why I am here to try to 
help as much as I can, and we will try to get all the 
information----
    Chairman Boehlert. I know, you are from the Federal 
Government, and you are here to help.
    Admiral Lautenbacher. Here to help. Yes, sir. But there 
is--there are significant schedule margins in this estimate, 
and those have been costed honestly, at a most likely cost, if 
you want to use that word, because that is a significant 
increase, and when you look at the fact that the models now are 
based on the experience that we have had on the front end of 
this program, which is different than the database that was 
used previously, which a lot of the NASA smaller instruments, 
there is a significantly greater element of confidence that we 
are close to what this is going to cost.
    Chairman Boehlert. You can understand, and my time is up, 
and I will go to Mr. Gordon, but you can understand why our 
confidence level is not at a high percentage rate, given the 
history of this project. And we want to be able to accept the 
information given to us, assuming that it is given to us in 
good faith, and we want to be able to assume that it is very 
accurate, to the best of your ability, but you have got to earn 
the confidence of this committee by performance, and once 
again, I can't stress enough, on a bipartisan basis, we feel 
very strongly, Dr. Sega particularly, because you work in that 
funny shaped building across the river, and you have some 
influence, we need to get more information.
    Dr. Sega. I appreciate that, and as I said in my opening 
remarks, I will go back and ask----
    Chairman Boehlert. Well, it has been my experience that you 
have always been cooperative, and I appreciate that.
    Mr. Gordon.
    Mr. Gordon. Thank you, Mr. Chairman, and also, Dr. Sega, I 
appreciate your remarks earlier, and helping us get the 
information.

                     Nunn-McCurdy Decision Package

    And as you mentioned, the Nunn-McCurdy decision package 
contains the detailed analysis on every aspect of Under 
Secretary Krieg's certification. In particular, that included 
the Cost Analysis Improvement Group, or CAIG analysis, on the 
recommended options and summaries of costs of other options 
that were considered.
    So, let me--I want to ask all of you some specific 
questions, and I would like specific answers, and I only have 
five minutes, so if you could be, you know, direct, I would 
appreciate it.
    Dr. Sega, have you studied the Nunn-McCurdy decision 
package on NPOESS?
    Dr. Sega. The package that was submitted, yes.
    Mr. Gordon. You have studied the Nunn-McCurdy decision 
package on NPOESS?
    Dr. Sega. The package--The letter that was submitted to 
Congress, I have read that carefully. And----
    Mr. Gordon. Right, the letter that we--but the letter we 
received is not the package. Have you studied the Nunn-McCurdy 
decision package on NPOESS?
    Dr. Sega. I am not sure. There has also been an acquisition 
decision memorandum that is an internal document.
    Mr. Gordon. But have you studied the Nunn-McCurdy decision 
package that was given to Under Secretary Krieg?
    Dr. Sega. Sir, I don't know a package by that name. We had 
a series of briefings which we attended. Secretary Krieg made 
this a very inclusive process.
    Mr. Gordon. But there was--wasn't there a decision-making 
package that was given to Secretary Krieg? That is what we are 
asking for. Have you seen it? Have you studied it?
    Dr. Sega. Sir, it was an evolutionary process, that over a 
series of a number of meetings----
    Mr. Gordon. Was there a final product?
    Dr. Sega.--it began to----
    Mr. Gordon. Was there a final product?
    Dr. Sega. There was a final briefing, and----
    Mr. Gordon. Well, I am not talking about a briefing. I am 
talking about a product. I am not talking about somebody else 
summarizing it for you. Was there a final--I mean, was there a 
Nunn-McCurdy product that was put together, and given to 
Secretary Krieg?
    Dr. Sega. And speaking for myself, I did not go through the 
details of the--for example, the CAIG analysis, but rather 
reviewed the----
    Mr. Gordon. Okay. Well----
    Dr. Sega.--results of the CAIG analysis with----
    Mr. Gordon.--let me just try to go back again----
    Dr. Sega.--the different options.
    Mr. Gordon. Did Secretary Krieg receive a Nunn-McCurdy 
decision package?
    Dr. Sega. I don't know, besides the----
    Mr. Gordon. Well, then, what else would you call it, then? 
What would you call it? The information that he received to 
develop his certification.
    Dr. Sega. His--and----
    Mr. Gordon. Was this all oral?
    Dr. Sega. Okay--I will----
    Mr. Gordon. You all just--you just sat around and talked 
about it?
    Dr. Sega. The process went from January--and we hoped it 
would be earlier--as we had indicated, back to your committee, 
but we took the entire time--to review as carefully as possible 
these alternatives. They--
    Mr. Gordon. Yeah, and was there--and did that come together 
in a package that was provided to him to review?
    Dr. Sega. There was not a final package, because it was an 
evolutionary process by which----
    Mr. Gordon. And so, was there material, or was all this 
oral? Did you all just talk about, or was there----
    Dr. Sega. There was clearly written material that would 
come together--and a narrowing process. There were four 
criteria and four IPTs (integrated product teams) that reviewed 
the Nunn-McCurdy criteria. One was to look at the acquisition 
program as being essential to national security. That 
evaluation and that team, and they presented their information 
in the evolving fashion, from January until earlier this month. 
IPT-2 determined that there would be no alternatives to such 
acquisition program that will provide equal or greater military 
capability at less cost.
    Mr. Gordon. Okay. And then, was there--was all this put 
together into a package for the Under Secretary to review?
    Dr. Sega. There--By the final briefing, we were looking at 
results that we had incrementally evolved in terms of analysis 
and decision-making process.
    Mr. Gordon. So, you all just talked--you just sat around 
and talked about it. There was never a document that was put 
together?
    Dr. Sega. At each point----
    Mr. Gordon. I am asking a pretty simple question here. I 
want you to----
    Dr. Sega. Yes, the answer, basically, is at the end, the 
information--the decision space continued to be narrowed--and 
that is the data that we reviewed at the very end.
    Mr. Gordon. And so, all you reviewed was the final 
decision, not the options that were given before.
    Dr. Sega. We reviewed options in an evolutionary path over 
the period of roughly January through just early this month----
    Mr. Gordon. Okay. Well, let me try Dr. Griffin. Have you 
ever--Have you studied the Nunn-McCurdy decision package?
    Dr. Griffin. No, I haven't.
    Mr. Gordon. Thank you. Do you know whether anyone in your 
office has studied it, or anybody that you have authority over 
has?
    Dr. Griffin. I have attended several briefings, as have 
folks on my staff. The most recent of those was, I believe, 
last week or the week before. I lose track, but I have not seen 
a finalized Nunn-McCurdy decision package, as you would put it.
    Mr. Gordon. And Admiral, have you seen or studied a Nunn-
McCurdy decision package?
    Admiral Lautenbacher. I am not aware that there is a final 
decision package. There are a series of briefings and research 
material, that was presented to us through the course of the 
process, and I have studied all of those documents, yes.
    Mr. Gordon. So what you have seen was what was, I guess, 
filtered to give to you, then.
    Admiral Lautenbacher. No, I have looked at the work that 
each of the subcommittees did. Each subcommittee did, and there 
were, remember, a couple hundred people involved in this, so I 
looked at each of the reports that they did----
    Mr. Gordon. Well, let me----
    Admiral Lautenbacher.--in the process of going through 
this.
    Mr. Gordon. Let me, Secretary Sega, let me not say that you 
are avoiding my question. Let me say that I am not asking it 
properly, and I will try to do a better job with my 
terminology, so that you will know exactly what I am asking 
for. Thank you.
    Chairman Boehlert. The gentleman's time has expired. Dr. 
Ehlers.
    Mr. Ehlers. Thank you. Thank you, Mr. Chairman.
    It is--Frankly, it is not a very happy occasion, and I also 
don't particularly enjoy sitting here like a bunch of attorneys 
grilling potential criminals. That is not my intent at all. 
Frankly, as a scientist, I would be more comfortable sitting 
around a table looking at a bunch of charts and numbers, and 
trying to figure out just what you decided, and why you decided 
it.

                Decision-making Process and Cost Targets

    But I understand the Chairman asked the question about 
cost, and I want to just narrow that down again. As I 
understand your response to him, you didn't have a specific 
cost target. In other words, you didn't meet, say okay, this is 
the biggest cost we can do. How, you know, what can we put on 
it? So, if you didn't have a specific cost target, how were 
decisions made to terminate sensors, and how were decisions 
made to decide which sensors were going to be terminated? This 
reminds me a little bit of what we went through with the Space 
Station, which started out with a grand vision, and as costs 
kept up, we kept cutting, and now, we have ended up with 
something that I am not sure is all that usable. I am not 
drawing a parallel here, but it seems to me that has been the 
process.
    So my question is how did you make the decisions as to 
which sensors to terminate, and how does that fit into the 
whole big picture of what we are trying to accomplish here? I 
am looking for help from anyone.
    Dr. Sega. The two major groups that came together to look 
at the requirements was the Senior User Advisory Group, which 
had members from NOAA, NASA, and DOD, and then at the end, the 
Joint Requirements Oversight Council. There are key performance 
parameters that have been identified by us. And so the 
weighting was the ability of the sensors to meet prioritized 
need among the organizations.
    Admiral Lautenbacher. If I--when I maybe have over-
exaggerated answering the Chairman's question on the cost. Cost 
certainly is a factor. We looked at affordability when we 
looked at capability. So, you have to look at cost per dollar, 
or capability per dollar. You have to look at what you are 
getting, and how you are meeting the requirements, and 
Secretary Sega has just mentioned the fact that there was a 
very detailed requirements review conducted by the requirements 
panel that is set up among all three agencies, to look at the 
requirements that they consider important. And the first one 
was continuity. So, continuity was the number one issue that 
was brought. Then, the need to meet the continuous collection 
of data, and then, the absolute objective of trying to retain 
the growth, so that we could achieve the levels that we 
originally envisioned.
    So, that is the, you know, that is a judging factor, which 
we had to look at the cost, because there is a certain level at 
which you have to look at, the whole set of budgets that we 
have. So we looked at a range of things across the cost 
envelope, and looked at the capabilities, and tried to 
prioritize them in a way that made sense, for money spent, or 
for capability gained, in terms of the major missions, and the 
prioritization of the requirements. We don't have an endless 
stream of money. I just can't sit here and say that yeah, we 
just love to buy everything, because there is a requirement for 
everything that is there.
    Mr. Ehlers. Well, I can assure you you don't have an 
endless stream of money. That is why we are having the hearing.
    Admiral Lautenbacher. Yes, sir.
    Mr. Ehlers. But how did you decide if something was too 
expensive? How were those--what was the decision process on 
that, and was everyone involved, or was it primarily----
    Admiral Lautenbacher. We looked at--yes, these were part of 
the briefings. We looked at what the gains would be from buying 
the new instrument versus the old instrument, and looking at 
that as--it was a very small margin, is it worth the money, 
when we are in an overrun position, and a risk issue of 
complexity of the project?
    Mr. Ehlers. Yeah.
    Admiral Lautenbacher. So, it was a logical, you know, 
taking into account what the priority of the instruments are, 
and the capabilities we are trying to project. So, we looked at 
the marginal additions of the money spent on the instruments, 
and we prioritized them in that way.
    Mr. Ehlers. Okay. Mr. Griffin, do you have any wisdom to 
add to this?
    Dr. Griffin. Well, I will say that when we looked at the 
baseline position, as Admiral Lautenbacher said, was we needed 
to assure measurement and continuity, and that, in fact, is the 
issue that is most important to NASA. And we needed to assure 
that the continuity of measurements was not worse in any 
category than we had from existing systems. And then, the issue 
became how much capability growth could we obtain without 
undertaking a schedule risk, or a cost liability that we could 
not tolerate? If data continuity is your first priority, then 
the ability to deliver instruments and spacecraft on schedule 
outranks all other priorities, and so, that was the primary 
effort. And then, the options were presented in terms of the 
risk to that continuity, as well as the overall cost.
    We were well aware that we would not have more money 
available to do the program, and we were well aware that we 
were in an overrun condition, but the primary concern was 
minimizing the risk of not having the capability that we 
needed.
    Mr. Ehlers. Let me just ask you a couple of sequential 
questions on this.
    Dr. Griffin. Yes, sir.
    Chairman Boehlert. The gentleman's time is rapidly 
expiring.
    Mr. Ehlers. Okay. Well, these are superb questions, if you 
are curious.
    Chairman Boehlert. Well, I would expect nothing less from 
the very distinguished physicist, but try to be somewhat brief, 
if you will.
    Mr. Ehlers. Okay.
    Chairman Boehlert. There will be a second round after.

                    Cost of Climate-related Sensors

    Mr. Ehlers. How much money did you save by removing the 
climate-related sensors from NPOESS, and how much would it cost 
to put them back on? Can we use scaled back versions of it? Can 
you just give me some----
    Dr. Griffin. I can't. I can take those for the record, but 
I can't answer them.
    Mr. Ehlers. Yeah. Okay. We would--if we can just get that 
on the record later, that would be--I would be very happy with 
that, and I thank the Chairman for his generosity.
    [The information follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

                              Cost Targets

    Chairman Boehlert. Thank you very much. And just--I started 
my questioning by saying you know, did you--how did you arrive 
at cost? Did you have a target you were going to? I mean, $11.5 
just didn't--well, it evolved, apparently. Did you say we can 
go $11 and no more, but then, you had to add something on, 
because someone made a compelling case, or did you go $10.6, or 
did you have a target to start with, or was the sheet blank, 
and say now, here is the capability we want, here is the 
schedule we have to meet, and then, you factored everything in, 
and then, when you totaled it all up, it came out to $11.5? Is 
that the way it happened, or did you start with sort of a 
target in mind? Dr. Sega, you are shaking your head.
    Dr. Sega. No, I think now mentioned by all of us in 
different ways, that the continuity of the sensing data to be 
at or greater than what we currently have on orbit was the 
driving factor.
    Now, in the future, we may be able to go to what our 
objective system was as it originally, you know, envisioned 
prior to this process. But as you also add additional sensors, 
there is a risk in assembly integration and test, that the 
complexity added by the sensor in the early phases of these, of 
getting satellites on orbit may in fact drive schedule out, and 
that is----
    Chairman Boehlert. And cost up.
    Dr. Sega. Yes. But with additional money and additional 
sensors, you also have the potential of driving the schedule to 
the right. And the continuity of service, and continuity of 
data was one that we wanted to make sure that we had a correct 
balance.
    Chairman Boehlert. Thank you. Mr. Wu.
    Mr. Wu. Thank you very much, Mr. Chairman.
    I would like to go from general to specific in a series of 
questions, and it may, Mr. Chairman, take two or three rounds, 
but I will start very quickly.

             Information Oversight, Reporting, and Budgets

    This is just to clarify things a little bit, because in my 
opening statement, I referred to the fact that one of the 
problems I have today is with the lack of information, lack of 
specificity with which to question you all more specifically. 
And some of the discussion we had last summer was about what 
information was available to NOAA, what available information 
was there to DOD, and how much of that was being made available 
to this committee for our oversight purposes, and I understand, 
Administrator Lautenbacher, that you were getting monthly 
reports. Those reports were not being made available to us a 
year ago. I believe that they are now. I will return to that in 
a moment.
    But it has also come to my attention, and I would like some 
clarity on this, that as part of the Presidential decision 
directive that created NPOESS, there is supposed to be, 
starting in Fiscal '97, at least an annual report to the 
National Science and Technology Council on the progress of 
NPOESS, and the National Science and Technology Council 
currently is headed by John Marburger. The Chair is the 
President. The Vice Chair is the Vice President, and this is a 
bipartisan question, since there was a change in control in the 
Congress in 1994, and there was certainly a change in 
Administration in the year 2001. What was in that--were those 
reports done, and what were in those reports? Were people able 
to keep track of a program, were people able to track a program 
that was coming off the tracks? Were those--was that 
information ever supplied to the National Science and 
Technology Council?
    Admiral Lautenbacher. I have not seen any of those reports, 
and I am not aware whether they are or not. I will take the 
question for the record, and try to get you a better answer.
    Mr. Wu. I would like to have--on behalf of the Committee, I 
would like to ask for those reports, going back to the first 
one in fiscal year 1997, and follow that forward.
    Second, Administrator Lautenbacher, you mentioned that you 
are building a more robust management system, and I hope that 
that more robust management system also includes more 
transparency. Those monthly reports that you were receiving 
from the IPO, the integrated program office, is it your intent 
to make those, or their parallel reports, or their successor 
reports, accessible to this committee for oversight purposes?
    Admiral Lautenbacher. Yes, it is, on whatever frequency the 
Committee would like.

              International Bases and U.S. Control of Data

    Mr. Wu. Thank you very much. And since I see that I am 
rushing through my questions a little bit more effectively than 
I thought, Dr. Sega, one of the things that I noticed in 
watching Air Force operations in the past is that we have a 
major base in Diego Garcia, probably the largest base in the 
Indian Ocean, if not in a broader array, but we rent that base 
from the British, and when we are on operational missions, 
there is sometimes a British lawyer and a U.S. Air Force lawyer 
sitting next to each other before a strike is called, because 
that mission has flown from Diego Garcia, which is leased by 
the United States military from the British government. If we 
are counting on weather data from a European satellite for 
military functions, will we be running into a scenario where 
there will be a U.S. Air Force lawyer and a European lawyer of 
some kind before we are authorized to use that weather data for 
missions?
    Dr. Sega. I am not sure what the arrangement is at this 
point, but the partnership with the Europeans with regard to 
data exchange----
    Mr. Wu. Well, Dr. Sega, you just said you were not sure, 
and yet you pointed to the Captain, whose mission was dependent 
upon this data, in a 15-minute basis. Don't you think that we 
should be sure before we rely on European data, for which we 
may need some kind of permission to use it for military 
purposes?
    Dr. Sega. Sir, I was not sure whether two attorneys had to 
talk prior to that. I hope that the memorandum of agreement on 
use of data will have rules of engagement that are clear, that 
the conversations about situations will occur much sooner, and 
it is clear as to what the rules are, prior to urgent action 
having to take place.
    Mr. Wu. Well, Dr. Sega, the challenge with this is, and 
this is not a theoretical matter, I saw this in operation. The 
fellow with the monitor was sitting between two lawyers, and 
one was British and one was American, and the rules of 
engagement were that both lawyers had to agree before a strike 
could be carried out, and I am just concerned that without U.S. 
control of that mid-orbit, that the same thing might happen 
with weather data.
    Dr. Sega. I understand your point. I was a mission-ready 
crew commander at Schriever Air Force Base on satellite 
systems--Defense Satellite Program and GPS system. And one of 
our sites was Diego Garcia, and during my tenure there, there 
was never an issue.
    Chairman Boehlert. The gentleman's time has expired, but 
never underestimate your effectiveness, Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman, and I would be happy to 
discuss offline the specifics of the particular capability that 
we are talking about.
    Chairman Boehlert. We intend to have more than one round, 
but the witnesses should know from experience appearing before 
this committee that there will be some submission of questions 
in writing, that we can't expect you to, off the cuff, be able 
to respond to, but we would appreciate a written response in a 
timely fashion.
    The Chair recognizes Mr. Gutknecht.
    Mr. Gutknecht. Thank you, Mr. Chairman.

                 Cost-benefit Analysis of NPOESS Costs

    I guess I have not been in Washington so long that these 
big numbers just still are mind-boggling to me. The proposed 
cost for the first four NPOESS satellites is an enormous $11.5 
billion. That is a big number. I mean, just to put it in 
context, the back of the envelope calculations are that would 
build 1,150 $10 million schools in the United States. That is a 
lot of money, and that is for four satellites.
    I guess the question we have to ask on behalf of our 
constituents, especially now, from a cost-benefit analysis, 
what do the taxpayers get for that $11.5 billion? I mean, and 
is there a way we can recover part of that cost, whether it is 
from the Weather Channel or some other people?
    Admiral Lautenbacher. The costs extends the coverage that 
we have today through the year 2026, so it is amortized per 
year, over a very long period of time. If you look at the 
savings of lives, and the cost of damage along our coasts from 
hurricanes and other severe weather events, they have been 
going down significantly since the advent of satellites, so 
there is invaluable benefit to our society to have this 
coverage. The money, while it is a significant amount, and it 
is still a big number to me, too, sir. So, I have no--I don't 
take any issue with that. It is at roughly the level that we 
have been affording per year for this service that we are 
providing to the public, that it has been costing us in the 
last decade or so, and for what we are planning for the future. 
So, it is not out of whack with what the general agreement of 
Congress has been to spend money for these benefits for the 
public.
    Mr. Gutknecht. Will we recover any of it?
    Admiral Lautenbacher. Not directly.
    Mr. Gutknecht. This information can't be sold, then, in 
other words.
    Admiral Lautenbacher. No, it cannot be sold. It is--becomes 
public good information that is for the benefit of saving 
lives, and beneficial to our economy. It is recovered through 
taxes from the--remember, this information is used by the 
entire private weather service companies that we have. Our 
weather services are split between public good and----
    Mr. Gutknecht. Right.
    Admiral Lautenbacher.--and private good, and so, the 
advantages to one third of the economy depends on this data, so 
the more it grows, understanding the environment, the more our 
economy grows, and when you talk about one third of our GDP, 
that is a pretty big chunk, and you are recovering your taxes 
from the growth on that.
    Mr. Gutknecht. Well, my corn growers could use a rain right 
now, but these satellites won't really change that. I mean, 
ultimately, the weather is what it is. I mean, we can predict 
it a little bit better, if we have the technology, but the 
weather, the hurricanes are going to be what the hurricanes are 
going to be. We may have a better prediction of exactly where 
and when they are going to come and hit ground, but ultimately, 
they are going to do enormous damage.
    Chairman Boehlert. If the gentleman will yield just one 
second, and I won't take this from your time, but I can't help 
but observe the cost in human lives and cost in dollars to this 
Nation of Katrina. Had we had a better capability, those are 
costs that might have been avoided.
    Mr. Gutknecht. Well, might is the operative word, Mr. 
Chairman, with all due respect. I mean, you know, I think we 
have to be careful when we predict that this huge expenditure 
of public dollars will somehow accrue right back to us in real 
benefits, and I think at some point, this is a responsibility 
of this committee, and I think it is a responsibility of the 
gentlemen who are in front of us today, to really justify to 
the American people that we are going to get $11.5 billion--
because it is an opportunity cost. We could spend the money on 
other things that might--that would save lives as well. I mean, 
we could build a better dyking system all along the coast. You 
can build an awful lot of other things for $11.5 billion.

                         Status of VIIRS Sensor

    But I am going to come back to the last question I have, 
and that is, Dr. Sega, in Dr. Griffin's testimony, he stated 
that the NPP satellite, or spacecraft, I am sorry, is built and 
the Visible/Infrared Imaging, or VIIRS technology suite 
instrument, is on a critical path toward that launch. We have 
heard testimony that the testing of this sensor has experienced 
technical problems. Is this accurate, and what is the status of 
the VIIRS sensor, and when do you think they will be able to 
deliver that sensor for the NPP launch?
    Dr. Sega. Sir, on the VIIRS sensor, the engineering 
development unit that we mentioned last time, that we thought 
it was important to have that work completed prior to the 
flight unit--has successfully passed vibration testing. Flight 
units, flight unit electronics have completed a thermovac 
testing. The engineering development unit is in the thermovac 
testing process right now. They are looking at a backup plan in 
the event that there are problems on VIIRS as we go forward, 
but at this time, it is proceeding along.
    Mr. Gutknecht. Now, when you say they have completed 
testing, does that mean they have passed the tests?
    Dr. Sega. There are many tests en route to completing the 
VIIRS engineering development unit and then the flight unit. 
And the testing that I mentioned is part of that process.
    Mr. Gutknecht. Thank you.
    Chairman Boehlert. Mr. Costa. Mr. Costa yields to Mr. 
Gordon.
    Mr. Costa. Yes.
    Mr. Gordon. As the Chairman knows, even though the 
Chairman, unlike our former Chairman, does not have the policy 
of swearing witnesses in, it is still a felony to make a false 
or misleading statement to Congress. I just point that out, 
just for general interest.
    Now, according to the GAO, the normal practice in a Nunn-
McCurdy process is to develop an integrated program team 
report, Dr. Sega, which has a CAIG cost evaluation. Was that 
done in this situation?
    Dr. Sega. I would need to go back and check and see if a 
formal integrated report that you described was completed.
    Mr. Gordon. You don't know. You don't know today.
    Dr. Sega. That is correct.
    Mr. Gordon. And you will find that out for us, and let us 
know.
    Dr. Sega. Absolutely.
    Mr. Gordon. Thank you very much. Yield back my time.
    Chairman Boehlert. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you, Mr. Chairman, for your 
leadership and oversight, and you are taking your oversight 
responsibility very seriously, and I appreciate that, and this 
is mind-boggling.

                       Cost of Program in Context

    I mean, it just is a mind-boggling issue, and let me just 
note that last exchange about how we can save, it is going to 
save so many lives, we are talking, first of all, we are 
talking about a $4 billion higher cost than what we were first 
told. I think that $4 billion that now has gone into a big 
black hole couldn't save some lives somewhere? How about paying 
for drug rehabilitation for the entire United States, or 
alcohol rehabilitation? Or how about body armor for our people 
in Iraq in a very timely way? When you put $4 billion into a 
black hole, because of incompetence, that is what happens. You 
don't have that capability any more. It is gone. Pardon me for 
being upset, but there is a big cost to this, and it can't be 
just brushed aside, saying the program is going to give us some 
more hours of understanding what the weather is going to be 
like, which could save lives, unlike what we would do otherwise 
with that $4 billion.
    Would we have moved forward with this program, and I ask 
you right now, give me a yes or no down the line, would this 
program have moved forward, knowing that there was going to be 
an extra $1 billion per satellite cost, to finishing the 
program successfully, right in the beginning? Would it have 
been approved?
    Admiral Lautenbacher. I don't know. I can't----
    Mr. Rohrabacher. Okay.
    Admiral Lautenbacher.--project myself back to that time.
    Mr. Rohrabacher. Mike.
    Dr. Griffin. I doubt it.
    Mr. Rohrabacher. Doctor.
    Dr. Sega. Not in its current configuration.
    Mr. Rohrabacher. Okay. So, we have circumvented, basically, 
if there was only a 50/50, Mr. Chairman, we are talking about a 
50/50 chance that it was going to have a major overrun when the 
program first moved forward. Now, I am going to have to say 
Congress has to share some of this responsibility as well. If 
we permit our experts to come here and tell us well, there is a 
50/50 shot that it is going to be a lot more expensive, and we 
are going to throw the money right down a rat hole, and 
actually, we wouldn't even move forward if we could say how 
expensive it was really going to be. So, we have got to focus 
on what we demand of these people as well.
    It is--I would suggest, and I see here that historically, 
the 50/50 percent of certainty is what historically, what 
Department of Defense programs like this generally have. Is 
that right, Doctor?
    Dr. Sega. That is correct, sir, and that is why we are 
going to a more back to basics block approach, in which we 
mature the technology prior to committing to a system 
production, that we cost at the 80 percent, that we bring the 
acquisition cycle time in closer, and we do the fundamentals of 
sound system engineering.
    Mr. Gordon. Would the gentleman from California yield just 
a moment?
    Mr. Rohrabacher. I certainly will.
    Mr. Gordon. It is my understanding that the Defense Science 
Board put out a report in 2003 that described budgets with a 50 
percent probability of success, and inadequate reserves as to 
be unrealistic, and they recommend that it be 80 percent 
probability of success, with a reserve of 20 to 25 percent, 
just----
    Mr. Rohrabacher. Well, I think that we are going to have to 
make sure that we make sure that we place some demands on these 
people.

                      Mandatory Confidence Levels

    Dr. Griffin, do you think that we should--that this should 
be a wakeup call, and maybe, we should make an 80 percent 
requirement mandatory, rather than a 50 percent confidence 
level for such programs?
    Dr. Griffin. I think this is a community problem. As you 
know, we have had problems in the past at NASA as well, and as 
you know, I have, since coming on board, baselined a 65 to 70 
percent cost confidence number for budgeting purposes, so I do 
think it should be higher than 50 percent. I don't know that 
there is a fixed number that should be used for every program. 
A program which has a great deal of heritage hardware in it 
probably should not be baselined at 80 or more percent cost 
confidence, because the money which is allocated to that 
program represents an opportunity cost taken away from another 
program. A program which has a very large amount of new 
technology, and is, you know, highly integrated program such as 
NPOESS, probably should be baselined at a very high cost 
confidence, with adequate schedule reserves and funded schedule 
reserves.
    I do not believe that one size fits all, but I do agree 
with you that more caution is warranted.
    Mr. Rohrabacher. Well, Dr. Griffin, obviously one size 
doesn't fit all, but there has to be a standard, and there have 
to be standards, whether or not it is something that it on a 
sliding scale or not. Let me note, Mr. Chairman, that from what 
I hear today, we now have a program that has gone from $7 to 
$12--$11, maybe $12 billion, and there is still only a 50 
percent cost certainty right now. Is that right? That is what I 
am hearing, isn't it? Even with this suggestion, even what you 
are telling us today, that budget figure is only coming at us 
with a 50 percent certainty.
    Chairman Boehlert. Mr. Rohrabacher, let me point out that 
that is precisely why the Chair was asking a series of 
questions about----
    Mr. Rohrabacher. I remember.
    Chairman Boehlert.--about the cost confidence level. That 
is why we are very concerned about the reserves and the margins 
built in to the program. That is why we are insisting that we 
get more information. How in Hell can we evaluate anything if 
we are limited in the amount of information that is given to 
us, as we conduct our very important oversight. We can't do 
it----
    Mr. Rohrabacher. Mr. Chairman.
    Chairman Boehlert.--in a manner that does the people proud. 
So, Mr.----

                        Employees Qualifications

    Mr. Rohrabacher. Mr. Chairman, let me note that I also 
requested information after the last hearing that I have not 
received, about the confidence level and the qualifications of 
people in this program, and about whether or not even by your 
own standards, by the DOD standards, and by official government 
standards, by who should have what credentials to manage 
certain programs, that it didn't seem to me, from the research 
that my staff has done, that this program had those people on 
there. Now, I want--I am just going to say for the record, I 
want an answer to the questions that we sent you, and maybe if 
I could be indulged just one question here, to see maybe they 
have the answer.
    Do we have, for example, well, it is on data line, base 
certified project management professionals, which is a globally 
accepted credentialing project, about management competency. We 
checked this, and it doesn't seem that the managers of NPOESS 
have the official capability to manage the program. Now, am I 
wrong? Is my staff just giving me false information here? Are--
do you have people managing this program that don't have the 
standards and the credentials necessary for what we have 
established as the necessary credentials to manage such high 
level programs?
    Dr. Sega. Sir, you can take that for the record, of all the 
people that are in our program, but I assure you that the two 
leadership positions that we have identified as an EXCOM here, 
and----
    Mr. Rohrabacher. Okay. Well, let me--okay.
    Dr. Sega.--are at a high level of qualification.
    Mr. Rohrabacher. You pointed out Brigadier General Mashiko.
    Dr. Sega. Absolutely.
    Mr. Rohrabacher. Let us see, and it says that according to 
the law, which under statute is 10 USC 1735 in terms of 
qualification and in terms of education and experience, those 
actual, you know, guidelines as to who is qualified to do that 
is set down in that law, does Brigadier General-designee 
Mashiko and Colonel-designee, as I guess it is Stockton, do 
they meet the legal requirements under that law?
    Dr. Sega. Yes, they do, sir.
    Mr. Rohrabacher. They do?
    Dr. Sega. Both Brigadier General-select Mashiko and the 
program----
    Mr. Rohrabacher. All right.
    Dr. Sega.--the satellite program.
    Mr. Rohrabacher. So, we have you on record as yes, they do. 
All right.
    Dr. Sega. The two top positions that we have----
    Mr. Rohrabacher. Under the qualifications set by statute 
under 10 USC '1735. And you are saying, answering in the 
affirmative.
    Dr. Sega. For our PEO and SPD, the answer is yes.
    Mr. Rohrabacher. Okay. Thank you very much. Thank you, Mr. 
Chairman.
    Chairman Boehlert. Thank you, Mr. Rohrabacher. Mr. 
Neugebauer.

                           Guarantee of Plan

    Mr. Neugebauer. Thank you, Mr. Chairman.
    Mr. Lautenbacher, do you own a home?
    Admiral Lautenbacher. Sorry, I didn't hear the question.
    Mr. Neugebauer. Do you own a home?
    Admiral Lautenbacher. I own a home. Yes, sir.
    Mr. Neugebauer. Yeah. Just kind of pretend that I came from 
the homebuilding business, and I came to you and said I want to 
build you and your wife a home, and you are interested in me 
doing that, and you said let me tell you about the last job I 
did. It cost twice as much as I told the people it was going to 
cost. They got two thirds of the square footage that we had 
agreed to, and that we removed most of the amenities from that, 
and by the way, I still haven't finished that project, and it 
has been going on for a number of years. Are you ready to sign 
up a contract with me?
    Admiral Lautenbacher. Not the way you have put it, no, sir.
    Mr. Neugebauer. Yeah, well, I think that is where this 
committee is today, is that you are bringing us a plan with a 
very poor performance, right, and I think that, you know, we 
are already $3.2 billion into this project, and we can't pull 
up data from one satellite yet. Is that correct?
    Admiral Lautenbacher. No satellites have been launched yet, 
that is true.
    Mr. Neugebauer. No satellites have been launched. And so, I 
think the question that I have is do we have a failed plan 
here? Because you have not been able to execute this plan. It 
is over budget, you under-delivered, and yet, you have come 
back to saying today, and saying we have got it all figured 
out, and yet, we are going to reduce it by two satellites, we 
are going to remove some of the bells and whistles that we 
originally promised on this.
    And so the question I have is, how can I be assured, as a 
United States Congressman, that you have a plan that you can 
execute?
    Admiral Lautenbacher. We would certainly like to sit down 
with you and your staff and explain that to you, because we 
think that the plan will work, and that we have accommodated 
the issues that we had. All known deficiencies have been 
covered in one way or another, and I am not asking you to trust 
us. I am asking you to let us show you.

                  Mistakes Leading to Current Problems

    Mr. Neugebauer. Well, I guess the question that I have is, 
and it is a systemic problem, is how did we get to this point? 
In other words, when things weren't going well, why didn't we 
decide to make management changes, when we realized, my good 
friend Mr. Gutknecht really ruins my day, because while I am 
gone, he tells me for this great performance, we paid a $200 
million bonus to somebody, and I just--I am perplexed here how 
you guys sitting there can tell us that things are going to be 
okay, when in fact, things aren't okay.
    Admiral Lautenbacher. The contractor bonus was reduced to 
zero for the last round. We have been making management changes 
for the past year and a half, to improve the fidelity in the 
reporting of the program. The program was optimistically 
estimated in the beginning, and it was lightly managed, and we 
have been working hard in the last year and a half to recover 
to an area where I think we have the confidence, and hopefully, 
can gain your confidence that it is under control.
    Mr. Neugebauer. How do we get that other $200 million bonus 
back, that we shouldn't have paid to begin with? That is--I 
think that is one of the questions I would have. Hopefully, 
now, we realize that we shouldn't be paying bonuses, but it 
appears to me that we shouldn't have paid $200 million, and 
somebody owes the American taxpayers, and we have to be clear 
about who owns this money, whose money this is, and you gave 
$200 million of the American taxpayers' money to someone who 
was not performing. I mean, how do you justify that?
    Admiral Lautenbacher. You have to look at the--I am not, 
first of all, I am not the expert on the acquisition contract, 
but you have to look at the--this was their profit margin, on 
which they bid, and instead of getting a fixed fee, we 
basically reduced their fee, so when you look at what they got, 
they only got 10 percent, or they got about half of what they 
expected to get on this program. So, they have been put on 
notice, and as I said, zero the last period. We can give them a 
lot of zeros, and we can drive it down pretty low. I mean, I 
think we have their attention on their profit margin, because 
they are not getting it right now.

                          Joint Agency Effort

    Mr. Neugebauer. I want to, I guess, just go back, and my 
final question is because of where we are today, is it really 
time to step back and see if this joint effort is the best 
policy, and should we have let NOAA go their way, the 
Department of Defense go their direction? I mean, I am for 
efficiency in government, and utilizing all of jointness, and 
all of those kind of things, but when that isn't working, you 
got to go back to blocking and tackling, and maybe this is too 
ambitious of a project for these two agencies, or three 
agencies to do together.
    Admiral Lautenbacher. It is a very legitimate question, and 
we did look at that. We looked at what would happen if we were 
to work it on a separate basis, and the conclusions were that 
when you added it up, given where we are today, it would be 
more expensive to do that than it would be to try to solve and 
correct the issues that we have with this tri-agency management 
program.
    Mr. Neugebauer. Wasn't it originally estimated that to do 
it separately would--it would cost about $1.2 billion more, at 
that time?
    Admiral Lautenbacher. Yes, sir. It was.
    Mr. Neugebauer. It turned out that that wouldn't have been 
such a bad buy.
    Admiral Lautenbacher. Well, we would have had the same 
misestimates in those parameters, and we would end up with even 
a bigger delta. I mean, given what I can tell from looking at 
the experience and the development issues in the program.
    Mr. Neugebauer. I see my time is out, Mr. Chairman. Thank 
you.
    Chairman Boehlert. Thank you. Thank you very much.

                           Awards and Bonuses

    Admiral, I do commend you for the last award period, but I 
would point out that you got--you said you have got their 
attention. We damn sure got your attention, because when it was 
pointed out to us that after our evaluation, in connection with 
our oversight, that 84 percent of the eligible awards were paid 
for, in the tune of $143 million, you know, we found it hard to 
comprehend that for a project that was billions over budget and 
years behind schedule. We didn't quite understand why bonuses 
should be paid, so I am glad that you are on top of it, and I 
am glad that we have seen the improvement that we had every 
right to expect, and I commend you for that, but I don't want 
to miss the opportunity to point out that this committee, in 
its day to day oversight responsibilities, was right on top of 
that situation, and brought it forcefully to the world's 
attention.
    With that, I will recognize Mr. Wu.
    Mr. Wu. Thank you, Mr. Chairman.

                       Cost Confidences and CMIS

    And I would just like to put a finer point, or get down 
into more detail about the questions that the Chairman and Mr. 
Rohrabacher raised, about cost confidences, and this is 
focusing on one particular instrument. It would seem that the 
only instrument that provides that data that covers each of the 
key performance parameters is CMIS, and it would appear that 
the microwave imager sounder, along with VIIRS, is really at 
the heart of weather forecasting capability, but CMIS, although 
it is not, if you will, the guilty instrument, it is being 
dropped, and it may be added back to a later NPOESS if it is 
successfully developed.
    My understanding of this contract is that well, we have 
spent about $163 million on CMIS thus far, and that is through 
February of this year. There will be some shutdown costs, and 
let us say that shutdown costs are negotiable, but let us say 
that we roughly wind up with a $200 million figure. I am told 
that Colonel and General-select Mashiko, congratulations, by 
the way, that she provided us with information yesterday 
stating that replacement instrument is to be developed for the 
difference between what has already been spent on CMIS and its 
successor instrument, and since that price tag was originally 
projected to be $465 million, if you subtract $200 million from 
that, what we are projecting, or what you all have projected, 
is that what was originally going to be a $465 million 
instrument is going to be developed for $265 million. That 
stretches my credulity a little bit, and perhaps, any of you 
all could explain, you know, how you are going to add the 
Hamburger Helper to stretch the $265 million to cover what was 
a $465 million project.
    Admiral Lautenbacher. We are trying to prevent the risk of 
getting into a situation where we end up spending as we did on 
VIIRS. I think that is a substantial risk, given the size of 
this instrument, and the increase in the ability to build this 
large instrument. We will downsize that instrument to a smaller 
weight, less complexity, to one that has already been built. We 
believe that there is good evidence that this instrument can be 
built for the price, the differential price. It will be a 
competitive bid, and we are going to look very hard, we are 
going to develop a package with--General Mashiko is working on 
that, to make sure that the specifications are such that this 
will be accomplished within the envelope of what we know we can 
build today. We do not want to get into a risk situation, where 
we keep having to solve technical problems, what you don't know 
you don't know, that we don't know about at this point. So, we 
believe we can do that.
    Mr. Wu. Well, we will be watching with great interest, at 
each of these smaller components, because when you have this 50 
percent or less confidence level at the overall cost package, 
the devil is always in the details, and it is these individual 
instrument packages that can cause us a tremendous problem.

                               Award Fee

    And I just have one question of curiosity about the overall 
contracting process. I have it on good authority that only one 
percent of these acquisition contracts have bonuses of 15 
percent or more, and yet, this contract, I believe, has a 20 
percent bonus built into that. Administrator Lautenbacher, you 
mentioned earlier that the payout was 10 percent, half of the 
expected bonus, so I think that, you know, these numbers jive. 
It is a 20 percent bonus, whereas only one percent of contracts 
have bonuses of 15 percent or more. What led to the decision to 
make this a highly bonus-oriented contract?
    Admiral Lautenbacher. I am going to ask Dr. Sega for his 
help on this, since I am not the acquisition authority on this, 
but I am--I don't know what the exact percentage is, but there 
are a number of contracts that have higher levels in them, so I 
don't know whether it is one percent, but it was not uncommon 
at the time that the strategy was developed for this program. 
And again, I wasn't there when this was developed, but from my 
background in Defense Department, the object was if you had a 
higher risk program, and you wanted to get people's attention, 
you would have some way to reward them and get their attention, 
because if they are not making any money on a contract, they 
are going to put their C team on it, and go off and work on 
something else where they can get their bonus and their stock 
levels up. So, that was, I am sure, part of it, but again, I 
wasn't--I don't know why they made the decision, but this is 
not a unique contract, and I would defer to these two gentlemen 
who are into the policy more than I am.
    Chairman Boehlert. Dr. Sega, you have an opportunity to 
respond, if you would like.
    Dr. Sega. Sir, I don't know what the history is, but the 
award incentive fee will be part of the renegotiation as we go 
forward.
    Mr. Wu. Well, Mr. Chairman, if I may just close by saying 
that as a former attorney for--between software vendors and 
software consumers, and watching large software development 
projects, certainly not as large as this, or as Mr. Neugebauer 
mentioned, having been--he--home builder, and me having been a 
consumer of home builder services, if you are going to rely on 
a bonus style contract to, on the one hand, save money, and on 
the other, to reward high performance, and get the A team on 
the project, one has to monitor that progress extremely 
closely, and the metric has to be done in close time gaps, or 
else the bonus system is going to go off kilter.
    And thank you, Mr. Chairman.
    Chairman Boehlert. Thank you very much.

                    Loss of Climate Data and Sensors

    I am concerned about the loss of climate data, and I would 
like to ask each of you to describe possible ways to mitigate 
for the loss of the climate sensors, and then, I want to know, 
related, are there any international agreements affected by 
this loss? Let us talk about the loss of climate sensors and 
what are we going to do to mitigate that loss, and then, any 
international agreements impacted by this loss?
    Admiral Lautenbacher. Okay Let me just to set the context, 
of the 55 environmental data records, actually 41 of them are 
related to climate, or are useful to climatologists, and they 
are in all--and a majority of those are in the VIIRS 
instruments, which will show up. So, there is a good deal of 
information that is included in the basic package. There are 
five instruments that are not on this package, and at a 
savings, and one reason why they are not there, but there are 
some alternatives. Of the five instruments, one is the space 
environment, so set that aside, that is not a climate issue. 
That is a space weather issue, of magnetic storms and that sort 
of thing, and there will be a package to cover that, so we will 
use the legacy package to cover the space environment 
monitoring thing, so it is not climate, but it is going to be 
covered.
    There is an APS system, which is called, which is for 
aerosol data. Aerosols are very important for climate, because 
we don't understand whether they are a positive or negative 
forcing in some cases, and this is an area where we need to 
reduce the uncertainty that we have in climate measurements. 
NASA will fly an APS on the Glory mission, so we will have, 
basically, a five to ten year life of that sensor, to be able 
to continue the aerosol data types of issues. So, part of our 
plan is to try to figure out how to continue beyond that point 
for the aerosols.
    In the altimetry, which is, I have mentioned, not 
necessarily climate, but it is useful for heat content in the 
ocean, the Navy has been directed to develop a mitigation plan, 
which we will put into our plans on that. The Earth's radiation 
budget sensor, which is important to determine the balance of 
radiation, we will fly something called Ceres, which is a cloud 
and radiation sensor, that is a current sensor that NASA has, 
and it will continue the climate information that we have had 
before.
    So, we are able to, in the scheduled life expectancy of 
seven to ten years, have opportunities to look at that. The one 
that we have not been able to cover directly today, that I can 
give you assurance on, is the TSIS or Total Solar Irradiance. 
We have a NASA satellite called SCORCE, or SCORCE, I don't know 
how they pronounce it. I will let Dr. Griffin tell me the 
proper pronunciation, but that life expectancy goes for several 
years. We are looking at ways to--and then on the Glory 
mission, to look at ways to incorporate that.
    So we are very sensitive to the climate variables that are 
here, and we have tried to do as much as we can to maintain 
them with the expectation that we will develop an alternative 
plan, to come back to you to tell you how we are going to 
maintain continuity.
    Chairman Boehlert. Once again, not to pat the Committee on 
the back, but why not? We deserve a little credit once in a 
while. We get a lot of blame for things. But you can thank Dr. 
Griffin and this committee for Glory being resurrected from the 
dead, a very important mission.
    Dr. Griffin, would you care to comment on the question, 
because it is very important to NASA, I understand.
    Dr. Griffin. It is, though the climate measurements are the 
primary area for us, although, again, Commerce has the overall 
lead on climate.
    Admiral Lautenbacher detailed the climate instruments which 
would be removed, and there are, I would emphasize we don't 
have a problem the day after tomorrow. I mean, we have, in 
terms of missions that are existing, Glory was mentioned, 
SCORCE was mentioned, the Ceres instrument will be developed. 
We are not looking at a problem immediately. We are looking at 
problems that would occur out in the 2010, 2011, that timeframe 
or later. Of course, there is always the risk that any given 
instrument operating today would fail, but we do have, we have 
undertaken, through the National Academy, a decadal survey of 
Earth science, and we are expecting that survey to provide 
independent scientific input on what the impact would be of not 
having these climate sensors fly on NPOESS, together with 
recommendations. So, we will, in the next year or so, be 
looking forward to that input as we craft our plan.
    Right now, as Admiral Lautenbacher said, we don't have a 
plan. Any instruments that would need to be developed, any 
missions that would need to be developed to lessen these 
impacts, or impacts on our international partners, would 
require money not presently in the budget.
    So, there is no free lunch. These instruments being removed 
from NPOESS means that if we wish to get this data, we will 
have to pay to accomplish it by some other means.
    Chairman Boehlert. Well, in your testimony, you said 
relying on the Earth science decadal survey now underway, you 
are going to rely on that for guidance. Are you going to 
explicitly task the survey to prioritize the sensors, and will 
you ask them whether NPOESS or another platform will be the 
best way to fly the sensors?
    Admiral Lautenbacher. We will be asking those questions and 
others.
    Chairman Boehlert. And Dr. Sega, just yesterday, we had an 
interesting discussion, and you said to me that the problem 
with the climate sensors is that it is so hard to integrate so 
many of them on one satellite, and you have had real life 
experience up in the heavens as an astronaut doing that, but 
the NPOESS plan still allows for them all to be on one 
satellite. It just doesn't pay for the sensors themselves any 
more. So, do you object to that aspect of the plan?
    Dr. Sega. The issue of the numbers of sensors, climate 
sensors or meteorological sensors, oceanographic sensors, but 
the number of sensors that are currently on a singular bus, and 
the challenges for assembly, integration and tests was the 
focus of the discussion. For our use in weather forecasting, 
and doing some of our work--we also saw some of the sensors--
through the decision process--being removed. The Navy, in terms 
of looking at sea elevation and sea state--its sensor is off. 
The CMIS will probably, most likely be reduced from its 2.2 
meter diameter, that has a little lower frequency capacity, 
goes deeper in the ground, that the Army was hoping to have. At 
higher frequencies, it has a broader aspect area. We are going 
to see, probably, a modification of that and reduced a bit. On 
our space sensing, part of that space package has been removed 
from the satellite, that looks at the, primarily electron 
density going up.
    So, the issue was looking at how we assure the core 
capability to have continuity. And so, those were the tough 
decisions that had to be made in this process.
    Chairman Boehlert. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. I apologize. I had to 
step out for another meeting briefly, so I hope I am not asking 
anything redundant.

                    Prioritizing Additional Sensors

    But along the same line that you have been talking about, I 
understand you are still going to fly the full sized vehicle, 
and hope that if there is some additional money that becomes 
available, either from within the agency or from the outside, 
or if the world is suddenly peaceful, and we have another peace 
dividend, whatever the source of the money, how--do you have a 
process in place to decide which additional satellites, pardon 
me, which additional sensors to put back on this system, or do 
you think it is so unlikely that you haven't even talked about 
the process? Mr. Lautenbacher.
    Admiral Lautenbacher. We have a list of priority of sensors 
that has been developed as part of this process, so if it 
doesn't come from outside, that somebody wants to buy a 
specific sensor, because they have got costs, or they have got, 
you know, a requirement for it, we have a priority list on 
putting them back on. Yes.
    Mr. Ehlers. You do.
    Admiral Lautenbacher. Yes, sir.
    Mr. Ehlers. And that was developed between----
    Admiral Lautenbacher. It was developed in the requirements 
review, subject to the Nunn-McCurdy review.
    Mr. Ehlers. Yeah. Okay. Mr. Chairman, I would be happy to 
yield my remaining time to anyone else who has a question.
    Chairman Boehlert. Well, I think we have pretty well 
exhausted the topic, and I thank the very distinguished 
witnesses for being part of this rather protracted search for a 
better way to do something that I think we all acknowledge is 
extremely important for a whole lot of very valid reasons.
    We are going to be faithful to our charge, to conduct 
vigorous and continuous oversight, and I am comforted by the 
fact that I think we now have a program that got seriously off-
track back on-track, but the proof of the pudding is in the 
tasting, as they say, and we are going to continue to sample, 
on a regular basis.
    We will provide some additional questions to each of you in 
writing, and would ask that you respond in a timely manner, and 
I appreciate all of you being available for conversations with 
the Members, and with our senior staff, which I take pride in 
pointing out, on both sides of the aisle, is one of the most 
professional any place in this town.
    So, with that, thank you very much. This hearing is 
adjourned.
    [Whereupon, at 4:35 p.m., the Committee was adjourned.]


                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Vice Admiral Conrad C. Lautenbacher, Jr. (U.S. Navy, 
        Ret.), Administrator, National Oceanic and Atmospheric 
        Administration, U.S. Department of Commerce; Under Secretary of 
        Commerce for Oceans and Atmosphere

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  NOAA has some responsibility for environmental and climate 
observations from space. Given that the sensors necessary to provide 
such observations have been removed from the certified NPOESS program 
and additional funding over and above the $11.5 billion will be 
required to add them back, how will NOAA meet its mission requirements 
in this area? How much money would it cost to add these sensors back to 
NPOESS or to fly them on another satellite?

A1. NOAA's primary environmental and climate observation mission, 
highlighted during the Nunn-McCurdy process, is to maintain 
uninterrupted operational polar satellite coverage in support of U.S. 
weather forecast capabilities. Several steps have been taken to 
maintain this continuity. NOAA remains committed to its climate mission 
and is assessing, along with NASA, ways to mitigate the impact of the 
Nunn-McCurdy decision to meeting the observational requirements for its 
climate mission.
    To ensure all three satellite orbits (early morning, mid-morning, 
and afternoon) are covered, NOAA has partnered with the European 
Organisation for the Exploitation of Meteorological Satellites 
(EUMETSAT). NOAA's polar-orbiting satellites (POES) will cover the 
afternoon orbits, DOD polar-orbiting satellites (DMSP) cover the early 
morning, and EUMETSAT's polar satellite, MetOp, will cover the mid-
morning orbit. The NPOESS satellites covering the afternoon orbit 
contain an advanced imager and advanced sounder, which will enhance 
weather forecasting by increasing our knowledge of the vertical 
structure of the atmosphere and providing better information on surface 
weather phenomena. MetOp flies the same imager as POES; therefore the 
imaging capabilities presently available from today's operational polar 
spacecraft will be preserved. MetOp also flies a scatterometer, which 
will provide sea surface wind speed and direction, a capability not 
available today on a civilian operational satellite. In addition, MetOp 
flies an advanced atmospheric sounder, again providing greatly improved 
data on the vertical structure of the atmosphere to enhance operational 
weather forecasting capability.
    Although some of the climate sensors were removed from NPOESS, it 
is important to understand a significant amount of critical climate 
information will come from the main NPOESS sensors (VIIRS, CRIS, ATMS, 
and the OMPS-Nadir sensor). These sensors will enable NOAA and NASA to 
provide continuity for a substantial number of these required climate 
variables. These variables include sea surface temperature, snow cover 
extent, upper air temperature, land surface temperature, clouds, 
precipitation, and land surface vegetation, among other variables.
    There is the potential for loss of continuity from NASA research 
spacecraft (primarily the Terra, Aqua, and Aura platforms of the Earth 
Observing System) in data collection for some variables, under the 
Nunn-McCurdy certified NPOESS program. These include total solar 
irradiance, Earth aerosol polarimetric properties, and stratospheric 
ozone, as well as research imagery in the mid-morning orbit. Additional 
data were expected from the NPOESS sensors for the Total Solar 
Irradiance Sensor (TSIS), Aerosol Polarimeter Sensor (APS), Altimeter 
(ALT), and the Ozone Limb Sensor. Continuation of precision 
measurements for these climate variables is important for understanding 
the sensitivity of the climate system to human-induced changes in 
atmospheric composition, natural climate variability, and other 
environmental factors. Other measurements of particular concern are sea 
level and ocean surface winds.
    For several of the essential climate variables at risk, NOAA and 
NASA are working together and with other interagency partners and 
groups, such as the U.S. Climate Change Science Program (CCSP), to 
assess the best way forward. NOAA will work with its national and 
international partners to try to provide data continuity for as many 
variables as possible. For example, NOAA will work with NASA to develop 
optimal strategies for ensuring the continuation of total solar 
radiation and aerosols. There is some time available to work this 
issue, given that these two measurements had been planned to be made on 
NASA's Glory mission scheduled for launch in 2008.
    NOAA also plans to work closely with international satellite 
programs such as EUMETSAT's MetOp for ocean winds, and the joint U.S.-
European Jason mission and Ocean Surface Topography Mission/Jason-2 for 
sea level data continuity.
    During the Nunn-McCurdy Certification process, the Office of the 
Secretary of Defense (OSD) Cost Analysis Improvement Group (CAIG) CAIG 
estimated savings of approximately $860 million by deleting the 
secondary sensors (EBBS, TSIS, SESS, ALT, SuS, OMPS Limb) as they were 
allocated in the baseline program. In the baseline program the 
satellites were to fly in three different orbits with each orbit having 
a different instrument configuration. The certified program eliminated 
two production satellites and changed the orbit configurations. The 
Nunn-McCurdy process only looked at the estimated cost savings achieved 
by removing these sensors, contract negotiations with the venders would 
determine the actual cost of adding the sensors back to NPOESS. Total 
costs for adding these sensors to a non-NPOESS platform in the future 
have not been analyzed.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q2.  Both you and Dr. Griffin testified that the decision to build a 
full size NPOESS spacecraft that can house all of the originally-
proposed sensors ``was made because the EXCOM agreed any additional 
funding gained through contract renegotiation or in unutilized 
management reserve would be used to procure these secondary sensors.'' 
Additionally, you said that as part of the Nunn-McCurdy requirements 
review process, a prioritized list of additional sensors was developed. 
Please provide a copy of the prioritized list of additional sensors. If 
additional funds become available, what process will be used to select 
which additional sensors can be put on the satellite? And who will make 
the ultimate decisions?

A2. As a part of the Nunn-McCurdy process, the NPOESS Senior Users 
Advisory Group (SUAG) developed a priority list of the eliminated 
NPOESS sensors and communicated its justification for the priority list 
in a letter to the NPOESS Executive Committee (EXCOM). The priority is 
as follows:

        1.  Space Environment Sensor Suite (SESS)

        2.  Altimeter (ALT)

        3.  Ozone Mapping and Profiler Suite (OMPS) Limb Sensor

        4.  Total Solar Irradiance Sensor (TSIS)

        5.  Earth Radiation Budget Sensor (ERBS)

        6.  Aerosol Polarimetry Sensor (APS)

        7.  Survivability Sensor (SuS)

    If funds become available, the selection process will involve the 
SUAG recommendations, engineering considerations, risk assessment by 
the NPOESS Program Executive Officer and the NPOESS Integrated Program 
Office (IPO). The EXCOM, which represents the Tri-Agency partnership of 
NOAA, NASA, and DOD, will make the final decision.

Q3.  In your testimony, you indicate that the certified NPOESS program 
will improve the quality of weather forecasting. What specific 
improvements will each NPOESS sensor (VIIRS, CMIS, CrIS, ATMS, OMPS-
Nadir, CERES) provide for weather forecasts? What is the difference 
between these improvements and what you were expecting from each of the 
sensors on the original NPOESS program?

A3. The certified NPOESS program will improve weather forecasting 
quality over what is possible with today's operational satellites, the 
NOAA Polar-orbiting Operational Environmental Satellites (POES) and the 
DOD Defense Meteorological Satellite Program (DMSP). Some of the 
expected improvement of NPOESS is already being realized because of the 
use of research satellite data/products in preparation for NPOESS. For 
example, data from the MODIS sensor flown on NASA's Aqua and Terra has 
been provided to the Air Force and Navy to be used in operational 
scenarios to provide a true multi-spectral capability to support 
military operations. Data from the AIRS sounder on Aqua has been 
provided to forecasting centers for use in numerical weather prediction 
(NWP).
    Improvement is expected in two areas: NWP and direct forecaster use 
of imagery/products. Improvements in NWP are most directly related to 
the assimilation of data from the Cross-track Infrared Sounder (CrIS) 
and the Advanced Technology Microwave Sounder (ATMS). Much of this 
improvement results from using the increased knowledge of the vertical 
structure (temperature, moisture, and pressure) of the atmosphere 
provided by these sensors to allow significant reduction in the number 
of very poor forecasts. The certified NPOESS program should provide 
expected improvements in NWP when compared to today's performance based 
on operational sensors.
    Improvements due to direct forecaster use of imagery/products are 
expected mostly from the Visible/Infrared Imager/Radiometer Suite 
(VIIRS). VIIRS will allow forecasters to better monitor, detect, and 
track weather in data sparse polar regions, such as Alaska, and 
surrounding oceans.
    CMIS was expected to provide ocean surface wind vectors (speed and 
direction). This type of data is useful for hurricane and ocean weather 
forecasting, as demonstrated by NASA's research QuikSCAT satellite. 
Specific benefits include more accurate tropical storm/hurricane 
intensity forecasts and more accurate gale and hurricane force wind 
event warnings over expansive oceanic areas. The new microwave imager/
sounder (i.e., CMIS replacement) in the certified program will most 
probably provide wind speed and direction information. The use of the 
Advanced SCATterometer (ASCAT) on MetOp will partially mitigate this 
loss by providing wind speed and direction information until this new 
imager/sounder is available on the second NPOESS satellite (C-2).
    OMPS-Nadir allows us to detect the total column amount of ozone in 
the atmosphere. Ozone in the stratosphere affects the heat balance and 
radiation balance and a lack of knowledge could impact forecasting due 
to the role energy balance plays in numerical models. The limb sensor, 
as yet not flown on operational satellites, provides high-resolution 
information about the vertical distribution of ozone through much of 
the stratosphere, including the lower stratosphere where most of the 
observed ozone depletion has taken place.
    CERES provides knowledge of the Earth's radiation budget (incoming 
versus outgoing radiation). Knowledge of this sort can help predict 
general circulation and where imbalances may occur. This type of data 
is used in modeling to help predict movement and intensification of 
features and phenomena. CERES is the same sensor as Earth Radiation 
Budget Satellite (ERBS) but with a few earlier generation components. 
In the current certified program, the probability of a gap between the 
CERES instrument currently flying aboard NASA's Aqua spacecraft 
(launched in 2002) and that on C-1 is quite high. Given the challenge 
of calibration of radiation budget measurements, the impending gap will 
complicate efforts to determine long-term trends in the radiation 
budget.

Q4.  The CMIS sensor was removed from NPOESS and a scaled-back 
replacement sensor will be developed, but is not scheduled for flight 
until the second NPOESS satellite in 2016. What satellite and/or 
sensors (civilian, military, European, other) currently provide CMIS-
like information? What is the expected lifetime of these satellites 
and/or sensors? Will they last until 2016? What is the difference in 
capability between the current satellites/sensors and what CMIS would 
have provided? What is the difference in capability between what CMIS 
would have provided and the proposed replacement sensor?

A4. Conical-scanning Microwave Imager/Sounder (CMIS)-like data is 
provided by several sensors:

        <bullet>  The National Weather Service uses ocean wind speed 
        and direction data obtained from NASA's QuikSCAT for its 
        operational products. QuickSCAT continues to perform past its 
        prime mission that ended in 2001, and its first extended 
        mission that ended in 2005; NASA is hopeful that QuikSCAT will 
        continue to operate throughout its planned second extended 
        mission that will be complete in September 2009.

        <bullet>  An Advanced Scatterometer (ASCAT) will be flown on 
        European polar orbiters from 2006 to 2020 and will produce 
        CMIS-like data. The ASCAT sensor provides ocean surface wind 
        speed and direction but does not provide some ocean, land and 
        atmospheric data that CMIS was tasked to produce (e.g., soil 
        moisture).

        <bullet>  WINDSAT, a Navy experimental satellite, provides wind 
        speed and direction and some of the imagery products expected 
        from CMIS. WINDSAT is past its expected lifetime of 2006 and 
        continues to perform.

        <bullet>  NOAA's POES and the European polar orbiter, MetOp, 
        both fly the Advanced Microwave Sounding Unit (AMSU), which 
        provides the sounding data and some of the imagery provided by 
        CMIS but does not have the same resolution as CMIS. The 
        certified NPOESS program will fly an instrument similar to 
        AMSU, the Advanced Technology Microwave Sounder (ATMS), in the 
        afternoon orbit. AMSU will be available on MetOp through 2020 
        and ATMS will fly on NPOESS through 2026.

        <bullet>  NASA flies the Advanced Microwave Scanning Radiometer 
        (AMSR-E) on its Earth Observing System (EOS) Aqua mission. This 
        is a Japanese sensor with products very similar to CMIS. AMSR-E 
        is expected to operate until 2009.

        <bullet>  DOD flies the Special Sensor Microwave Imager (SSMI) 
        and the Special Sensor Microwave Imager/Sounder (SSMI/S) on its 
        Defense Meteorological Satellite Program (DMSP) satellites. 
        These sensors have a similar product suite to CMIS; however, 
        they cannot measure ocean wind direction and can only provide 
        soil moisture over a limited area. They both have degraded 
        resolution compared to what CMIS would have provided. The SSMI 
        sensors are being replaced by the more modern SSMI/S in 2008. 
        SSMI/S is manifested on all remaining DMSP satellites and 
        should last until at least 2019.

    CMIS would have been able to provide some small improvements to 
existing capabilities to delineate between different meteorological 
features, such as atmospheric temperature and moisture profiles.
    The replacement microwave/imaging sensor for the certified NPOESS 
program is still being defined. The new sensor will reduce risk while 
maintaining data continuity and improvements for weather forecasting.

Q5.  The new NPOESS program relies on Europe to provide data for the 
mid-morning orbit. This is not a new idea, but one that had to be 
abandoned earlier in the program. What agreement(s) are already in 
place with Europe? Do those agreement(s) need to be altered in light of 
the Nunn-McCurdy decision? Does the United States need to develop new 
agreements with the Europeans? Given that Europe has backed out of 
agreements in the past, what assurances do we have that they will be 
reliable partners now?

A5. The heart of NPOESS cooperation with Europe is NOAA's long-time 
cooperative relationship with the European Organisation for the 
Exploitation of Meteorological Satellites (EUMETSAT). EUMETSAT is 
comprised of 20 member states, the majority of which are fellow members 
of NATO and members of the European Union. The NOAA-EUMETSAT 
partnership has spanned over two decades and has emerged stronger from 
each challenge it has faced. EUMETSAT has always fulfilled its 
cooperative obligations to NOAA.
    In the 1998 Initial Joint Polar-orbiting Satellite (IJPS) system 
agreement, NOAA and EUMETSAT agreed to coordinate fully their 
independent polar satellite systems, including exchange of instruments 
and data. In this agreement, EUMETSAT agreed to assume the cost and 
responsibility of the mid-morning polar orbit previously covered by 
NOAA. In 2003, NOAA and EUMETSAT signed the Joint Transition Activities 
(JTA) agreement, which extended our cooperation through the NPOESS era.
    In light of the Nunn-McCurdy decision, we are engaging in 
discussions with EUMETSAT to verify whether the current JTA agreement 
still meets the intent of the original cooperation. NOAA and EUMETSAT 
plan to continue polar cooperation into the long-term and to sign new 
agreements focused on future systems.
    EUMETSAT has made significant efforts to assist NOAA and the United 
States in times of need. In 1991, when U.S. geostationary satellite 
coverage was reduced to a single satellite, EUMETSAT provided coverage 
of the Western Atlantic by moving one of its satellites until the new 
generation of U.S. geostationary satellites was launched in 1994. Since 
1998, EUMETSAT has positioned a geostationary satellite over the Indian 
Ocean, giving NOAA the ability to monitor tropical cyclones in that 
strategically important area of the world. In 2003 at a critical time, 
working with NOAA and the U.S. Air Force, EUMETSAT agreed to modify 
their imaging over Southwest Asia to provide the United States with 
more frequent, higher-quality data of the region. The U.S. Department 
of Defense expressed appreciation to EUMETSAT for its outstanding 
support. In 2005, EUMETSAT agreed to another imaging modification to 
provide better coverage in areas where tropical storms form affecting 
the United States.

Q6.  What was the production unit cost in current dollars for each of 
the last several POES satellites? What would be required to 
reconstitute the POES production line, allowing for the insertion of 
new sensors and technology in cases where obsolescence is an issue? How 
much would it cost to reconstitute this production line?

A6. The average cost to design, build, and launch the last four Polar-
orbiting Operational Environmental Satellites (POES)--NOAA-15 to NOAA-
18--has been $425 million (in FY 2006 dollars). This figure includes 
spacecraft, instruments, technical oversight management, technical 
support, and launch services but does not include ground system 
infrastructure development and maintenance or operations.
    These satellites were built between 1988 and 2003 and launched 
between 1998 and 2005. NOAA does not believe that the current 
production line of instruments and spacecraft could be extended to 
produce more POES satellites due to obsolescence of parts, difficulties 
with maintaining personnel experienced with the current design, and the 
high cost of maintaining aging assembly, integration, and test support 
equipment. However, we have looked at what it would take to extend the 
POES program assuming new technology and a new production system with 
capabilities that maintain POES continuity of data and services. We 
estimate that the average cost to design, build, launch, and operate 
two POES-continuity satellites would be $1.4 billion each (in FY 2006 
dollars). We estimate that the average cost to design, build, launch, 
and operate two POES satellites with improved capabilities would be 
$2.6 billion each (in FY 2006 dollars). In each case, these satellites 
would be in development between 2007 and 2015.

Q7.  How much were you able to reduce the total life cycle costs of the 
NPOESS program by eliminating two satellites (C-5 and C-6) from the 
NPOESS constellation?

A7. Estimates for total life cycle cost were not completed in the Nunn-
McCurdy analysis. The DOD Cost Analysis and Improvement Group (CAIG) 
estimated the acquisition costs, an integral facet of life cycle cost. 
Approximately $3 billion was eliminated from the NPOESS program 
acquisition cost by eliminating the two satellites from the baseline 
program scheduled to fly in the mid-morning orbit.

Q8.  Please explain the acquisition strategy for developing the CMIS 
replacement sensor. What is the timeframe for any competition? What 
role will the government play in developing this sensor? How much will 
the CMIS replacement sensor cost compared to the original CMIS?

A8. The NPOESS Integrated Program Office (IPO) is currently conducting 
a trade study to determine the best value acquisition strategy to 
achieve the lowest risk and best performing sensor for the funds 
available. The performance must be at least as good as the sensors on 
the Defense Meteorological Satellite Program (DMSP) and Polar-orbiting 
Operational Environmental Satellite (POES), and it must satisfy the 
NPOESS microwave Key Performance Parameter (KPP).
    There are two strategies being considered:

        <bullet>  Open competition with industry to build the 
        Engineering and Manufacturing Development (EMD) and flight 
        units

        <bullet>  A government entity (lab) building the EMD sensor and 
        transitioning the flight units to industry through an open 
        competition

    The trade study is expected to reach a conclusion by Fall 2006. A 
recommendation will be briefed to the NPOESS Executive Committee 
(EXCOM) for final decision.
    The CAIG completed a cost estimate for the Conical scanning 
Microwave Imager/Sounder (CMIS) program as part of the Nunn-McCurdy 
process. The CAIG cost estimate for the modified baseline program (six 
flight units) was $1,609M of which $209M has been expended. The 
estimate for the certified program is $1,076M (including the $209M 
expended) for three new Microwave Imager Sounder (MIS) flight units. 
The specifications for the new Microwave Imager Sounders are considered 
by the Nunn-McCurdy team to have less technical and financial risk than 
continuing the CMIS program.

Q9.  If, as is presumably the case, contract negotiations for the new 
certified NPOESS baseline will not be in place until after the FY 2008 
President's budget request is transmitted to Congress, what process and 
parameters will be used to develop the FY 2008 spending plan for 
NPOESS?

A9. Negotiations with the contractor on the Nunn-McCurdy Certified 
program will not be completed in time to support the development of the 
FY 2008 President's budget. During the Nunn-McCurdy process, the DOD 
Cost Analysis Improvement Group (CAIG) developed a cost estimate of the 
by-year funding needs for the certified program. Per the Acquisition 
Decision Memorandum, the CAIG estimate will be the basis for developing 
the program's FY 2008 requirement.

Q10.  The CAIG estimate for the restructured NPOESS program will not 
require the DOD or NOAA to request additional money for NPOESS until FY 
2010 and beyond. Please explain how a program that is growing almost 50 
percent over its previous baseline does not require any new funding for 
four more years. Also, please provide the original annual cost 
estimates for NPOESS for each of Fiscal Years 2010-2020 and the new 
cost estimates for each of Fiscal Years 2010-2020. On what basis does 
the CAIG and/or the EXCOM believe additional funds will be available in 
FY 2010 and beyond for NPOESS?

A10. The Nunn-McCurdy certified program incorporates both schedule 
slips and secondary sensor removal from the baseline program, both of 
which reduced the need for near-term funding. The DOD Cost Analysis 
Improvement Group (CAIG) was asked to estimate the dollar needs by 
fiscal year and determined that no new money would be required until FY 
2010.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The NPOESS Executive Committee (EXCOM) members have agreed to work 
within their agencies to ensure that budget requests are made that 
reflect the Nunn-McCurdy certified program.

Q11.  What margins are built into the new NPOESS program schedule in 
case of future technical or other difficulties? Please specify the 
margins for each sensor and other component (i.e., ground system, 
integration, spacecraft) of the program. How do these margins differ 
from those in place prior to the Nunn-McCurdy review? Are these margins 
adequate to reduce risk in the NPOESS program?

A11. The DOD Cost Analysis Improvement Group (CAIG) built a 12-month 
schedule margin into their acquisition cost estimate. The certified 
program schedule was arrived at by comparing development periods of 
analogous historical programs for those items considered to be on the 
critical paths.
    The NPOESS program office is now working with Northrop Grumman to 
develop the contractual schedules necessary to accomplish the Nunn-
McCurdy certified program. These schedules will serve as the basis for 
negotiating a major modification to the Northrop Grumman contract. The 
Government's goal is to add adequate schedule margin to specific 
components of the NPOESS program in order to achieve a high degree of 
schedule confidence.
    With NPOESS management changes in both the government and 
contractor facilities; maturity of NPOESS; and data from government and 
independent reviews, we believe the margin recommended as a result of 
the Nunn-McCurdy process is sufficient to reduce the risk of the NPOESS 
program.

Q12.  Please provide the status and cost estimate, including cost-to-
date and cost-to-complete, for developing each of the following 
sensors: VIIRS, CMIS, CrIS, ATMS, OMPS-Nadir, and CERES. Please also 
provide the recurring cost to produce each of these sensors.

A12. The following table shows the Nunn-McCurdy program estimates:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                   Answers to Post-Hearing Questions
Responses by Michael D. Griffin, Administrator, National Aeronautics 
        and Space Administration

Questions submitted by Chairman Sherwood L. Boehlert

Q1.  NASA has a large amount of responsibility for environmental and 
climate observations from space. Given that many of the sensors 
necessary to provide such observations have been removed from the 
certified National Polar-orbiting Operational Environmental Satellite 
System (NPOESS) program and additional funding over and above the $11.5 
billion will be required to add them back, how will NASA meet its 
mission requirements in this area? What is NASA's mitigation strategy 
for each of the removed sensors (Aerosol Polarimetry Sensor, Ozone 
Mapping and Profile Suite-Limb, Earth Radiation Budget, and Total Solar 
Irradiance Sensor) to fill the data gap created by removing the 
secondary sensors important to NASA from NPOESS? Are any of NASA's 
mitigation activities in place already? Is any element of NASA's 
mitigation strategy already included in the $11.5 billion estimate for 
the new NPOESS program?

A1. NASA's role with the NPOESS program is well defined: to develop and 
demonstrate certain technologies with the NPOESS Preparatory Project 
and provide long-term climate measurements for the science community. 
In working with the Air Force and National Oceanic and Atmospheric 
Administration (NOAA) through the Nunn-McCurdy re-certification process 
for NPOESS, we placed a higher priority on the continuity of legacy 
operational capabilities, which resulted in a lower priority for a 
number of environmental and climate measurement capabilities. Thus, we 
decided to defer or delete those sensors that do not provide continuity 
with existing operational measurements.
    NASA, along with the science community, is concerned with unmet 
expectations for key climate measurements and changes in climate 
capabilities in the revised NPOESS configuration. The loss of many of 
the climate sensors from the NPOESS program has had a significant 
impact on NASA's Earth science program planning. NASA is working with 
the science community, international partners, as well as the Office of 
Science and Technology Policy, NOAA, and the Air Force to define those 
climate measurements which are of the highest priority and which might 
be hosted on other satellite platforms.
    In addition, we have directed that the National Research Council 
(NRC) Decadal Survey address the impact of the loss of these sensors 
from NPOESS and prioritizes the requirements for this data.
    The $11.5 billion estimate for the NPOESS program does not include 
any mitigation for the removed instruments. However, the NPOESS program 
estimates do include funding for the integration of some of the climate 
sensors back onto NPOESS if funding for the sensors could be 
identified.

Q2.  What is the estimated cost and schedule (reasonably optimized to 
minimize cost) to complete each of the following instruments? The 
Aerosol Polarimetry Sensor, Ozone Mapping and Profile Suite-Limb, Earth 
Radiation Budget and Total Solar Irradiance Sensor.

A2. The NPOESS Integrated Program Office (IPO) oversees the Air Force 
contract for the Ozone Mapping and Profile Suite (OMPS)-Limb sensor so 
the latest cost details for this instrument would best be obtained from 
them. The instrument was scheduled to be delivered to the NPP 
spacecraft in June 2008 to support the September 2009 launch. The IPO 
is in the process of obtaining the cost implications of removing the 
limb sensor, which is nearly complete, versus flying the sensor on NPP.
    The Aerosol Polarimetry Sensor, Earth Radiation Budget Sensor and 
the Total Solar Irradiance Sensor contracts have not been awarded yet 
since they were not planned for flight until 2016 or later. The budget 
estimates for those sensors should be obtained from the IPO.

Q3.  How much was the total life cycle costs of the NPOESS program 
reduced by removing the climate-related sensors? How much would it cost 
to put the climate-related sensors back on NPOESS? Were options that 
included scaled-back versions of those sensors analyzed? In answering 
the question, please provide an estimate of total life cycle cost 
savings as well as estimated savings per sensor. To what extent were 
concerns about the technical difficulty in having additional sensors on 
the satellite bus a factor in the decision to remove the climate-
related sensors? If technical difficulty was a concern, why is space 
being allotted to add the climate-related sensors back to the 
satellite?

A3. During the Nunn-McCurdy Certification process, the Office of the 
Secretary of Defense (OSD) Cost Analysis Improvement Group (CAIG) 
estimated that a total of $862.6 million would be saved by deleting the 
secondary sensors:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    There has not been any further analysis to determine what the total 
cost would be to add these sensors to NPOESS or some other platform in 
the future, but it is assumed that the cost would be at least the 
amount indicated above.
    The only sensor where scaled-back versions were considered during 
the Nunn-McCurdy process was the Conical Scanning Microwave Imager/
Sounder (CMIS) sensor. The size and rotating mass of the CMIS sensor 
was likely to cause significant effort to accommodate this sensor on 
the NPOESS spacecraft. The decision to stop work and revisit the 
microwave imaging and sounding requirements was driven by the likely 
impact to the overall system that this sensor would have.
    During the Nunn-McCurdy process, a higher priority was given to 
continuity of legacy operational capabilities, which resulted in a 
lower priority for a number of environmental and climate measurement 
capabilities; this led to the deferral or elimination of a number of 
the climate sensors from the baseline program that did not provide 
continuity with existing operational measurements. The decision to 
eliminate climate sensors was not driven by technical complexity.

Q4.  Both Admiral Lautenbacher and you testified that the decision to 
build a full size NPOESS spacecraft that can house all of the 
originally proposed sensors ``was made because the EXCOM agreed any 
additional funding gained through contract renegotiation or in 
unutilized management reserve would be used to procure these secondary 
sensors.'' Additionally, Admiral Lautenbacher said that as part of the 
Nunn-McCurdy requirements review process, a prioritized list of 
additional sensors was developed. Please provide a copy of the 
prioritized list of additional sensors. If additional funds become 
available, what process will be used to select which additional sensors 
can be put on the satellite? And who will make the final decision on 
what will be flown?

A4. The NPOESS Senior User Advisory Group (SUAG) has detailed the 
user's statement of priorities for the NPOESS non-manifested sensors as 
follows:

Non-Manifested Sensor Priority:

1.  Altimeter (ALT)

2.  Ozone Mapping and Profiler Suite (OMPS) Limb Sensor

3.  Total Solar Irradiance Sensor (TSIS)

4.  Earth Radiation Budget Sensor (ERBS)

5.  Aerosol Polarimetry Sensor (APS)

6.  Survivability Sensor (SuS)

    In addition, the SUAG believed the goal of maintaining continuity 
with DMSP fell short in some areas with respect to space environment 
monitoring and recommended portions of the Space Environmental Sensor 
Suite (SESS) be restored into the afternoon and early morning orbits. 
The SUAG also expressed support for flying a microwave imager/sounder 
in the early AM and PM orbits.
    If additional funds become available, the list will be used to fund 
the sensors in the prioritized order. If a specific agency proposes 
funding for a specific sensor, then that sensor will be procured, 
regardless of its priority. The Program Director, with advice from the 
PEO and EXCOM, will have the ultimate authority with respect to funding 
a given sensor.

Q5.  The CMIS sensor was removed from NPOESS and a scaled-back 
replacement sensor will be developed, but is not scheduled for flight 
until the second NPOESS satellite in 2016. What satellite and/or 
sensors (civilian, military, European, other) currently provide CMIS-
like information? What is the expected lifetime of these satellites 
and/or sensors? Will they last until 2016? What is the difference in 
capability between the current satellites/sensors and what CMIS would 
have provided? What is the difference in capability between what CMIS 
would have provided and the proposed replacement sensor?

A5. There are a number of sensors that provide data similar to the 
Conical Scanning Microwave Imager/Sounder (CMIS) sensor data. CMIS was 
intended to provide wind speed and direction, soil moisture, imagery, 
and atmospheric sounding. The Special Sensor Microwave Imager (SSMI) 
and Special Sensor Microwave Imager/Sounder (SSMI/S) instruments fly on 
the DMSP satellites are currently providing microwave observations but 
are not able to provide the wind speed and direction that CMIS would 
have provided. The DMSP satellites will fly the SSMI/S sensors through 
into the 2019 timeframe.
    The Advanced Microwave Scanning Radiometer for Earth Observing 
System (AMSR-E) was launched on NASA's Aqua satellite in May 2002 and 
provides sea surface temperatures, ice temperatures, and an indication 
of soil moisture. Aqua has a mission lifetime requirement of six years 
and should be expected to last into 2008.
    The Navy is flying a demonstration mission of a sensor similar to 
CMIS on their WindSat satellite. WindSat provides wind speed and 
direction and some of the imaging capability that CMIS would provide. 
It is currently beyond its expected lifetime on orbit.
    MetOp is flying a scatterometor sensor the Advanced Scatterometer 
(ASCAT) which will provide wind speed and direction observations 
through the life of MetOp C into the 2020 timeframe.
    CMIS was to provide improvement over heritage sensors in many 
aspects. It would have provided improvements in resolution, measurement 
accuracy and precision, and reliability. The replacement microwave 
imager/sounder has yet to be defined but will likely revert to the 
operational measurements currently being taken on the DMSP satellites.

Q6.  Please provide the total cost to build the NPOESS Preparatory 
Project (NPP) satellite, including a breakdown for the spacecraft bus 
and the cost for the flight unit for each of the sensors? Could a 
second NPP satellite bus be outfitted with the climate sensors removed 
from NPOESS? (Aerosol Polarimetry Sensor, Ozone Mapping and Profile 
Suite-Limb, Earth Radiation Budget, and Total Solar Irradiance Sensor). 
If so, what would it cost to build a second NPP satellite bus and 
outfit it with the climate sensors removed from NPOESS?

A6. NASA is responsible for the NPP spacecraft procurement, the ATMS 
sensor development, Launch and mission management and the costs for 
those portions of the NPP project are listed below. These costs are 
from the FY 2007 President's Budget Request based on an April 2008 
launch. Since that submission, the Nunn-McCurdy process and OSD CAIG 
estimates have established July 2008 as a most likely delivery date for 
VIIRS. This will push the launch readiness date for NPP to September 
2009. The budget request supporting a September 2009 launch is still 
being worked as part of NASA's FY 2008 budget development process.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The costs for the NPOESS IPO provided sensors are not included 
above and are part of the overall NPOESS procurement. Below are the 
sensor contract costs provided by the IPO for the VIIRS, CrIS, and 
OMPS.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Aerosol Polarimetry Sensor (APS), Ozone Mapping and Profile 
Suite (OMPS)-Limb, Earth Radiation Budget Sensor (ERBS), and Total 
Solar Irradiance Sensor (TSIS) could all be accommodated on a bus the 
size of the NPP bus. However, the cost of this mission has not been 
estimated.

Q7.  The proposed plan now calls for delaying the NPOESS Preparatory 
Project (NPP), NASA's major contribution to the NPOESS program, by 
nearly three years to September 2009. Since program delays inevitably 
increase costs, how much will this delay increase the cost of NPP for 
NASA? Where in NASA's budget will you find the additional NPP funding?

A7. NASA is still in the process of developing the FY 2008 budget 
request, so we can only provide information on the cost increase up 
through the FY 2007 President's request. The FY 2007 Budget includes a 
projected cost increase of $120 million for an 18 month launch delay 
from October 2006 to April 2008. The additional funding for the delay 
of NPP from April 2008 to September 2009 will come from other Science 
Mission Directorate projects.

Q8.  If, as is presumably the case, contract negotiations for the new 
certified NPOESS baseline will not be in place until after the FY 2008 
President's budget request is transmitted to Congress, what process and 
parameters will be used to develop the FY 2008 spending plan for 
NPOESS?

A8. Negotiations for the certified NPOESS program will not be completed 
in time to support the FY 2008 budget submissions. Although NASA does 
not request funding for the NPOESS program, NASA does submit budget 
requirements for the NPOESS Preparatory Project (NPP). The budget 
request for NPP is being developed against a September 2009 launch 
readiness date. This date was developed during the Nunn-McCurdy process 
based on a likely Visible/Infrared Imager/Radiometer Suite (VIIRS) 
delivery date of July 2008. The NASA project office is working closely 
with the IPO to ensure that the negotiations maintain sensor delivery 
dates developed during the Nunn-McCurdy process.

                   Answers to Post-Hearing Questions
Responses by Ronald M. Sega, Under Secretary of the Air Force, U.S. 
        Department of Defense

Questions submitted by Chairman Sherwood L. Boehlert

VIIRS

Q1.  During the question and answer portion of your testimony before 
the Committee, Mr. Gutknecht asked you about the status of the VIIRS 
sensor and whether the testing of this sensor had experienced technical 
problems. You responded as follows: ``Sir, in the VIIRS sensor (the 
engineering and development unit that we mentioned last time that we 
thought it was important to have that work completed prior to the 
flight unit) has successfully passed vibration testing. Flight units, 
flight unit electronics have completed a thermovac testing. The 
engineering development unit is in the thermovac testing process right 
now. They are looking at a backup plan, in the event that there are 
problems on VIIRS as we go forward; but at this time, it is proceeding 
along.'' (Hearing Transcript, page 67)

     Your answer that the testing of the VIIRS engineering development 
unit (EDU) was ``proceeding along'' did not directly, address Mr. 
Gutknecht's question with respect to technical problems experienced 
during VIIRS EDU testing. The Committee understands that the 
subcontractor experienced technical problems with the testing chamber 
when trying to conduct the thermal-vacuum testing on the VIIRS EDU that 
took approximately two to four weeks (and additional resources from 
Northrop Grumman) to resolve. Please clarify your answer with respect 
to any technical problems experienced during thermal-vacuum testing of 
the VIIRS EDU and provide the Committee with an update on the status 
and progress of this testing.

A1. The subcontractor experienced difficulty with the chamber itself 
and not with the VIIRS instrument in late May. The Thermal Vacuum 
Chamber (TVAC) was unable to adequately control temperatures on five 
key cold plates necessary for control of the VIIRS payload temperature 
test profile. After two weeks of troubleshooting, it was determined 
that cooling carts were necessary to ensure hardware would only be 
exposed to the appropriate temperature range and to continue the VIIRS 
TVAC testing. A complete review was conducted by the Integrated Program 
Office, NASA, Northrop Grumman Space Technology, and Raytheon Santa 
Barbara Remote Sensing. The review recommended the addition of cooling 
carts and an implementation plan which was relatively low-risk to 
hardware and well planned from a process and procedure perspective. 
Subsequently, the cooling carts were installed and testing was resumed.

ADDITIONAL SENSORS

Q2.  Both Admiral Lautenbacher and you testified that the decision to 
build a full size NPOESS spacecraft that can house all of the 
originally-proposed sensors ``was made because the EXCOM agreed any 
additional funding gained through contract renegotiation or in 
unutilized management reserve would be used to procure these secondary 
sensors.'' Additionally, Admiral Lautenbacher said that as part of the 
Nunn-McCurdy requirements review process, a prioritized list of 
additional sensors was developed. Please provide a copy of the list of 
the prioritized list. If additional funds become available, what 
process will be used to select which additional sensors can be put on 
the satellite? And who will make the ultimate decisions?

A2. The proposed priority of the non-manifested sensors was developed 
by the Senior Users Advisory Group (SUAG) as follows:

        1.  Altimeter (ALT)

        2.  Ozone Mapping and Profiler Suite (OMPS) Limb Sensor

        3.  Total Solar Irradiance Sensor (TSIS)

        4.  Earth Radiation Budget Sensor (ERBS)

        5.  Aerosol Polarimetry Sensor (APS)

        6.  Survivability Sensor (SuS)

    If additional funds became available, the SUAG would make a 
recommendation, through the SPD and PEO to the EXCOM for a subsequent 
decision.

WEATHER FORECASTING

Q3.  In your testimony, you indicate that the certified NPOESS program 
will improve the quality of weather forecasting. What specific 
improvements will each NPOESS sensor (VIIRS, CMIS, CrIS, ATMS, OMPS-
Nadir, CERES) provide for weather forecasts? What is the difference 
between these improvements and what you were expecting from each of the 
sensors on the original NPOESS program?

A3. As currently planned, Visible Infrared Imager Radiometer Suite 
(VIIRS) will provide three times as many observing channels as current 
systems. Multi-spectral data from VIIRS will enable forecasters to 
differentiate between clouds at various altitudes, snow cover, and 
airborne dust and particulates. No change from original program 
capabilities.
    The new microwave sensor should retain the most critical 
capabilities that had been planned for the original Conical Microwave 
Imager Sounder (CMIS) as an improvement over the Special Sensor 
Microwave Imager Sounder (SSMIS) sensor on DMSP and POES. CMIS, as 
written in the original requirements, would have provided more detailed 
data on soil moisture content, which is used to support deploying 
ground and amphibious forces and for flood prediction and control.
    Cross-track Infrared Sounder (CrIS) and Advanced Technology 
Microwave Sounder (ATMS) will provide fifty times more observing 
channels than current sensors. Their data will yield an unprecedented 
capability to vertically profile the atmosphere in temperature, 
humidity, and pressure. These data will improve weather forecast model 
initialization, which significantly reduces forecast errors as the 
model propagates over time and improves forecast accuracy. Current CrIS 
and ATMS capabilities remain as originally planned.
    The Navy and the National Centers for Environmental Prediction 
(NCEP) are making efforts to include data from the Ozone Mapping and 
Profiler Suite (OMPS) nadir mapper in their forecast models. The Air 
Force Weather Agency uses NCEP's Global Forecast System (GFS) to 
initialize its models. The delta between the original and restructured 
NPOESS is the loss of the OMPS limb profiler. The limb profiler data 
increases the ozone data available, but useful data can be obtained 
from the nadir mapper. Also, the profiler would have an average revisit 
time of four days, which is sufficient for climate science, but may not 
be as useful in forecasting for military operations.
    CERES,which is currently in operation on three NASA research 
satellites, is replacing the Earth Radiation Budget Sensor (EBBS). ERBS 
would have built upon CERES sensors and would have been very similar to 
CERES, gathering data from approximately the same three spectral 
channels. CERES and/or ERBS data could be used as a basic input for 
extended range (two-week) forecasts.
    The Space Environmental Sensor Suite (SESS) capabilities will be 
below legacy capabilities, but we will be able to use MetOp data to 
mitigate this reduction. The first block does not include the 
capability to remotely sense the ionosphere, which is used to forecast 
impacts upon satellite communications and precision navigation and 
targeting. To mitigate the reduction in space weather data, EUMETSAT's 
MetOp will provide a Space Environmental Monitor (SEM) capability in 
the mid-morning orbit. Space environmental data will also continue to 
be provided by NOAA's Geostationary Operational Environmental Satellite 
(GOES) satellites and the DOD ground based Digital Ionospheric Sounding 
System and Solar Observatories. The Radar Altimeter (ALT) was also not 
manifested in the first block of the restructured program, and was 
intended to globally measure sea surface height and wave 
characteristics.

SENSOR COSTS

Q4.  Please provide the status and cost estimate, including cost-to-
date and cost-to-complete, for developing each of the following 
sensors: VIIRS, CMIS, CrIS, ATMS, OMPS-Nadir, and CERES. Please also 
provide the recurring cost to produce each of these sensors.

A4. Based on Nunn-McCurdy CAIG Estimate, the following table shows all 
requested data.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


CMIS SENSOR

Q5.  The CMIS sensor was removed from NPOESS and a scaled-back 
replacement sensor will be developed, but is not scheduled for flight 
until the second NPOESS satellite in 2016. What satellite and/or 
sensors (civilian, military, European, other) currently provide CMIS-
like information? What is the expected lifetime of these satellites 
and/or sensors? Will they last until 2016? What is the difference in 
capability between the current satellites/ sensors and what CMIS would 
have provided? What is the difference in capability between what CMIS 
would have provided and the proposed replacement sensor?

A5. The Defense Meteorological Satellite Program (DMSP) carries a 
microwave imager that provides imagery similar to that which CMIS 
(Conical Microwave Imager Sounder) was expected to provide, but with 
only one third of the number of observing channels. Also, the Polar-
orbiting Operational Environmental Satellite (POES) system and the 
European Meteorological Operational (Met0p) satellites carry microwave 
sounders. Barring any premature failures, the remaining spacecraft and 
sensors in the DMSP and MetOp programs should operate long enough for 
the second NPOESS spacecraft to replace them in 2016. The joint NASA/
Japanese Tropical Rainfall Measuring Mission (TRMM) is also used for 
hurricane assessment and hosts a microwave imager sensor that has been 
on-orbit since 1997. The Tropical Rainfall Measuring Mission (TRMM) 
will be replaced by the Global Precipitation Measurement Mission no 
earlier than 2010.
    The NPOESS Integrated Program Office (IPO) is currently conducting 
trade studies lending to the identification of the full capabilities of 
the proposed new microwave sensor.

DMSP SATELLITES

Q6.  What was the production unit cost in current dollars for each of 
the DMSP satellites in the last block upgrade (F15-F20)? What would be 
required to reconstitute the DMSP production line, allowing for the 
insertion of new sensors and technology in cases where obsolescence is 
an issue? How much would it cost to reconstitute this production line?

A6. At the time the DMSP production line was open, the production unit 
cost for each Defense Meteorological Satellite Program (DMSP) Block 5D-
3 satellite in current dollars is $461M.
    DMSP satellites have been out of production since FY99 and it would 
not be technically feasible to reconstitute the former DMSP production 
line. In order to provide a similar DMSP capable satellite, a new line 
would need to be established with many new components (due to parts 
obsolescence), and costs would need to be considered for ground command 
and control facility modification, direct receipt terminals 
acquisition, and modifications to data exploitation systems at the Air 
Force Weather Agency.

LIFE CYCLE COSTS

Q7.  How much were you able to reduce the total life cycle costs of the 
NPOESS program by eliminating two satellites (C-5 and C-6) from the 
NPOESS constellation?

A7. During the Nunn-McCurdy Certification, the OSD Cost Analysis 
Improvement Group (CAIG) did not estimate life cycle costs. However, 
the CAIG did estimate acquisition costs for the procurement of 
production satellites (C-3 and C-4). Their estimate for acquisition 
cost on each of these production satellites was approximately $1.4 
billion. Using these costs, a total of approximately $3 billion was 
eliminated from the Life Cycle Cost of the NPOESS program. The program 
office is still assessing operations and sustainment cost avoidance 
resulting from reduction of satellites and extension of schedule.

CONTRACT RENEGOTIATION

Q8.  How long will the contract renegotiation with the prime contractor 
be likely to take? When will you complete the integrated baseline 
review and have a final new contract in place?

A8. In accordance with the Acquisition Decision Memorandum signed by 
Mr. Krieg as a part of the Nunn-McCurdy process, the Integrated 
Baseline Review (IBR) must take place on or before April 2007. The 
NPOESS program office is currently working with the prime contractor to 
develop a negotiation schedule. Initial negotiations are expected to be 
complete no later than 60 days prior to the IBR. After the IBR, it 
could take approximately six months to finalize all terms and 
conditions in the contract and it is anticipated that the contract will 
be finalized not later than September 2007.

CMIS REPLACEMENT SENSOR

Q9.  Please explain the strategy for developing the CMIS replacement 
sensor? What is the timeframe for any competition? What role will the 
government play in developing this sensor?

A9. The Acquisition Strategy for the new microwave sensor will be 
defined in mid-FY07, at the completion of the Acquisition Strategy 
Trade Study. This study is assessing various industry and government 
options for their cost, performance and technical risks. The strategy 
options under consideration are: 1) Open competition--selection of an 
industry provided EMD and production microwave sensor; and 2) 
Government and industry partnership--with the EMD sensor built by a 
government entity (lab) and transitioned to industry for production.
    If Option 1 is selected, the industry developed sensor would be 
selected through open competition. If Option 2 is pursued, the 
government will play a key role in developing the sensor as the 
acquisition manager and possibly developer. Additionally in Opt 2, the 
industry partner would be involved from the earliest stages of the 
sensor development to ensure a successful transition to the industry 
partner for the production builds.

CMIS REPLACEMENT SENSOR

A10. When do you plan to send out the Request for Proposal for the CMIS 
replacement sensor? When would you decide on a contractor for building 
the CMIS replacement sensor? How much will the CMIS replacement sensor 
cost compared to the original CMIS?

A10. Timing of the competition depends on the strategy selected and the 
availability of funds. Currently, the Request for Proposal (RFP) is 
planned to be released by late FY07. The contractor selection is 
estimated to occur not more than six months following release of the 
RFP. An industry-only option would result in an FY08 Source Selection, 
with consent to proceed in FY09. An option that includes government 
development of the sensor, may delay the industry partner selection.
    Determination of the cost of the new microwave sensor will be 
accomplished in the process leading up to the release of the RFP.

FY 2008 SPENDING PLAN

Q11.  If, as is presumably the case, contract negotiations for the new 
certified NPOESS baseline will not be in place until after, the FY 2008 
President's budget request is transmitted to Congress, what process and 
parameters will be used to develop the FY 2008 spending plan for 
NPOESS?

A11. Negotiations on the Nunn-McCurdy Certified program will not be 
completed in time to support the submittal of the FY 2008 President's 
Budget.
    The new NPOESS government leadership team has used the cost 
estimate developed through the Nunn-McCurdy process, and the program's 
historical performance, to develop the program funding profile.

COSTS ESTIMATES

Q12.  The CAIG estimate for the restructured NPOESS program will not 
require the DOD or NOAA to request additional money for NPOESS until 
FY2010 and beyond. Please explain how a program that is growing almost 
50 percent over its previous baseline does not require any new funding 
for four more years. Also, please provide the original annual cost 
estimates for NPOESS for each of Fiscal Years 2010-2020 and the new 
cost estimates for each of Fiscal Years 2010-2020. On what basis does 
the CAIG and/or the EXCOM believe additional funds will be available in 
FY 2010 and beyond for NPOESS?

A12. The Nunn-McCurdy Certified program incorporates both schedule slip 
and secondary sensor removal from the baseline program. The CAIG 
estimated the Certified Program's fiscal year dollar needs and, as a 
result, determined that no new money would be required until FY 2010.
    Nunn-McCurdy Certified Program budget requirements versus FY 2007 
President's Budget ($'s in millions):
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The EXCOM has agreed to work within their agencies to ensure that 
funding requests for the entire program are made that reflect the Nunn-
McCurdy Certified program.

MARGINS

Q13.  What margins are built into the new NPOESS program schedule in 
case of future technical or other difficulties? Please specify the 
margins for each sensor and other component (i.e., ground system, 
integration, spacecraft) of the program. How do these margins differ 
from those in place prior to the Nunn-McCurdy review? Are these margins 
adequate to reduce risk in the NPOESS program?

A13. The OSD CAIG built in what amounts to a 12-month schedule margin 
into their Total Acquisition Cost Estimate. The 12-month margin was 
derived by the CAIG assessing the instrument schedules as well as the 
spacecraft development and integration schedules to identify critical 
path elements. The schedule assessments were based on actual 
performance to date as well as actual data from analogous systems. 
Based on these assessments, the CAIG identified delivery/launch 
schedules.
    The NPOESS program office is currently developing (with the 
contractors) the various schedules necessary to accomplish the 
requirements specified in the Nunn-McCurdy Certified program. The 
schedule margins for the components of the program will be developed as 
risk areas are identified by the contractor or Government personnel. 
These schedules will serve as the bases for negotiating the Certified 
program with the contractors. The goal is to maintain adequate schedule 
margin to specific components of the NPOESS program in order to 
maintain a high confidence schedule. When examining ways to reduce the 
overall risk of the program, the CAIG looked at individual components 
of the program and assessed where they lay in relation to the critical 
path to achieve launch. Then, using knowledge of similar systems, they 
added schedule to arrive at a reduced risk plan for the system. The 
specific components include:

        --  Visual Infrared Imager Radiometer Suite (VIIRS)

        --  Conical Microwave Imager Sounder (CMIS)

        --  Advanced Technology Microwave Sounder (ATMS)

        --  Cross Track Infrared Sounder (CrIS)

        --  Spacecraft

        --  Ground processing system (Interface Data Processor to 
        include algorithms)

        --  Ground Command, Control and Communications System (C3S)

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
